                                                                                                                                                                        2009


TABLE OF CONTENTS
MESSAGE FROM THE SECRETARY OF THE AIR FORCE ................................................................................................... II
MESSAGE FROM THE ASSISTANT SECRETARY OF THE AIR FORCE FOR FINANCIAL MANAGEMENT AND COMPTROLLER .. III
MANAGEMENT DISCUSSION AND ANALYSIS
       AIR FORCE HERITAGE ......................................................................................................................................1
       AIR FORCE CORE VALUES ................................................................................................................................2
       AIR FORCE CRITICAL CAPABILITIES ..................................................................................................................2
       AIR FORCE GOALS ...........................................................................................................................................2
       AIR FORCE IN ACTION – FY 2009 ...................................................................................................................3
              REINVIGORATE THE AIR FORCE NUCLEAR ENTERPRISE ...........................................................................3
              PARTNER WITH THE JOINT AND COALITION TEAM TO WIN TODAY’S FIGHT .............................................4
              DEVELOP AND CARE FOR AIRMEN AND THEIR FAMILIES .........................................................................4
              MODERNIZE OUR AGING AIR AND SPACE INVENTORIES, ORGANIZATIONS AND TRAINING ..........................4
              RECAPTURE ACQUISITION EXCELLENCE .................................................................................................5
       AIR FORCE STRUCTURE ....................................................................................................................................6
       AIR FORCE RESOURCES ..................................................................................................................................10
       AIR FORCE MAJOR MANAGEMENT INITIATIVES ................................................................................................11
              CHIEF MANAGEMENT OFFICER ............................................................................................................11
              MANAGEMENT OF AMERICAN RECOVERY AND REINVESTMENT ACT FUNDS ............................................11
              ENERGY AND ENVIRONMENTAL FOCUS ................................................................................................12
              PERSONNEL SERVICES DELIVERY .........................................................................................................13
              FINANCIAL SERVICES DELIVERY ..........................................................................................................13
              EXPEDITIONARY LOGISTICS FOR THE 21ST CENTURY...............................................................................14
       AIR FORCE FINANCIAL MANAGEMENT ASSURANCES .........................................................................................14
              CHIEF FINANCIAL OFFICER COMPLIANCE ............................................................................................15
              INTERNAL CONTROLS .........................................................................................................................15
              CONTINUOUS IMPROVEMENT ...............................................................................................................16
              PROGRESS TOWARDS AUDITABILITY.....................................................................................................16
AIR FORCE GENERAL FUND
       APPROPRIATIONS ............................................................................................................................................17
       CURRENT AND FUTURE FINANCIAL SYSTEMS - DEFENSE ENTERPRISE ACCOUNTING AND MANAGEMENT SYSTEM ..18
AIR FORCE WORKING CAPITAL FUND
       CONSOLIDATED SUSTAINMENT ACTIVITY GROUP-MAINTENANCE DIVISION .........................................................20
       SUPPLY MANAGEMENT ACTIVITY GROUP-RETAIL ............................................................................................22
FINANCING THE FIGHT ...............................................................................................................................................25
FINANCIAL STATEMENTS
       GENERAL FUND
              PRINCIPAL STATEMENTS .....................................................................................................................29
              NOTES TO THE PRINCIPAL STATEMENTS ...............................................................................................35
              REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION .....................................................................89
              REQUIRED SUPPLEMENTARY INFORMATION ........................................................................................101
              AUDIT OPINION ...............................................................................................................................107
       WORKING CAPITAL FUND
              PRINCIPAL STATEMENTS ...................................................................................................................117
              NOTES TO THE PRINCIPAL STATEMENTS .............................................................................................123
              REQUIRED SUPPLEMENTARY INFORMATION ........................................................................................161
              AUDIT OPINION ...............................................................................................................................163



                                                                                                                                                                          I
II
2009




 III
A C-130 Hercules flies over the American flag at the Iron Mike Memorial Ceremony June 7,
2009 at La Fiere, France. Hundreds came to honor those who sacrificed during D-Day and
World War II 65 years ago. (U.S. Army photo by Lea Greene)
                                                                                                                                        2009


MANAGEMENT DISCUSSION AND ANALYSIS
Air Force Heritage                                            on the coast of Normandy, secure a foothold and bring in
                                                              near limitless resources to achieve full victory. Out of the
                                                              approximate 13,000 aircraft supporting the invasion, 8,722
        “The eyes of the world are upon you.”
                                                              were American. American Air Force sorties dropped two
                                                              airborne divisions behind enemy lines, covered convoys
– Supreme Commander of the Allied Expeditionary Force,
                                                              approaching Normandy beaches, and delivered tons of
           General Dwight D. Eisenhower
                                                              bombs on coastal batteries and enemy troop concentrations.
                                                              Consensus among historians is that Allied air supremacy


N
        o truer words could describe the profoundly
                                                              was virtually complete over the approaches to the battle
        historic milestone we celebrate this year: the 65th
                                                              area. In the first 24 hours, the Allies landed about 155,000
        anniversary of the 1944 D-Day invasion of France.
                                                              troops and controlled 62 miles of French coastline at a cost
Profound in regard to the universal understanding that the
                                                              of around 10,000 lives.
outcome of the invasion equated to victory or defeat in the
war. Impactful in the exponential expansion in Airmen
                                                              Today’s United States Air Force continues to offer the
and plane numbers as the Air Corps of 1939 (20,000
                                                              capabilities of air and logistical power exhibited during
Airmen/2,400 aircraft) transitioned into the 1944 Army Air
                                                              D-Day operations. The Air Force continues to sustain joint
Force (2,400,000 Airmen/80,000 aircraft). The Air Force’s
                                                              operations across an even more diverse set of geopolitical
transformation reflected a fundamental change in the
                                                              and resourcing imperatives. America’s Air Force is ready to
United States’ strategic and tactical approach to warfare.
                                                              fulfill the commitments of today and face the challenges of
                                                              tomorrow through strong financial stewardship, continued
The purpose of “Operation Overlord” was clearly stated: to
                                                              precision and reliability, and dedication to persistent
emancipate the peoples of Europe and destroy the German
                                                              Global Vigilance, Reach and Power for the nation.
war machine. The approach – breach the “Atlantic Wall”

                                                                                    Landing vehicles and cargo on a Normandy beach, June 1944




                                                                                                                                                1
The Air Force strategic framework consists of these    Air Force operational success is directly supported
elements:                                              by the acquisition excellence provided by Air Force
                                                       Financial Management (FM) professionals. Acquisition
                                                       excellence is a capability that allows the United
Our Core Values are:                                   States Air Force to acquire and recapitalize platforms
    ◆ Integrity First                                  that enable us to “fly, fight and win in air, space
    ◆ Service Before Self                              and cyberspace.” Equipped with strong leadership
    ◆ Excellence in All That We Do                     support and the goals of continuous financial process
                                                       improvement FM personnel will be uninterrupted in
Our Critical Capabilities are:                         their service to country and their ability to acquire an
    ◆ Global Vigilance                                 array of capabilities for Combatant Commanders.
    ◆ Global Reach
    ◆ Global Power


Our Goals are:
    ◆ Foster Mutual Respect and Dignity
    ◆ Sustain Air, Space and Cyberspace Capabilities
    ◆ Provide Persistent Situational Awareness
    ◆ Develop Joint and Battle-Ready Airmen
    ◆ Improve the Total Force Quality of Life
    ◆ Achieve Open, Transparent Business Practices
      and a Clean Audit
    ◆ Foster Air Force Smart Operations in the
      21st Century (AFSO21)




                                                                                            (U.S. Air ForcePhoto by TSgt Ben Bloker)




2
                                                                                                                                                                                                                  2009
                                                                                                                                         MANAGEMENT DISCUSSION AND ANALYSIS




A B-2 Spirit, 393rd Expeditionary Bomb Squadron, Whiteman AFB, MO and F-15E Strike Eagles, 391 Expeditionary Force Squadron, fl y in formation across the Pacific Ocean. (U.S. Air Force photo by TSgt Cecilio Ricardo)




Air Force in Action—FY 2009                                                                                       Reinvigorate the Air Force Nuclear Enterprise
In the past year, the Air Force has conducted approximately                                                       Work continued in 2009 to sustain the safety and reliability
61,000 sorties in Operation Iraqi Freedom and over 37,000                                                         of our nation’s nuclear capability – one that deters
sorties supporting Operation Enduring Freedom, delivering                                                         aggressors and reassures allies. The Air Force manages
over 2 million passengers and 700,000 tons of cargo                                                               a large percentage of our nation’s nuclear stockpile and
and weaponry. America’s Airmen continue to proudly                                                                is constantly stressing accountability, compliance and
serve their nation and consistently exhibit an unwavering                                                         precision in the nuclear enterprise. Air Force nuclear forces
commitment to fulfilling the needs of global Air Force                                                            are being reorganized to refortify lines of authority for
operations. Overarching Service priorities relating to                                                            nuclear operations. Near-term changes to the Air Force
organizing, training and equipping Airmen to meet the                                                             Nuclear Enterprise include:
needs of our national leadership and our combatant
commanders continue to be achieved:                                                                                       ◆ Consolidating all nuclear sustainment matters under
                                                                                                                            the Air Force Nuclear Weapons Center
        ◆ Reinvigorate the Air Force Nuclear Enterprise                                                                   ◆ Establishing a new Air Staff nuclear directorate
        ◆ Partner with the Joint and Coalition Team                                                                         responsible for policy oversight and integration
          to Win Today’s Fight                                                                                              of our nuclear enterprise activities
        ◆ Develop and Care for Airmen and Their Families                                                                  ◆ Stand up Air Force Global Strike Command
        ◆ Modernize our Air and Space Inventories,                                                                          to consolidate Air Force Intercontinental Ballistic
          Organizations and Training                                                                                        Missiles and nuclear capable bombers under
                                                                                                                            a single command
        ◆ Recapture Acquisition Excellence




                                                                                                                                                                                                                          3
Partner with the Joint and Coalition Team                                                                     of tomorrow. Air Force leadership is committed to
to Win Today’s Fight                                                                                          providing each Airman with a quality of service that
Global relations and strategic partnerships fortify our                                                       materializes into daily operational roles that are meaningful
geographic access and ultimate security around the world.                                                     and impactful. Enhanced foundational and accelerated
Deployed Airmen are partnering with Afghans and Iraqis                                                        training opportunities will enable Airmen to support Air
to develop new National Army Air Corps and Air Forces                                                         Force core functions and satisfy combatant commander
for their respective countries. The Air Force is also actively                                                requirements. In addition to sustaining the world’s highest
engaged in joint programs such as the Joint Strike Fighter                                                    quality work force, the Air Force is equally committed
and communications satellites with allies where longer                                                        to meeting the needs of their families. Quality of life
standing relationships exist. In 2009 the Air Force’s                                                         initiatives such as advanced educational opportunities,
release of the Global Partnership Strategy will update                                                        modernized family housing, and expanded support services
existing Air Force published official security cooperation                                                    bolster the family support structures that fortify the
strategies. The new strategy will include classified, nation-                                                 Air Force’s greatest asset – our Airmen.
by-nation strategic plans to help direct the Air Force’s key
relationships.                                                                                                Modernize Our Air and Space Inventories, Organizations
                                                                                                              and Training
Develop and Care for Airmen and Their Families                                                                Our nation’s air superiority is reliant on maintaining a
Emerging requirements brought about by the constantly                                                         technological advantage over our enemies. To maintain
evolving global political landscape demand an agile                                                           its technological advantage, the Air Force continues to
Air Force that is sufficiently equipped to respond to the                                                     invest in weapons, platforms and training that increase
operational needs of today and overcome the challenges                                                        our air superiority and global precision attack capabilities.
                                                                                                              Below
                                                                                                              B        are a few examples of modernization efforts that
                                                                                                              will
                                                                                                              w ensure we have the right combination of equipment,
                                                                                                              organizational structure and trained Airmen to deter and
                                                                                                              defeat
                                                                                                              d       future threats:

                                                                                                                  ◆ Replacing the aging KC-135 fleet remains the
                                                                                                                    Air Force’s top acquisition priority
                                                                                                                  ◆ Low-observable characteristics and 5th generation
                                                                                                                    designs make the F-22 and F-35 integral
                                                                                                                    components of the Air Force’s modernization
                                                                                                                    efforts
                                                                                                                  ◆ Laser Joint Direct Attack Munition will enhance
                                                                                                                    our capability to strike efficiently and avoid surface
                                                                                                                    threats
                                                                                                                  ◆ Accelerated retirement of our oldest legacy fighters
                                                                                                                    will eliminate excessive overmatch in our tactical
                                                                                                                    fighter force (F-15s, F-16s, A-10s) resulting in
                                                                                                                    the ability to redistribute billions in funds to
                                                                                                                    support growth in priority missions such as aerial
                                                                                                                    surveillance systems and ISR support
                                                                                                                  ◆ Sustaining and modernizing air mobility assets
Staff Sgt. Frederick Battle from the 820th RED HORSE Squadron is greeted by his wife and daughter upon his
                                                                                                                    (C-5s, C-17s, C-130s) ensures the ability to deploy,
arrival home after a seven-month deployment in Southwest Asia. (U.S. Air Force photo by A1C Brett Clashman)         maneuver and sustain large global forces



4
                                                                                                                                                                               2009
                                                                                                                                             MANAGEMENT DISCUSSION AND ANALYSIS




The F-35 Lightning II, also known as the Joint Strike Fighter (JSF). Eglin AFB will be the home of the JSF training facility. (U.S. Air Force photo by Amn Anthony Jennings)


        ◆ Air and Space Operations Centers have been                                                                 requirements and a stable budget. The May 2009 release of
          established in alignment with each geographic                                                              the Air Force’s Acquisition Improvement Plan outlines five
          combatant commander to integrate air, space,                                                               initiatives that will support the Air Force’s implementation
          cyber and missile defense capabilities into joint                                                          of continuous process improvement:
          operations
        ◆ Cyberspace capabilities are being consolidated                                                                      ◆ Revitalize the Air Force Acquisition Workforce
          under the Air Force Space Command to provide                                                                        ◆ Improve Requirements Generation Process
          an enhanced joint capability and provide optimum                                                                    ◆ Instill Budget and Financial Discipline
          support to our networked force                                                                                      ◆ Improve Air Force Major Systems Source
        ◆ Terminal Air Controllers are receiving enhanced                                                                       Selections
          training on flexible air strike control systems                                                                     ◆ Establish Clear Lines of Authority and
          like Remote Operated Video Enhanced Receiver                                                                          Accountability Within Acquisition Organizations
          (ROVER)
                                                                                                                     The Air Force is dedicated to providing our nation with
Recapture Acquisition Excellence                                                                                     the best equipment and capabilities to fly, fight and win
As good stewards of taxpayer dollars, the Air Force is                                                               in air, space and cyberspace. We will develop, organize
solidifying an acquisition system that will ensure delivery                                                          and size our workforce and ensure continuous acquisition
of capabilities to the war fighter on time and within budget.                                                        training and process improvement. The Air Force remains
Recapturing acquisition excellence requires an experienced                                                           committed to our core values: integrity first, service before
and accountable workforce that is supported by mature                                                                self, and excellence in all we do.



                                                                                                                                                                                  5
Air Force Structure                                                                                 nuclear deterrence mission with responsibility for nuclear
The command line of the Air Force flows from the                                                    missiles and nuclear-capable bombers when it reaches
President and the National Command Authority to                                                     full capability. The command will have operational
the Secretary of Defense and the Department of the                                                  responsibility for all Intercontinental Ballistic Missile
Air Force. The Air Force is headed by the Secretary of the                                          (ICBM) forces and B-2 and B-52 bombers.
Air Force (SECAF), with the Chief of Staff reporting to
the Secretary. Immediately subordinate to the departmental                                          Command Personnel: 900
headquarters are the Major Air Commands (MAJCOMs),                                                  Primary Inventory includes: Intercontinental ballistic
Field Operating Agencies (FOAs), Direct Reporting Units                                             missiles and Bombers.
(DRUs), and the Auxiliary.


                                         Secretary of the Air Force


                                        Under Secretary of the Air Force
                                          (Chief Management Officer)


           Assistant Secretary of the
                                                                           Secretariat Functions
                   Air Force

                                           Air Force Chief of Staff



                                        Air Force Vice Chief of Staff



    Air Force Major Commands                   Staff Functions                          Air Staff


Major Air Commands
MAJCOMs are primarily of two types: operational and
support. Within the operational commands, the divisions
                                                                                                    Gen. Norton A. Schwartz, Air Force Chief of Staff, passes the Air Force Global Strike Command guidon to
are generally defined according to purpose or location                                              Lt. Gen. Frank G. Klotz, commander, during the activation ceremony of the major command. (U.S. Air Force
(e.g., combat, movement of people and supplies, or Pacific                                          photo by SrA Alexandra M. Longfellow)
and European theaters). The support commands generally
are organized according to function (e.g., logistic, support,                                                          AAir Combat Command (ACC)
or training) and are directly subordinate to Air Force                                                                 MMissions: Operate Air Force
Headquarters. A list of the MAJCOMs and their                                                                          cconventional bombers and Air Force’s
missions follows:                                                                                                      CCONUS-based fighter and attack,
                                                                                                                       rreconnaissance, battle management,
                AAir Force Global Strike Command                                                                       ccommand and control aircraft, and
                ((AFGSC)                                                                            iintelligence
                                                                                                         lli      and
                                                                                                                    d surveillance systems. Supply combat
                MMissions: Stood up in August 2009,                                                  airpower to America’s warfighting commands (Africa
                tthis command is dedicated to nuclear                                                Command, Central Command, European Command, United
                ddeterrence and global strike missions.                                              States Northern Command, Pacific Command and United
                RReestablishes a single organization                                                 States Southern Command); nuclear, conventional, and
 ithi the
within th Air
          Ai Force
              F     accountable for all aspects of the                                               information operations forces to United States Strategic



6
                                                                                                                                                               2009
                                                                                        MANAGEMENT DISCUSSION AND ANALYSIS




Command; and air defense forces to North American                 systems; worldwide space environment systems; and
Aerospace Defense Command. Provide support to the                 position, navigation, and timing systems.
provisional Air Force Cyber Command.
                                                                  Command Personnel: 27,000
Command Personnel: 148,000                                        Primary Inventory includes: Missile Warning Systems,
Primary Aircraft Inventory includes: Bombers, Fighters,           ICBMs, Satellite Systems, and Space Surveillance Systems.
Intelligence, Surveillance and Reconnaissance (ISR),
and Trainers.

                  AAir Education and Training Command
                  ((AETC)
                  MMissions: Recruit, train, and educate
                  pprofessional, expeditionary-minded
                  AAirmen to sustain the combat capability
                  oof America’s Air Force. Conduct joint,
readiness, and Air Force security assistance training.
readiness
Provide basic military training, initial and advanced
technical training, flying training, and professional military
and degree-granting professional education.

Command Personnel: 72,000
Primary Aircraft Inventory includes: Trainers, Fighters,
Transports, Helicopters, and Tankers.

                     AAir Force Materiel Command (AFMC)
                     MMissions: Deliver war-winning
                     eexpeditionary capabilities to the
                     wwarfighter through development and
                     ttransition of technology, professional
                     aacquisition management, and world-class
sustainment
   t i     t off all
                  ll Air
                       A Force weapons systems. Provide
exacting test and evaluation of all weapons and supporting
systems.

Command Personnel: 75,000
Primary Aircraft Inventory includes: Bombers, Fighters,
Transports, Tankers, Helicopters and Trainers.

                   Air
                   A Force Space Command (AFSPC)
                   M
                   Missions:    Operate and test the following:
                   m
                   missile  warning radars, sensors, and
                   satellites; national space-launch facilities
                   a operational boosters; worldwide
                   and                                            A Minotaur I launch from the Mid-Atantic Regional Spaceport at the NASA Wallops Flight Facility, Wallops
                                                                  Island, VA of a TacSat-3 satellite. Air Force Space Command’s Space and Missile Systems Center’s Space
                   space surveillance radars and optical          Development and Test Wing at Kirtland AFB, NM, has overall management of the mission. (Image Courtesy of
                                                                  Orbital Sciences Corporation)




                                                                                                                                                                        7
A CV-22 Osprey aircraft from the 8th Special Operations Squadron at Hurlburt Field, FL, flies over Florida’s Emerald Coast. (U.S. Air Force photo by SrA Julianne Showalter)


                  A Force Special Operations
                  Air                                                                                                and operational support aircraft and global humanitarian
                  Command (AFSOC)
                  C                                                                                                  support.
                  Missions: Serve as America’s specialized
                  M
                  aair power, providing Air Force special                                                            Command Personnel: 132,000
                   ooperations forces for worldwide                                                                  Primary Aircraft Inventory includes: Transports,
                    ddeployment and assignment to regional                                                           Helicopters, and Tankers.
  ified
unifi d commands.d The command’s core tasks have been
grouped into three mission areas: forward presence and                                                                                                   Pacific Air Forces (PACAF)
engagement, information operations precision employment                                                                                                  Missions: Provide ready air and space
and strike, and special operations forces mobility.                                                                                                     ppower to promote U.S. interests in the
                                                                                                                                                         Asia-Pacific region during peacetime,
Command Personnel: 19,000                                                                                                                                crisis, and war.
Primary Aircraft Inventory includes: Helicopters, Tankers
and Special Operations Aircraft.                                                                                     Command
                                                                                                                     C        dPPersonnel: 43,000
                                                                                                                     Primary Aircraft Inventory includes: Fighters, Transports,
                                 AAir Mobility Command (AMC)                                                         and Tankers.
                                 MMissions: Provide rapid global mobility
                                 aand sustainment through tactical and
                                 sstrategic airlift and aerial refueling for
                                 UU.S. armed forces. Provide special duty




8
                                                                                                                                                                  2009
                                                                                       MANAGEMENT DISCUSSION AND ANALYSIS




                  U.S. Air Forces in Europe (USAFE)             include the Air Force Audit Agency, Air Force Center for
                  Missions: Deliver airpower options            Environmental Excellence, Air Force Financial Services
                  to combatant commanders within                Center, Air Force Services Agency, and Air Force Weather
                  the U.S. European Command area of             Agency, among others.
                  rresponsibility. Plan, control, support and
                   conduct joint, coalition North Atlantic      Direct Reporting Unit (DRU)
T   t O
Treaty        i ti (NATO), and warfighting headquarters
       Organization                                             A DRU is a subdivision of the Air Force that is directly
operations in Europe, Asia, and Africa based on taskings        subordinate to Headquarters Air Force, separate from
from EUCOM and/or AFRICOM Commanders.                           any MAJCOM or FOA because of a unique mission,
                                                                legal requirements, or other factors. DRUs have the same
Command Personnel: 30,000                                       administrative and organizational responsibilities as
Primary Aircraft Inventory includes: Fighters, Transports,      MAJCOMs. The DRUs are the Air Force Academy,
and Tankers.                                                    Air Force District of Washington, and Air Force
                                                                Operational Test and Evaluation Center.
                   Air
                   A Force Reserve Command (AFRC)
                   Missions:
                   M           Support the active duty
                   force.
                   f      Serve in such missions as fighter,
                   bomber,
                   b         airlift, aerial port operations,
                   aeromedical
                   a              evacuation, aerial fire
                   fighting, weather reconnaissance, space
operations,
      ti     airborne
              ib      air control, flying training, fight
testing, and aerial spraying. Provide support and disaster
relief in the United States and support national counterdrug
efforts.

Command Personnel: 71,000
Primary Aircraft Inventory includes: Fighters, Transports,
and Tankers.

                  Air National Guard (ANG)
                  Missions: Provide combat capability
                  to the warfighter and security for the
                  homeland. Protect life and property and
                  preserve peace, order, and public safety.
                                                                Air and Army National Guard members work as a joint unit to deploy the Joint Incident Site Communication
Command Personnel:
           Person      108,000                                  Capability system during a week-long training exercise. (U.S. Air Force photo by SSgt Nicholas A. McCorkle)
Primary Aircraft Inventory includes: Fighters, Transports,
and Tankers.
                                                                                                Auxiliary
                                                                                                A
Field Operating Agency (FOA)                                                                    A Air Force auxiliary is an organization
                                                                                                An
An FOA is a subdivision of the Air Force that carries                                           c
                                                                                                created by statute that the Secretary
out field activities under the operational control of                                           o the Air Force may use to fulfill the
                                                                                                of
a Headquarters U.S. Air Force functional manager.                                               A Force’s non-combat programs and
                                                                                                Air
FOAs have the same administrative and organizational                                            m
                                                                                                missions. The Civil Air Patrol (CAP) is
responsibilities as MAJCOMs. Examples of FOAs                                                   t only current U.S. Air Force auxiliary.
                                                                                                the



                                                                                                                                                                              9
    Air Force Resources
    The three vital resources to successful accomplishment of                                                                        • The reserve component (Air Force Reserve
    the Air Force mission are:                                                                                                              and Air National Guard) has become more
                                                                                                                                            important than ever in sustaining worldwide
           ◆ Places: A network of bases that reflect the Air                                                                                operations. These warriors make possible
             Force’s global competencies.                                                                                                   the successful accomplishment of Air Force
                                                                                                                                            missions.
                 • The Air Force is a global force, spanning
                         facilities both in the United States and around                                                        ◆ Systems: Modern weapons platforms that
                         the world, as shown below.                                                                               integrate air, space, and cyber assets into an
                            - CONUS: 68                                                                                           undefeatable force.
                            - OCONUS: 17
                                                                                                                                     • Air Force “systems” no longer mean only
           ◆ People: Trained, motivated, and dedicated.                                                                                   “manned aircraft.” Systems also include
                                                                                                                                          space launch vehicles, satellites, intelligence,
                 • The Air Force consists of over 722,000 military                                                                        surveillance and reconnaissance assets,
                         and civilian personnel. Aerospace power is a                                                                     unmanned aerial systems, and the cohesive
                         proven necessity for victory on land, sea, air,                                                                  infrastructure to all Air Force systems. All
                         space, and cyberspace. The foundation for this                                                                   Air Force systems are essential assets for
                         is our people.                                                                                                   Air Force people to accomplish the mission.


                                                                                     CONUS
                       McChord AFB AMC
                         WA                                                                                                                           NH
                  Fairchild AFB AMC         Malmstrom AFB AFSPC               Minot AFB ACC                                 MI                       VT
                                                                             ND                                                                          ME
                                                MT                Grand Forks AFB AMC
                                                                                                                                                                                                OCONUS
                OR                                                                        MN                                                                             MA
                                  ID                                 SD                                  WI                                                                         Germany            Saudi Arabia
                              Mountain Home AFB ACC                 Ellsworth AFB ACC                                                               NY           Hanscom AFB AFMC
                                                                                                                                                                                    Geilenkirchen AB   US Mil Training Mission
                                                                                                                                                                         RI         Ramstein AB
         Beale AFB ACC                                    WY                                                                                                             CT         Rhein-Main AB
                                        UT           F.E. Warren AFB AFSPC
                                                                                  NE           IA                                           PA            McGuire AFB AMC                              South Korea
                                                                                                                                                                               NJ   Spangdahlem AB
                                                                                                                                                                                                       Kunsan AB
           Travis AFB AMC            Hill AFB AFMC
                                                                         Offutt AFB ACC
                                                                                                                       IN OH                             Dover AFB AMC
                                                                                                                                                                               DE                      Osan AB
           CA                                         CO   Buckley AFB AFSPC                                     Wright-Patterson AFB AFMC                   Bolling AFB DRU
                                                                                                                                                                                    Italy
                                U.S. Air Force Academy DRU                                                  IL                     WV                   Andrews AFB AMC
                                                                                                                                                                               MD
                           NV                                  Schriever AFB AFSPC
                                                                                     KS        MO          Scott AFB AMC                         VA Langley AFB ACC
                                                                                                                                                                                    Aviano AB
                                                                                                                                                                                                       Turkey
Vandenberg AFB AFSPC       Nellis AFB ACC          Peterson AFB AFSPC      McConnell AFB AMC                            KY
                                                                                             Whiteman AFB ACC                                                                                          Incirlik AB
                         Edwards AFB AFMC
                                                     NM                           Vance AFB AETC                       TN                   NC       Seymour Johnson AFB ACC
                                                                                                                                                                                    Japan              Izmir AB
                                  Luke AFB AETC                                                                         Arnold AFB AFMC             Pope AFB AMC
                                                        Kirtland AFB AFMC                 Tinker AFB AFMC                                                                           Kadena AB
     Los Angeles AFB AFMC                       Cannon AFB ACC                  OK                   Little Rock AFB AETC              SC    Shaw AFB ACC                           Misawa AB
                                                                                 Altus AFB AETC
                                                                                                    AR      Columbus AFB AETC
                                                                                                                     GARobins AFBCharleston AFB AMC                                 Yokota AB
                                                                                                                                                                                                       UK
                                       AZ       Holloman AFB ACC
                                                                               Sheppard AFB AETC
                                                                                                           MS ALMaxwell AFB        AFMC                                                                RAF Lakenheath
                Davis-Monthan AFB ACC                                                              Barksdale AFB ACC        AETC                                                                       RAF Mildenhall
                                                                              Dyess AFB ACC
                                                                                                  LA                      Moody AFB ACC
                                                                                                                                                                                    Portugal           RAF Molesworth
                                                     Goodfellow AFB AETC     TX                     Keesler AFB AETC       Eglin AFB AFMC
                                                                                                                                                                                    Lajes Field
                                                                               Randolph AFB AETC                              Tyndall AFB AETC
                                                          Laughlin AFB AETC
                                                                                                                                                 Patrick AFB AFSPC
                              Eielson AFB PACAF              Lackland AFB AETC       Brooks AFB AFMC              Hurlburt AFB AFSOC    FL
                                                                                                                                        MacDill AFB AMC
                               AK
                         Elmendorf AFB PACAF




                                                                  Hickam AFB PACAF
                                                                                HI
                                                                                                                             Major Active-Duty Air Force Facilities


   10
                                                                                                                                                         2009
                                                                                 MANAGEMENT DISCUSSION AND ANALYSIS




Air Force Major Management
                                                                   ◆ $100 million for four dormitories
Initiatives                                                        ◆ $80 million for seven child development centers
The Air Force is committed to providing the best
                                                                   ◆ $80 million for two military family housing projects
combination of air, space and cyber power possible within
available resources. From effective program and financial
management of American Recovery and Reinvestment
Act (ARRA) funds to developing renewable energy
sources, the Air Force continues to implement strategically
significant programs. The initiatives described below
provide examples of the Air Force’s successful efforts to
prevail in today’s operations while investing wisely to meet
tomorrow’s needs.

Chief Management Officer (CMO)
On June 19, 2009, in accordance with the National
Defense Authorization Act (NDAA) for Fiscal Year 2009
(Section 908), the Secretary of the Air Force established
the Office of Business Transformation to assist the Air
Force Under Secretary, as Chief Management Officer
(CMO). The Secretary named the Air Force Deputy Chief
Management Officer (DCMO) as Director of Business
Transformation to head this office. A strong team has            “Investment in Air Force-related projects
been formed, with expertise in continuous process
improvement, strategic planning, project planning, data          will further President Barack Obama’s goal
base data element definition and other key competencies.         of providing much-needed stimulus to the
Air Force governance processes have been modified to
give appropriate representation to CMO and DCMO in               economy while improving quality of life for
leadership forums to support business transformation             Airmen and their families.”
objectives.
                                                                                             - Audrey Davis
Management of American Recovery and Reinvestment                                  Deputy Assistant Secretary
Act Funds (ARRA)                                                    of the Air Force for Financial Operations
The Air Force received approximately $1.5 billion in
Defense-related appropriations through ARRA. With
a focus on Airmen care, families and environmental
                                                                   Source: TSgt Amaani Lyle, Stimulus Package to Aid Airmen, Air Force Print News Today (March 2009)
stewardship, ARRA funds are being used for high
priority maintenance and repair projects as well as new
child development centers, military family housing and         Supporting Air Force goals to lead Department of
dormitories. To maximize the benefit of ARRA funding,          Defense and National efforts to achieve greater energy
previously conducted facility and requirements studies         independence, ARRA funds will also be used to support
were leveraged to identify and prioritize the locations        critical military energy efficiency research programs such
with the greatest need. ARRA funded projects include           as fuel-cell, wind, solar and energy security. Additional
more than 1,500 maintenance and repair projects valued at      ARRA funds of $17 million are being allocated to the
$1.1 billion. Military construction and housing accounts for   Air Force engineers to construct four energy conservation
$260 million:                                                  investment program projects.


                                                                                                                                                                11
                                                                                                               alternatives and renewable energy sources that will improve
                                                                                                               our Nation’s energy posture, significantly increase our
                                                                                                               energy independence, and strengthen our energy security.

                                                                                                               The Air Force continues to receive accolades and achieve
                                                                                                               top results for their conservation efforts. During a
                                                                                                               May 2009 visit, President Obama cited Nellis Air Force
                                                                                                               Base (AFB), Nevada as “…a shining example of what’s
                                                                                                               possible when we harness the power of clean, renewable
                                                                                                               energy to build a new, firmer foundation for economic
                                                                                                               growth.” Air Force was a recipient of three 2009 Secretary
                                                                                                               of Defense Environmental Awards, and was honored by
                                                                                                               Vice President Biden’s commentary touting the Air Force’s
                                                                                                               ability to lead the way in environmental stewardship while
                                                                                                               leading the way in the Nation’s defense. The 14th Civil
                                                                                                               Engineer Squadron Pollution Prevention Team, Columbus
                                                                                                               AFB, Mississippi, won in the “Team/Individual Pollution
                                                                                                               Prevention” category. Vandenberg AFB, California,
                                                                                                               won in the “Installation Cultural Resources” category.
                                                                                                               Environmental Management Division, Hill AFB, Utah,
                                                                                                               won in the “Industrial Installation Environmental Quality”
                                                                                                               category. The Air Force also had a significant number of
                                                                                                               nominees for the 2009 White House Closing the Circle
                                                                                                               (CTC) Awards: Keesler AFB; Randolph AFB;
                                                                                                               Robins AFB; Lackland AFB; Edwards AFB;
President Obama speaks to the Airmen of Nellis AFB NV during a visit to Las Vegas. The president spoke about   Little Rock AFB; Goodfellow AFB; Laughlin AFB;
issues concerning world energy and the importance of solar power. (U.S. Air Force Photo by SrA Brian Ybarbo)
                                                                                                               Air Force Weather Headquarters; and 179th Airlift Wing.

Energy and Environmental Focus
The mission of the Air Force – fly, fight and win in air,
space and cyberspace – is both highly technical and
energy-intensive. Air Force continues to lead the                                                                “…a shining example of what’s possible
way in environmental stewardship and has begun
implementing a comprehensive energy strategy that will                                                           when we harness the power of clean,
result in a 30% reduction in energy use by FY 2015. The                                                          renewable energy to build a new, firmer
energy strategy seeks efficiencies in the full spectrum of
energy activities across all operational and support areas                                                       foundation for economic growth.”
ranging from developing new weapons systems and                                                                                 - President Barack Obama
fuel-efficient aircraft engines to responsibly managing
bases and flying aircraft. Actively engaged with other
                                                                                                                                     Speaking at Nellis AFB
federal entities and industry the Air Force is adopting and                                                                                       May 2009
sharing best practices and technologies for conservation
and renewable power development. The Air Force’s
commendable energy and environmental focus will produce
verifiable reductions in energy consumption and provide



12
                                                                                                                                                                  2009
                                                                                       MANAGEMENT DISCUSSION AND ANALYSIS




Personnel Services Delivery (PSD)                               Across FSD, efficiencies are gained through centralization
PSD transformation continues to enable Airmen to                and process improvement, benefiting the customer
take care of routine personnel actions online, at their         through quicker, more accurate and more consistent pay
convenience, giving back valuable time, mission time,           transactions. Customers receive the same answer whether
to each Airmen. The delivery model is helping to                they seek service online, at the AFFSC, or at their local
redesign personnel services processes through business          Financial Services Office.
process improvements that eliminate unnecessary steps
and streamline approval processes, reducing associated          The first phase of Web Self-Service (WSS), the Top
workload. PSD is also focused on increasing self-service        180 Frequently Asked Questions (FAQs), was launched
capabilities through online and contact centers that provide    on the Air Force Portal in early FY 2009, and additional
self-service options. Efforts to increase PSD functionality     functionality and new customer resources will continue
are aiding the modernization of Air Force architecture          to emerge in FY 2010. WSS provides FAQs, a searchable
and technology that support and integrate web-based             index of questions, and other tools designed to resolve
applications. By automating routine personnel actions, PSD      pay and travel questions. Looking ahead, the AFFSC
enables personnel to focus on strategic advisory services       is intended to provide full integration with Air Force
for commanders and leaders that will ensure the Air Force’s     Personnel Center and Air Reserve Personnel Center on a
ability to appropriately structure the future force.            common technology platform, supporting full customer
                                                                visibility between centers and a range of service options
Financial Services Delivery (FSD)                               through a single point of entry.
FSD cohesively addresses all elements impacting
customers receiving financial services and seeks to
optimize all elements of operations including people,
processes, technology and communications. Integrated
end-to-end FSD processes establish a new way to deliver
customer service consistently across all geographies and
theaters. FSD encompasses all areas of the FM organization
from bases through the MAJCOMs to the Air Force
Financial Services Center (AFFSC) at Ellsworth AFB,
South Dakota, and includes the enabling technologies and
processes that support how customers receive financial
services. This effort began in September 2007, with the
phased consolidation of back-office military pay and travel
processing for 109 Active and Reserve bases into the
AFFSC. A 24/7 Contact Center is scheduled to open at the
AFFSC in FY 2010 along with continued enhancement of
online service options.

With the standup of the AFFSC, the FM community
will ultimately be able to reduce face-to-face customer
interaction and direct customers to self-service resources
through the Air Force Portal or the Contact Center as the
preferred option to initiate inquiries and transactions. From
the Comptroller Squadron through to the AFFSC, FM
personnel will have access to uniform processes, consistent
roles, and a coordinated suite of resources.                    Users log on to the Air Force Portal by using their common access card and personal identification number.




                                                                                                                                                                             13
B-52 Stratofortress mechanics inspect their aircraft during phase maintenance at Andersen AFB, Guam. The B-52s come here from a forward-deployed location and go into phase maintenance after 300 flying hours. The hangar
can house any type of Air Force aircraft. (U.S. Air Force photo by MSgt Val Gempis)

Expeditionary Logistics for the 21st Century (eLog21)                                                          increase equipment availability and reduce operations and
eLog21 is an umbrella strategy that integrates and                                                             support cost. eLog21 will provide the following end-state
governs logistics transformation initiatives to ensure the                                                     capabilities:
warfighter receives the right support at the right place
and the right time. This program promotes data sharing,                                                               ◆     Air Force-Wide Logistics Planning
collaboration, and better decision-making across the entire                                                           ◆     Optimized Resources
Air Force supply chain to support the modern-day conduct                                                              ◆     Optimized Repair Planning
of operations. The Air Force is engaging in multiple                                                                  ◆     Total Asset Visibility
contingencies simultaneously with a smaller force. eLog21
                                                                                                                      ◆     Logistics Netcentricity
provides a flexible, nimble, scalable logistics process that
leverages combat support assets and capabilities across the                                                           ◆     Data Accuracy
breadth of the Air Force. This initiative positively impacts                                                          ◆     Centralized Asset Management
the entire logistics enterprise, including the operational                                                            ◆     Predictive Maintenance
and training bases, Centralized Repair Facilities, depots,
deployed operations, product centers, Air Logistics Centers,                                                   Air Force Financial Management
and Air Force industry trading partners. Individuals
who support the warfighter by launching and recovering                                                         Assurances
jets, maintaining and overhauling weapon systems or                                                            Air Force FM is based on people, processes, and systems.
equipment, purchasing products and services, managing                                                          This section focuses on the Air Force’s system of internal
the supply chain, or managing weapon systems will benefit                                                      control and emphasizes our compliance with federal
from eLog21. The overall goals of this program are to                                                          laws such as the Federal Managers’ Financial Integrity



14
                                                                                                                    2009
                                                                           MANAGEMENT DISCUSSION AND ANALYSIS




Act (FMFIA) and the Federal Financial Management               agencies are doing with integrating their processes and
Improvement Act (FFMIA). The following examples                systems. Auditable financial statements must be prepared
illustrate some of the ways the Air Force FM community         in accordance with Office of Management and Budget
is proactively meeting future challenges and improving         Circular A-136, Financial Reporting Requirements.
compliance and efficiency.                                     Additionally, agencies must follow generally accepted
                                                               accounting principles (GAAP) promulgated by the Federal
Chief Financial Officer (CFO) Compliance                       Accounting Standards Advisory Board (FASAB).
The passage of the CFO Act of 1990 required major federal
agencies to prepare auditable financial statements for the     The Air Force Financial Improvement Plan is a roadmap to
first time. In 1994 the Government Management Reform           accomplish those tasks and actions necessary to obtain an
Act (GMRA) extended the CFO Act to include                     unqualified audit opinion on the Air Force General Fund
agency-wide reports from all major executive branch            and Working Capital Fund financial statements. The plan
agencies, their components, and for the government as          is an Air Force-wide management plan meant to improve
a whole. The Government Performance and Results Act            the quality of information that is needed to make sound
(GPRA) of 1993 required agencies to systematically             business decisions. Quality information must be relevant
report on plans and performance. The FFMIA of 1996,            and reliable. The overarching goal of the CFO Act is to
along with the Clinger-Cohen Act of 1996 (also known           provide leaders and managers, on a routine basis, quality
as the Information Technology Management Reform                information with which to make decisions. An unqualified
Act), required that agencies install integrated systems that   audit opinion attests to the reliability of the Air Force’s
comply with federal accounting standards and produce           financial information.
auditable financial statements.
                                                               Internal Controls
Compliance with these laws requires the integration            The Air Force operates a robust Manager’s Internal Control
of financial and functional processes and systems. The         Program and employs a comprehensive strategy for the
annual audit will serve as a report card of how well           continual evaluation of internal controls. This review




                                                                                                                        15
system is integrated fully with institutional and program       performing risk analysis, and testing and analyzing existing
assessment techniques used to help ensure that the national     internal controls. There were no new material weaknesses
defense mission and goals of the Department of the              identified during this year’s review effort. We continue
Air Force are achieved each year. The objectives of the         to track and report on ten existing ICOFR material
system of internal control of the Department of the Air         weaknesses that are included in the Secretary’s Annual
Force are to provide reasonable assurance that:                 Statement of Assurance.

     ◆ Obligations and costs comply with applicable laws        Continuous Improvement
     ◆ Funds, property, and other assets are safeguarded        This year the Air Force completed a validation of corrective
       against waste, loss, unauthorized use, and               actions in the Air Force Financial Improvement Plan (FIP).
       misappropriation                                         The FIP consolidates all the required actions, establishes
     ◆ Revenues and expenditures applicable to Air Force        action offices, determines the status, and identifies
       operations are properly recorded and accounted           resources required to produce accurate and timely financial
       for to permit the preparation of accounts and            information. A by product of this plan is progress toward
       reliable financial and statistical reports, and to       an unqualified opinion goal. The FIP operates under a
       maintain accountability over the assets, including       governance structure created to oversee the implementation
       nonappropriated fund activities                          of the plan.
     ◆ Programs, administrative and operating functions
       are efficiently and effectively carried out in           Progress Towards Auditability
       accordance with applicable laws and management           The Secretary of the Air Force established an Executive
       policy                                                   Steering Committee (ESC) composed of senior level
                                                                Air Force leaders. This group’s charter states that it will
     ◆ The internal control process emphasizes prevention
                                                                meet at least quarterly to ensure the actions incorporated
       of waste, fraud, and mismanagement along with
                                                                in the FIP are effectively implemented. In addition to
       timely correction of internal control weaknesses
                                                                overseeing the FIP, the ESC also provides oversight to
                                                                the Accountability and Financial Management Integrated
Internal Control Program Accomplishments                        Project Team (A&FM IPT). This work group is responsible
and Highlights                                                  for resolving the issues and monitoring actions contained
FMFIA implementation in the Air Force rests on a                in the FIP. The integrated project team meets monthly and
solid general control environment supported by positive         orchestrates the numerous systems and procedural changes
endorsement from top management. FY 2009 was a year             needed to achieve the above stated goals. It is important to
of strong internal control activity as our financial managers   note that while the Air Force is currently unable to produce
continued to integrate their job oversight responsibilities     financial statements that receive an unqualified audit
with the internal control program’s evaluation procedures.      opinion, we are working aggressively toward achieving
Using pervasive technologies, MAJCOMs increased                 that goal.
distribution of internal control information on their
force-wide available Web sites.

Internal Controls Over Financial Reporting (ICOFR)
The Office of the Under Secretary of Defense (Comptroller)
directed that our review of ICOFR encompass DoD priority
areas. The Air Force evaluated the effectiveness of internal
controls of those priority areas and key business processes,
which significantly affect financial reports. This involved
documenting processes, developing swim-lane flowcharts,



16
                                                                                                                                                                2009
                                                                                     MANAGEMENT DISCUSSION AND ANALYSIS



Air Force General Fund

T
       he General Fund is the fund into which most            as flying hours, depot maintenance, training, spare parts,
       receipts of the United States Government are           and base operations. The FY 2009 appropriation supported
       deposited. Exceptions include receipts from            84 installations, produced over 1,200 pilots and funded
specific sources required by law to be deposited into other   approximately 1.4 million flying hours while sustaining an
designated funds and receipts from appropriations made by     aircraft fleet of over 5,500 aircraft.
Congress to carry on the general and ordinary operations
of the Government. The Notes to the Principal Statements      PROCUREMENT
provide more detail on the appropriations. The major          This appropriation provides for purchase of aircraft,
appropriations in the Air Force General Fund and their        missiles, vehicles, electronic and telecommunications
uses are introduced below.                                    equipment, satellite and launch equipment, base
                                                              maintenance and support equipment, and investment-type
                                                              spares. The FY 2009 program supported the purchase of
Appropriations                                                up to 93 aircraft including 52 Unmanned Aerial Vehicles
MILITARY PERSONNEL (MILPERS)
                                                              (UAVs) and 20 F-22 Raptors.
This appropriation provides funding for the care and
feeding of our Airmen. It includes all direct military
                                                              RESEARCH, DEVELOPMENT, TEST AND
compensation for active duty, reserve, guard, and retired
                                                              EVALUATION
personnel including regular pay, allowances, and bonuses.
                                                              This appropriation provides funding for the research and
Additionally, this appropriation funds all Permanent
                                                              development of next generation weapons and platforms
Change of Station (PCS) moves and supports a total force
                                                              and for the testing and evaluation of current prototypes
(active, reserve and guard) end strength of 507,431.
                                                              and upgrades. The Air Force’s top five acquisition
                                                              priorities are the Combat Search and Rescue (CSAR)
OPERATIONS AND MAINTENANCE (O&M)
                                                              Helicopter; new space systems for early warning, targeting,
This appropriation funds key readiness programs critical to
                                                              communications, and navigation; the F-35A Joint Strike
prepare forces for combat operations and other peacetime
                                                              Fighter; the Refueling Tanker and the New Bomber.
missions. These include day-to-day operating costs such




                                                               Aircrews perform a preflight check on an MQ-9 Reaper before it takes off for a mission in Afghanistan. The
                                                               Reaper is larger and more heavily-armed than the MQ-1 Predator and in addition to its traditional intelligence,
                                                               surveillance and reconnaissance capabilities, is designed to attack time-sensitive targets with persistence and
                                                               precision. (Courtesy photo)




                                                                                                                                                                        17
MILITARY CONSTRUCTION (MILCON)
This appropriation includes any construction,
development, conversion, or extension of any kind
carried out with respect to a military installation.
Typically this appropriation applies to any projects
that exceed $1.5 million but can be applicable to
projects exceeding a $750 thousand threshold.
A sub-element of this appropriation provides
funding for family housing construction programs.
The FY 2009 appropriation supported 54 projects
in total.

BASE REALIGNMENT AND CLOSURE (BRAC)
The law authorizes the BRAC accounts to fund
one-time, nonrecurring costs that are a direct
result of BRAC-directed base closure or
realignment actions. Some costs do not qualify
for BRAC funding as costs resulting from closure
or realignment. The FY 2009 BRAC program was                  The Air Force is implementing DEAMS through a
approximately $1.2 billion.                                   three-increment development approach in five spirals.
                                                              Spiral 1 is a technology demonstration at Scott AFB,
ARRA                                                          Illinois, involving USTRANSCOM; Headquarters,
In FY 2009, the Air Force received $1.5 billion in ARRA       Air Mobility Command; and Air Force Active Duty,
funds to stimulate the economy.                               Air National Guard and Air Force Reserve tenant
                                                              organizations on or associated with that base.
Current and Future Financial Systems                          Spiral 1 successfully demonstrated an initial commitment
                                                              accounting capability in 2007 while Spiral 2 will deploy
- Defense Enterprise Accounting and                           in late 2009, taking the full Oracle I-Procurement
Management System (DEAMS)                                     functionality to those same units.
Our systems enable us to maintain stewardship over
the resources entrusted to us. DEAMS is key to our            Increment 2 will expand DEAMS capability to the
current and future ability to manage the Air Force’s          remaining AMC bases, Surface Deployment and
resources. DEAMS was launched in August 2003 as a             Distribution Command (SDDC) and Military Sealift
joint initiative between the Air Force, U.S. Transportation   Command (MSC) in Spiral 3 and the remaining Air Force
Command (USTRANSCOM) and the Defense Finance                  Major Commands in Spiral 4, except for Air Force Materiel
and Accounting Service under what is now the Defense          Command and Air Force Space Command. Increment 3
Department’s Business Transformation Agency. The              will complete DEAMS deployment to those MAJCOMs
DEAMS mission is to support the Nation’s warfighters          and throughout the Air Force in 2015.
with timely, accurate, and reliable financial information,
enabling more efficient and effective decision making         When fully fielded, DEAMS will transform financial
by DoD managers. DEAMS is reengineering financial             management and set a new standard for effective and
management activities with a unified enterprise               efficient stewardship of our Nation’s Defense resources.
architecture, standardized business rules and processes,
and the first implementation of the new Standard Financial
Information Structure.


18
                                                                                                                                                                                             2009
                                                                                                                                     MANAGEMENT DISCUSSION AND ANALYSIS



Air Force Working Capital Fund
The Air Force Working Capital Fund (AFWCF)                                                                    outside the DoD (e.g., local and foreign governments).
conducts business in two primary areas: the Consolidated                                                      Supply Management provides expedited repair,
Sustainment Activity Group (CSAG) and the Supply                                                              replenishment and inventory control for spare parts and
Management Activity Group-Retail (SMAG-R).                                                                    associated logistics support services to fulfill Air Force
                                                                                                              needs during war and peacetime. Depot Maintenance
The Consolidated Sustainment Activity Group (CSAG)                                                            provides economical and responsive repair, overhaul and
is a new AFWCF business activity. The CSAG                                                                    modification of aircraft, missiles, engines, other major end
consolidates the Depot Maintenance Activity Group                                                             items and associated components.
(DMAG) and the Material Support Division (MSD)
from the Supply Management Activity Group into a                                                              In FY 1998 the Air Force was appointed the Executive
single business enterprise. This consolidation eliminates                                                     Agent for Transportation Working Capital Fund (TWCF)
internal transactions between MSD and DMAG, resulting                                                         cash. Even though AFWCF manages TWCF’s cash, daily
in a more efficient business enterprise and customer                                                          operations are managed by the United States Transportation
support improvements. The mission of CSAG is supply                                                           Command. As a result, TWCF’s financial statements are
management of reparable and consumable items as well as                                                       reported with other Defense Agencies.
maintenance services. Under CSAG, business operations
formerly known as DMAG are now characterized as the                                                           The AFWCF allows the Air Force to accomplish the
Maintenance Division and business operations formerly                                                         following: ensure readiness through reduced support costs,
known as MSD are now designated the Supply Division.                                                          stabilized rates and responsive customer service; flexibility
                                                                                                              to respond to customer support needs in real-world
Air Force Materiel Command (AFMC) manages more                                                                situations; focus management attention on net operating
than 90 percent of the AFWCF business activity for                                                            results, including cost and performance; identify the total
Supply Management and Depot Maintenance activities.                                                           cost of providing support products and services; and,
These functions provide goods and services to the                                                             establish strong customer/provider relationships.
Air Force and DoD customers, as well as customers




Air Force Materiel Command’s headquarters at Wright-Patterson AFB, OH, manages more than 90 percent of the AFWCF business activity for Supply Management and Depot Maintenance activities.




                                                                                                                                                                                              19
CSAG–Maintenance Division                                        Warner Robins Air Logistics Center (WR-ALC),
The Maintenance Division repairs systems and spare parts         Warner Robins, GA
to ensure readiness in peacetime and to provide sustainment      Aerospace Maintenance and Regeneration Group
for combat forces in wartime. This division operates on          (AMARG), Tucson, AZ
the funds received from its customers through sales of its
services. In peacetime, the Air Force enhances readiness         CSAG Maintenance Customer Support Performance
by efficiently and economically repairing, overhauling           Metrics
and modifying aircraft, engines, missiles, components and        Due Date Performance and Quality Defect Rate metrics
software to meet customer demands. The Maintenance               allow managers to assess production schedule and work
Division’s depots have unique skills and equipment               quality. The Due Date Performance (ability of the depot
required to support and overhaul both new, complex               to produce aircraft on the promised date) is 85% as of
components as well as aging weapon systems. During               March 2009 which is lower than AFMC standard of 95%.
wartime or contingencies, the depots can surge repair            F-15 and C-130 late deliveries are the driving platforms
operations and realign capacity to support the war fighter’s     causing the lower than standard delivery performance.
immediate needs.                                                 C-130 late deliveries are mainly driven by over and above
                                                                 structural and corrosion issues. The root cause for the F-15s
A number of initiatives have begun to ensure the depots are      stems from the Program Depot Maintenance (PDM) reflow
poised to fulfill war fighter mission needs with the             after the grounding in November 2007 and severe corrosion
best product at the best price. These initiatives include        issues in the fuel tank areas. The Quality Defect Rate
formal training programs to develop multi-skilled                (measuring the number of production defects) is .08 defects
“maintenance-ready” technicians and managers,                    per aircraft as of March 2009 and is lower than the AFMC
benchmarking programs to identify industry leaders in            standard of .22 (lower is better).
various production processes, and the institutionalization
of lean principles within the workforce. By embedding            CSAG Supply Division
these initiatives into the maintenance culture, reductions are   The Supply Division is primarily responsible for
being made in shop flow days and cost. For example, over         Air Force-managed, depot-level reparable spares and
the last five years Oklahoma Air Logistics Center reduced        consumable spares unique to the Air Force. Spares are an
Programmed Depot Maintenance flow days for the B-1 by            individual part, subassembly, or assembly supplied for
30 days (18%). Ogden Air Logistics Center has reduced            the maintenance or repair of systems or equipment. In
the A-10 wing, F-16 wing, and F-16 stabilizer repair             addition to management of these inventories, the Supply
flow days by 39%, while on-time delivery has improved            Division provides a wide range of logistics support services
to 100% and 98% for A-10 wings and F-16 wings,                   including requirements forecasting, item introduction,
respectively. Warner Robins Air Logistics Center has             cataloging, provisioning, procurement, repair, technical
reduced C-5 aircraft overhaul flow days by 103 days (31%),       support, data management, item disposal, distribution
freeing up floor space for additional workload.                  management and transportation.

CSAG Maintenance Division is managed by AFMC and                 The Supply Division is committed to implementing
employs over 22,000 personnel supporting four industrial         improvements that meet customer demands and lower cost.
locations.                                                       The Air Force is examining new ways of doing business
                                                                 and leveraging new technologies to support war fighter
CSAG Maintenance sites include:                                  needs. The division is committed to reducing the impact
Ogden Air Logistics Center (OO-ALC), Ogden, UT                   of parts obsolescence and material shortage problems
Oklahoma City Air Logistics Center (OC-ALC),                     associated with supporting aircraft fleets with an average
Oklahoma City, OK                                                age of 24 years. The number of parts that have no qualified
                                                                 manufacturing or repair source is expected to increase over



20
                                                                                                                                                                                                                    2009
                                                                                                                                          MANAGEMENT DISCUSSION AND ANALYSIS




An aircraft mechanic removes support brackets from the wings of a preserved KC-135E Stratotanker at the AMARG storage site at Davis-Monthan AFB, AZ. The brackets will be shipped to Tinker AFB, OK, where they will
be used to bring a broken KC-135R back to flying status. The center provides customer services including aircraft regeneration restoring aircraft to flying status, limited depot-level maintenance, parts reclamation, historic
storage and disposal functions. (U.S. Air Force photo by Bennie J. Davis III)

the next ten years. In addition there are increasing numbers                                                      Supply Customer Support Performance Metrics
of manufacturers not willing to produce and/or repair aging                                                       Mission Incapable (MICAP) and Customer Wait Time
spare parts. The Supply Division remains committed to                                                             (CWT) metrics allow managers to assess quality of spares
re-engineer these parts for which no supplier exists and                                                          support provided and plan corrective action when needed.
take proactive action to identify future obsolescence issues                                                      MICAP measures the number of hours a weapon system
in advance.                                                                                                       is not available due to non-availability of a spare part
                                                                                                                  provided by CSAG Supply or GSD. CWT measures the
Supporting aging weapon systems requires proactive                                                                average time elapsed between the customer demand and the
management of spare part inventory levels. As weapon                                                              delivery of a spare part to the customer, measured in days.
systems exceed their life expectancy, additional                                                                  MICAP hours for CSAG Supply managed items improved
maintenance drives increased demands on spare parts                                                               significantly since 1999. CSAG Supply items accrued an
inventory. An initiative is underway to reduce excess                                                             average of five million MICAP hours during calendar year
on-order and on-hand inventory. Inventory levels were                                                             2000. As of March 2009, CSAG Supply MICAP hours are
reduced by 1.2 million cubic feet in FY 2008. Quarterly                                                           1.2 million. CWT is a newer metric but has also shown a
reviews have been established and metrics are reported to                                                         significant improvement. The monthly average CWT for
the Deputy Chief of Staff for Logistics, Installations and                                                        Supply items during 2004 was 7.4 days and has decreased
Mission Support.                                                                                                  to 6.4 days as of March 2009.



                                                                                                                                                                                                                           21
Supply Management                                            The Medical-Dental Division (MDD) manages over
                                                             8,000 different items for 84 Medical Treatment Facilities
Activity Group–Retail                                        (MTF) worldwide. All supply and equipment requirements
The Air Force Supply Management Activity Group–Retail        generated by Air Force treatment facilities are procured
(SMAG-R) is comprised of three divisions: General            through this division. The Medical-Dental Division also
Support, Medical-Dental, and the United States Air Force     maintains the WRM requirement.
Academy.
                                                             The Air Force Academy Division finances the purchase
The Supply Management Activity Group-Retail (SMAG-R)         of uniforms and uniform accessories for sale to cadets in
manages over 1.4 million inventory items including           accordance with regulations of the Air Force Academy
weapon system spare parts, medical-dental supplies and       and related statutes. The customer base consists of
equipment, and other supply items used in non-weapon         approximately 4,500 cadets who receive distinctive
system applications. The Air Force SMAG-R is a critical      uniforms procured from various manufacturing contractors.
component in the support of combat readiness by procuring
materiel and selling it to authorized retail customers.
Within SMAG-R, the Medical Dental Division inventory
includes a War Reserve Materiel (WRM) Stockpile. WRM
provides initial war fighting capability until re-supply
lines can sustain wartime demands for medical and dental
supplies and equipment.

The Air Force SMAG-R provides a wide range of logistics
support services including requirements forecasting, item
introduction, cataloging, provisioning, procurement,
repair, technical support, data management, item disposal,
distribution management and transportation. Inventories
are an integral part of SMAG-R and are maintained by each
of the divisions in support of customer requirements. The
SMAG-R objective is to replenish inventories and provide
supplies to customers in a timely manner within customer
funding constraints, while maintaining fund solvency.

The General Support Division (GSD) manages nearly
1.4 million different items, which are procured from
Defense Logistics Agency (DLA) and General Services
Administration (GSA). GSD customers use the majority
of these items to support field and depot maintenance of
aircraft, ground and airborne communication and electronic
systems, as well as other sophisticated systems and
equipment. The General Support Division also manages
many items related to installation, maintenance, and
administrative functions. GSD manages stock levels and
procurement for critical Overseas Contingency Operation
(OCO) requirements.
                                                             More than 1,300 basic cadets salute during their first reveille formation June 26, 2009 at the
                                                             U.S. Air Force Academy. (U.S. Air Force Photo by Mike Kaplan)




22
                                                                                                                     2009
                                                                           MANAGEMENT DISCUSSION AND ANALYSIS




SMAG-R Stockage Effectiveness
Division                              FY 2008                     FY 2009                           FY 2010

General-Support                          85%                         84%                               84%

Medical-Dental                           96%                         96%                               96%

Academy                                  95%                         95%                               95%

Supply Management Activity Group–Retail Metrics               execution review. Prices are established to achieve this
Stockage Effectiveness measures how often the supply          objective by recovering or returning prior year losses or
system is available for immediate sale of those items         gains. DoD cash management policy is to maintain the
it intends to maintain at base and depot level supply         minimum cash balance necessary to meet both operational
locations.                                                    requirements and disbursements in support of the capital
                                                              program. Cash generated from operations is the primary
Air Force Working Capital Fund Customers                      means of maintaining adequate cash levels. Effective cash
AFWCF provides support to a variety of customers:             management is directly dependent on the availability of
Air Force Major Commands (including the Air National          accurate and timely data on cash levels and operational
Guard & Air Force Reserves), the Army, the Navy, other        results. Cash levels should be maintained to cover 7 to 10
WCF’s, other government agencies and foreign countries.       days of operational costs as well as cash adequate to meet 6
                                                              months of capital disbursements.
Air Force Working Capital Fund Financial
Performance Measures                                          Air Force Logistics Initiatives
AFWCF tracks several metrics to assess financial              eLog21 The Air Force has launched a campaign called
performance. These measures are designed to achieve           Expeditionary Logistics for the 21st Century, or “eLog21.”
accountability at the appropriate level and also measure      This initiative is designed to bring logistics operations into
compliance with AFWCF budget objectives.                      the 21st Century by modernizing processes and systems
                                                              with new expeditionary, network-centric, enterprise wide
AFWCF assesses financial performance using the Net            processes and systems. As processes continue to improve,
Operating Result (NOR) of an activity. The NOR is the         customers will receive the benefit of receiving repaired
difference between revenue and expenses, i.e., a              weapon systems and spare parts at the right place, right
bottom-line profit and loss indicator. Revenues are amounts   time and lowest cost. The Air Force is benchmarking
earned as a result of normal operations and usually result    against industry to capitalize on best practices used in the
from sale of, or reimbursements for, goods and services       areas of repair processes, inventory management and cost
provided to DoD activities, other federal government          control. Other acquisition reform efforts are underway to
agencies and the public. Expenses are the resources           streamline contracting, strengthen vendor relationships
used during an accounting period. Expenses occur from         and expand the use of electronic interchanges for material
rendering services; acquiring, producing or delivering        management.
goods; or carrying out other mission-related activities.
The NOR objective of an activity group is to break even       Two major initiatives included under the umbrella of
over a two year period. Actual NOR are compared to the        e-Log21 are the Repair Network Integration (RNI),
budget targets. Budget targets are identified in financial    formerly Repair Enterprise 21 (RE21), and Air Force
performance plans and are used to measure results during      Global Logistics Support Center (AFGLSC) initiatives.



                                                                                                                          23
The vision of RNI is to establish enterprise management of
the Air Force repair network by utilizing existing depots
and establishing Centralized Repair Facilities. In addition,
the repair network will support mission generation and
sustain weapon systems and equipment.

The AFGLSC is an enterprise network of supply chain
experts. The AFGLSC merged wholesale (i.e. depot) and
retail (i.e. base level) supply chain entities into a single
organization. It now administers the majority of AFWCF
supply chain processes, technologies, and resources to
deliver end-to-end warfighter support. In addition, the
AFGLSC manages materiel and its distribution, and
oversees execution of the supply plan to improve the
delivery of serviceable spare parts to the warfighter.
The AFGLSC is designed to establish a supply chain
management capability that provides enterprise planning,
global command and control and a single focal point in
support of logistics requirements.

Depot Maintenance Activity Group (DMAG)
The transition of contract depot maintenance from the
working capital fund was completed in FY 2008. The
activity ceased accepting new orders at the end of FY 2008
and is expected to close out all accounting records by the
end of FY 2010. This change brings the user and provider
of contract depot maintenance services closer together and
removes the WCF from its current role as the “middleman.”
This action will allow depot managers to dedicate time and
efforts to organic production.

                                                               Air Force Secretary Michael B. Donley speaks during Air Force Week at the Salt Lake City Capitol building.
Expeditionary Combat Support System (ECSS) enables
                                                               (U.S. Air Force photo by SSgt Desiree N. Palacios)
the transformation of the AFWCF by replacing the
majority of legacy systems with a single solution set of       Deputy Chief of Staff for Logistics, Installations and
business processes, software applications, and data. ECSS      Mission Support continue to focus management attention
will provide timely, consistent, and accurate information      on cost performance as well as the ability to deliver parts
to enhance operations. The result will be standardized         and maintenance on time. The Air Force continues to make
business processes and tools across the entire enterprise,     improvements in our financial and reporting structures
regardless of program or site. ECSS takes advantage of         through close cooperation with the Office of the Secretary
commercial best practices in driving end-to-end process        of Defense and the Defense Finance and Accounting
designs and full integration of logistics activities.          Service. Financial reporting improvements allow us to
The Air Force has formalized the use of functional and         work closely with customers by having consistent and
financial performance plans to assess business operations      timely data, resulting in the ability to identify discrepancies
at both Air Force Materiel Command and Air Logistics           between the accounting system and the logistics feeder
Center levels since FY 1997. Quarterly reviews with the        systems from which data is supplied.



24
“A balanced approach means
finding the right balance between
prevailing in today’s operations
with today’s capabilities, while
simultaneously investing in new
capabilities and force structure
to meet tomorrow’s threats.”
             – Michael B. Donley
        Secretary of the Air Force




Financing the Fight
As the brave Soldiers, Sailors, Airmen and Marines of our   positioning the Air Force for success against tomorrow’s
great nation continue to deploy and operate in a state of   challenges by refining internal business processes and
persistent conflict, supporting the Overseas Contingency    systems in order to increase efficiencies that improve war
Operations, joint operations continue to have critical      fighter effectiveness.
strategic and tactical importance, yielding increased
capabilities for the war fighter. Our Air Force FM          America’s Air Force draws its strength from its
community directly supports today’s commitments through     outstanding Airmen. Our Airmen’s success is inextricably
sound financial stewardship and acquisition excellence.     linked to the efforts of our FM community, whose sense of
Our financial management professionals are actively         purpose and duty is founded in “financing the fight.”




                                                                                             (U.S. Air Force photo by TSgt Erik Gudmundson)




                                                                                                                                      25
(U.S. Air Force photo by SSgt Raymond Hoy)
                              2009



Fiscal Year 2009
Annual Financial Statements




                                 27
Limitations to the Financial Statements




           Limitations to the Financial Statements
           The principal financial statements have been prepared to report the financial position and results
           of operations of the entity, pursuant to the requirements of Title 31, United States Code, Section
           3515 (b). While the statements have been prepared from the books and records of the entity,
           in accordance with U.S. generally accepted accounting principles promulgated by the Federal
           Accounting Standards Advisory Board, and the formats prescribed by Office of Management
           and Budget, the statements are in addition to the financial reports used to monitor and control
           budgetary resources which are prepared from the same books and records. The statements
           should be read with the realization that they are for a component of the U.S. Government,
           a sovereign entity.




28
                                                                                             2009



General Fund
Principal Statements
Fiscal Year 2009
The FY 2009 Department of the Air Force General Fund Principal Statements and related
notes are presented in the format prescribed by the Department of Defense Financial
Management Regulation 7000.14-R, Volume 6B. The statements and related notes
summarize financial information for individual activity groups and activities within the
General Fund for the fiscal year ending September 30, 2009, and are presented on a
comparative basis with information previously reported for the fiscal year ending
September 30, 2008.

The following statements comprise the Department of the Air Force General Fund Principal
Statements:

Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2009 and 2008 those
resources owned or managed by the Air Force which are available to provide future
economic benefits (assets); amounts owed by the Air Force that will require payments
from those resources or future resources (liabilities); and residual amounts retained by
the Air Force, comprising the difference (net position).

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations
for the years ended September 30, 2009 and 2008. The Air Force’s net cost of operations
includes the gross costs incurred by the Air Force less any exchange revenue earned from
Air Force activities.

Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the
Air Force’s net position resulting from the net cost of Air Force’s operations, budgetary
financing sources other than exchange revenues, and other financing sources for the
years ended September 30, 2009 and 2008.

Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources
available to the Air Force during FY 2009 and 2008, the status of these resources at
September 30, 2009 and 2008, and the outlay of budgetary resources for the years ended
September 30, 2009 and 2008.

The Principal Statements and related notes have been prepared to report financial position
pursuant to the requirements of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, and the Office of Management and Budget’s Circular
A-136, “Financial Reporting Requirements.”




                                                                                                29
General Fund
Principal Statements




  CONSOLIDATED BALANCE SHEET
  As of September 30, 2009 and 2008
     ($ in Thousands)
                                                                                                                         Restated
                                                                                     2009 Consolidated               2008 Consolidated

     ASSETS (Note 2)
          Intragovernmental:
            Fund Balance with Treasury (Note 3)                                 $               103,310,367      $             92,909,909
            Investments (Note 4)                                                                        1,079                        874
            Accounts Receivable (Note 5)                                                             298,953                      271,020
            Other Assets (Note 6)                                                                    212,245                      265,591
            Total Intragovernmental Assets                                      $               103,822,644      $             93,447,394


          Cash and Other Monetary Assets (Note 7)                               $                     98,939     $                111,976
          Accounts Receivable,Net (Note 5)                                                           583,340                      502,182
          Inventory and Related Property,Net (Note 9)                                             47,588,282                   46,906,666
          General Property, Plant and Equipment,Net (Note 10)                                   149,759,237                   140,230,716
          Other Assets (Note 6)                                                                   11,716,176                   11,030,527
     TOTAL ASSETS                                                               $               313,568,618      $            292,229,461
     STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)


     LIABILITIES (Note 11)
          Intragovernmental:
            Accounts Payable (Note 12)                                          $                  2,583,818     $              2,002,120
            Other Liabilities (Note 15 & 16)                                                       2,016,078                    1,952,785
            Total Intragovernmental Liabilities                                 $                  4,599,896     $              3,954,905


          Accounts Payable (Note 12)                                            $                  3,278,316     $              3,810,935
          Military Retirement and Other Federal                                                    1,078,566                    1,163,414
          Employment Benefits (Note 17)
          Environmental and Disposal Liabilities (Note 14)                                         8,817,194                    8,266,375
          Other Liabilities (Note 15 and Note 16)                                                  6,201,694                    6,379,597
     TOTAL LIABILITIES                                                          $                 23,975,666     $             23,575,226


     COMMITMENTS AND CONTINGENCIES (NOTE 16)
     NET POSITION
         Unexpended Appropriations - Other Funds                                                105,252,117                    92,171,366
         Cumulative Results of Operations - Earmarked Funds                                           10,432                        5,355
         Cumulative Results of Operations - Other Funds                                         184,330,403                   176,477,514
     TOTAL NET POSITION                                                         $               289,592,952      $            268,654,235


     TOTAL LIABILITIES AND NET POSITION                                         $               313,568,618      $            292,229,461


30                                  The accompanying notes are an integral part of these financial statements.
                                                                                                                          2009
                                                                                                                  General Fund
                                                                                                                  Principal Statements




CONSOLIDATED STATEMENT OF NET COST
For the periods ended September 30, 2009 and 2008
    ($ in Thousands)
                                                                                                                    Restated
                                                                           2009 Consolidated                    2008 Consolidated

 Program Costs
      Gross Costs                                                     $               143,926,714           $            148,135,576
      (Less: Earned Revenue)                                                            (6,141,434)                       (5,875,708)
      Net Program Costs                                               $               137,785,280           $            142,259,868
 Net Cost of Operations                                               $               137,785,280           $            142,259,868




                               The accompanying notes are an integral part of these financial statements.                           31
General Fund
Principal Statements




CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2009 and 2008
    ($ in Thousands)

                                                                     2009 Earmarked Funds            2009 All Other Funds             2009 Eliminations

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                               $                      5,355    $               185,017,169      $                       0
Prior Period Adjustments:
     Corrections of errors (+/-)                                                             0                    (8,539,654)                             0
Beginning balances, as adjusted                                  $                      5,355    $               176,477,515      $                       0
Budgetary Financing Sources:
     Appropriations used                                         $                           0   $               147,746,152      $                       0
     Nonexchange revenue                                                                  846                                0                            0
     Donations and forfeitures of cash and cash equivalents                             7,322                                0                            0
     Transfers-in/out without reimbursement                                                  0                         130,180                            0
     Other budgetary financing sources                                                       0                               0                            0
Other Financing Sources:
     Transfers-in/out without reimbursement (+/-)                                            0                        (124,914)                           0
     Imputed financing from costs absorbed by others                                         0                         725,513                            0
     Other (+/-)                                                                             0                    (2,841,855)                             0
Total Financing Sources                                          $                      8,168    $               145,635,076      $                       0
Net Cost of Operations (+/-)                                                            3,091                    137,782,189                              0
Net Change                                                       $                      5,077    $                    7,852,887   $                       0
Cumulative Results of Operations                                 $                     10,432    $               184,330,402      $                       0
UNEXPENDED APPROPRIATIONS
Beginning Balances                                               $                           0   $                92,171,366      $                       0
Beginning balances, as adjusted                                                              0                    92,171,366      $                       0
Budgetary Financing Sources:
     Appropriations received                                                                 0                   163,967,087                              0
     Appropriations transferred-in/out                                                       0                         693,628                            0
     Other adjustments (rescissions, etc)                                                    0                    (3,833,812)                             0
     Appropriations used                                                                     0                 (147,746,152)                              0
Total Budgetary Financing Sources                                                            0                    13,080,751                              0
Unexpended Appropriations                                                                    0                   105,252,117                              0
Net Position                                                     $                     10,432    $               289,582,519      $                       0




32                                       The accompanying notes are an integral part of these financial statements.
                                                                                                                                    2009
                                                                                                                            General Fund
                                                                                                                            Principal Statements




                                                                  Restated                                                     Restated
    2009 Consolidated         2008 Earmarked Funds           2008 All Other Funds            2008 Eliminations             2008 Consolidated



$            185,022,524 $                     4,546     $               180,315,323 $                             0   $            180,319,869


              (8,539,654)                            0                    (8,493,837)                              0                 (8,493,837)
$            176,482,870 $                     4,546     $               171,821,486 $                             0                171,826,032


$            147,746,152 $                           0   $               144,550,203 $                             0   $            144,550,203
                        846                    1,088                                0                              0                      1,088
                   7,322                       2,544                                0                              0                      2,544
                 130,180                             0                        88,000                               0                     88,000
                         0                           0                          (157)                              0                       (157)


                (124,914)                            0                       322,962                               0                    322,962
                 725,513                             0                       628,882                               0                    628,882
              (2,841,855)                            0                     1,323,183                               0                   1,323,183
$            145,643,244 $                     3,632     $               146,913,073 $                             0   $            146,916,705
             137,785,280                       2,823                     142,257,045                               0                142,259,868
$              7,857,964 $                       809     $                 4,656,028 $                             0   $               4,656,837
             184,340,834 $                     5,355     $               176,477,514 $                             0   $            176,482,869


$             92,171,366 $                           0   $                80,465,487 $                             0   $             80,465,487
$             92,171,366 $                           0   $                80,465,487 $                             0   $             80,465,487


             163,967,087                             0                   156,788,176                               0                156,788,176
                 693,628                             0                     2,662,362                               0                   2,662,362
              (3,833,812)                            0                    (3,194,456)                              0                 (3,194,456)
            (147,746,152)                            0                 (144,550,203)                               0               (144,550,203)
              13,080,751                             0                    11,705,879                               0                 11,705,879
             105,252,117                             0                    92,171,366                               0                 92,171,366
$            289,592,951 $                     5,355     $               268,648,880 $                             0   $            268,654,235




                                      The accompanying notes are an integral part of these financial statements.                               33
General Fund
Principal Statements



 COMBINED STATEMENT OF BUDGETARY RESOURCES
 For the periods ended September 30, 2009 and 2008
     ($ in Thousands)

                                                                                                            2009 Combined                 2008 Combined

 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES
 Unobligated balance, brought forward, October 1                                                       $             26,676,890       $           21,175,345
 Recoveries of prior year unpaid obligations                                                                          4,093,396                    4,602,017
 Budget authority
     Appropriation                                                                                                  163,975,253                  156,791,805
     Spending authority from offsetting collections
         Earned
              Collected                                                                                               9,302,479                   10,464,416
              Change in receivables from Federal sources                                                                  324,746                   (354,080)
         Change in unfilled customer orders
              Advance received                                                                                            147,616                   (199,948)
              Without advance from Federal sources                                                                         80,913                     38,934
     Subtotal                                                                                                       173,831,007                  166,741,127
 Nonexpenditure transfers, net, anticipated and actual                                                                    823,808                  2,750,362
 Permanen ly not available                                                                                           (3,833,813)                  (3,194,456)
 Total Budgetary Resources                                                                             $            201,591,288       $          192,074,395
 Status of Budgetary Resources:
 Obligations incurred:
     Direct                                                                                            $            162,319,819       $          155,042,972
     Reimbursable                                                                                                    10,060,121                   10,354,532
     Subtotal                                                                                                       172,379,940                  165,397,504
 Unobligated balance:
     Apportioned                                                                                                     26,091,928                   24,139,914
     Exempt from apportionment                                                                                               4,480                     3,820
     Subtotal                                                                                                        26,096,408                   24,143,734
 Unobligated balance not available                                                                                    3,114,940                    2,533,157
 Total status of budgetary resources                                                                   $            201,591,288       $          192,074,395
 Change in Obligated Balance:
 Obligated balance, net
     Unpaid obligations, brought forward, October 1                                                    $             67,813,258       $           60,933,360
     Less: Uncollected customer payments                                                                             (2,051,639)                  (2,366,785)
     from Federal sources, brought forward, October 1
     Total unpaid obligated balance                                                                                  65,761,619                   58,566,575
 Obligations incurred net (+/-)                                                                                     172,379,940                  165,397,504
 Less: Gross outlays                                                                                               (160,002,387)                (153,915,590)
 Less: Recoveries of prior year unpaid obliga ions, actual                                                           (4,093,396)                  (4,602,017)
 Change in uncollected customer                                                                                           (405,660)                 315,146
      payments from Federal sources (+/-)
 Obligated balance, net, end of period
     Unpaid obligations                                                                                              76,097,415                   67,813,257
     Less: Uncollected customer payments                                                                             (2,457,299)                  (2,051,639)
              from Federal sources (-)
     Total, unpaid obligated balance, net, end of period                                                             73,640,116                   65,761,618
 Net Outlays
 Net Outlays:
     Gross outlays                                                                                                  160,002,387                  153,915,590
     Less: Offsetting collections                                                                                    (9,450,094)                 (10,264,468)
     Less: Distributed Offsetting receipts                                                                                (104,099)                 (201,497)
     Net Outlays                                                                                       $            150,448,194       $          143,449,625


34                                           The accompanying notes are an integral part of these financial statements.
General Fund
Fiscal Year 2009
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair
presentation of the financial statements that is not displayed on the face of the
financial statements.




                                                                                    35
General Fund
Notes to the Principal Statements




     Note 1.        Significant Accounting Policies

                   1.A. Basis of Presentation

                   These financial statements have been prepared to report the financial position and results
                   of operations of the Air Force, as required by the Chief Financial Officers Act of 1990,
                   expanded by the Government Management Reform Act of 1994, and other appropriate
                   legislation. The financial statements have been prepared from the books and records of
                   the Air Force in accordance with, and to the extent possible, U.S. generally accepted
                   accounting principles (USGAAP) promulgated by the Federal Accounting Standards
                   Advisory Board (FASAB); the Office of Management and Budget (OMB) Circular
                   A-136, Financial Reporting Requirements; and the Department of Defense (DoD),
                   Financial Management Regulation (FMR). The accompanying financial statements
                   account for all resources for which the Air Force is responsible unless otherwise noted.

                   Information relative to classified assets, programs, and operations is excluded from the
                   statements or otherwise aggregated and reported in such a manner that it is not
                   discernible.

                   The Air Force is unable to fully implement all elements of USGAAP and the
                   OMB Circular A-136, due to limitations of financial and nonfinancial management
                   processes and systems that support the financial statements. The Air Force derives
                   reported values and information for major asset and liability categories largely from
                   nonfinancial systems, such as inventory and logistic systems. These systems were
                   designed to support reporting requirements for maintaining accountability over assets and
                   reporting the status of federal appropriations rather than preparing financial statements in
                   accordance with USGAAP. The Air Force continues to implement process and system
                   improvements addressing these limitations.

                   The DoD currently has 13 auditor identified material weaknesses. Of these the Air Force
                   has the following: (1) Financial Management Systems; (2) Fund Balance with Treasury;
                   (3) Accounts Receivable; (4) Operating Materiel and Supplies; (5) General Property,
                   Plant, and Equipment; (6) Government-Furnished Materiel and Contractor-Acquired
                   Materiel; (7) Accounts Payable; (8) Environmental Liabilities; (9) Statement of Net Cost;
                   (10) Intragovernmental Eliminations; (11) Other Accounting Entries; and
                   (12) Reconciliation of Net Cost of Operations to Budget.
                   1.B. Mission of the Reporting Entity

                   The United States Air Force was created on September 18, 1947, by the National Security
                   Act of 1947 and operates under the direction, authority, and control of the Secretary of
                   the Air Force. The Air Force’s overall mission is to deliver sovereign options for the
                   Defense of the United States of America and its global interests to fly, fight, and win in
                   air, space, and cyberspace. The Air Force carries out its mission by adhering to a
                   strategic framework of Core Values consisting of Integrity First, Service Before Self, and
                   Excellence in All That We Do. In addition, the Air Force is committed to provide Global



36
                                                                                                                      2009
                                                                                                             General Fund
                                                                                                 Notes to the Principal Statements




Vigilance, Global Reach, and Global Power, while defending and protecting the
United States.
1.C. Appropriations and Funds

The Air Force receives appropriations and funds as general, working capital (revolving),
trust, special, and deposit funds. The Air Force uses these appropriations and funds to
execute its missions and subsequently report on resource usage.

x   General funds are used for financial transactions funded by congressional
    appropriations, including personnel, operations and maintenance, research and
    development, procurement, and military construction.

x   Trust funds contain receipts and expenditures of funds held in trust by the
    government for use in carrying out specific purposes or programs in accordance
    with the terms of the donor, trust agreement, or statute. Special fund accounts are
    used to record government receipts reserved for a specific purpose. Certain trust
    and special funds may be designated as earmarked funds. Earmarked funds are
    financed by specifically identified revenues, required by statute to be used for
    designated activities, benefits or purposes, and remain available over time.
    The Air Force is required to separately account for and report on the receipt, use and
    retention of revenues and other financing sources for earmarked funds.

x   Deposit funds are used to record amounts held temporarily until paid to the
    appropriate government or public entity. They are not Air Force funds, and as such,
    are not available for Air Force’s operations. The Air Force is acting as an agent or a
    custodian for funds awaiting distribution.

The Air Force is a party to allocation transfers with other federal agencies as a receiving
(child) entity. Allocation transfers are an entity’s legal delegation of authority to obligate
budget authority and outlay funds to another entity. The Air Force is a party to allocation
transfers as the child for the Department of Agriculture. Generally, all financial activity
related to allocation transfers (e.g. budget authority, obligations, outlays) is reported in
the financial statements of the parent entity. Exceptions to this general rule apply to
specific funds for which OMB has directed that all activity be reported in the financial
statements of the child entity. These exceptions include all U.S. Treasury-Managed Trust
Funds, Executive Office of the President (EOP), and all other funds specifically
designated by OMB.

The Air Force receives allocation transfers for EOP (Foreign Military Sales – Military
Assistance Program) meeting the OMB exception. Based on an agreement with OMB,
funds Security Assistance programs are reported separately.

The accounts used to prepare the financial statements are categorized as either entity or
nonentity. The Air Force accounts consist of resources that are available for use in the
operations of the entity. The Air Force is authorized to decide how to use resources in
entity accounts or may be legally obligated to use these resources to meet entity



                                                                                                                               37
General Fund
Notes to the Principal Statements




  obligations. Nonentity accounts, on the other hand, consist of assets that are held by an
  entity but that are not available for use in the operations of the entity. The following is a
  list of the major Air Force account numbers and titles (all accounts are entity accounts
  unless otherwise noted):

  Air Force Account Number          Title

  57 * 0704                         Military Family Housing, Operations and Maintenance (O&M
                                    and Construction), Air Force
  57 * 0740                         Military Family Housing (Construction), Air Force
  57 * 0743                         Military Family Housing (Construction), Air Force,
                                    Recovery Act
  57 * 0745                         Military Family Housing, Operations and Maintenance (O&M),
                                    Air Force
  57 * 0748                         Military Family Housing, Operations and Maintenance (O&M),
                                    Air Force, Recovery Act
  57 * 0810                         Environmental Restoration, Air Force
  57 * 1007                         Medicare Eligible Retiree Health Fund Contributions, Air Force
  57 * 1008                         Medicare Eligible Retiree Health Fund Contributions, Air Force
                                    Reserve
  57 * 1009                         Medicare Eligible Retiree Health Fund Contributions, Air
                                    National Guard
  57 * 3010                         Aircraft Procurement, Air Force
  57 * 3011                         Procurement of Ammunition, Air Force
  57 * 3020                         Missile Procurement, Air Force
  57 * 3080                         Other Procurement, Air Force
  57 * 3300                         Military Construction, Air Force
  57 * 3307                         Military Construction, Air Force, Recovery Act
  57 * 3400                         Operations and Maintenance (O&M), Air Force
  57 * 3404                         Operations and Maintenance (O&M), Air Force, Recovery Act
  57 * 3500                         Military Personnel, Air Force
  57 * 3600                         Research, Development, Testing, and Evaluation (RDT&E),
                                    Air Force
  57 * 3605                         Research, Development, Testing, and Evaluation (RDT&E),
                                    Air Force, Recovery Act
  57 * 3700                         Personnel, Air Force Reserve
  57 * 3730                         Military Construction, Air Force Reserve
  57 * 3740                         Operations and Maintenance (O&M), Air Force Reserve
  57 * 3744                         Operations and Maintenance (O&M), Air Force Reserve,
                                    Recovery Act
  57 * 3830                         Military Construction, Air National Guard
  57 * 3834                         Military Construction, Air National Guard, Recovery Act
  57 * 3840                         Operations and Maintenance (O&M), Air National Guard
  57 * 3844                         Operations and Maintenance (O&M), Air National Guard,
                                    Recovery Act
  57 * 3850                         Personnel, Air National Guard




38
                                                                                                                  2009
                                                                                                         General Fund
                                                                                             Notes to the Principal Statements




57 X 5095                        Wildlife Conservation, etc., Military Reservations, Air Force
57 X 8418                        Air Force Cadet Fund
57 X 8928                        Air Force General Gift Fund
57 * 3XXX (Incl Nonentity)       Budget Clearing Accounts
57 * 6XXX (Nonentity)            Deposit Fund Accounts
57 **** (Nonentity)              Receipt Accounts
1.D. Basis of Accounting

The Air Force’s financial management systems are unable to meet all full accrual
accounting requirements. Many of the Air Force’s financial and nonfinancial feeder
systems and processes were designed and implemented prior to the issuance of
USGAAP. These systems were not designed to collect and record financial information
on the full accrual accounting basis as required by USGAAP. Most of the Air Force’s
financial and nonfinancial legacy systems were designed to record information on a
budgetary basis.

The financial statements and supporting trial balances are compiled from the
underlying financial data and trial balances. The underlying data is largely derived from
budgetary transactions (obligations, disbursements, and collections), from nonfinancial
feeder systems, and accruals made for major items such as payroll expenses, accounts
payable, and environmental liabilities. Some of the lower level trial balances may reflect
known abnormal balances resulting largely from business and system processes. At
the consolidated level these abnormal balances may not be evident. Disclosures of
abnormal balances are made in the applicable footnotes, but only to the extent that the
abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder
systems and processes into compliance with USGAAP. One such action is the current
revision of accounting systems to record transactions based on the U.S. Standard General
Ledger (USSGL). Until all Air Force’s financial and nonfinancial feeder systems and
processes are updated to collect and report financial information as required by
USGAAP, Air Force’s financial data will be derived from budgetary transactions, data
from nonfinancial feeder systems, and accruals.
1.E. Revenues and Other Financing Sources

The Air Force receives congressional appropriations as financing sources for general
funds that expire annually, on a multi-year basis, or do not expire. When authorized by
legislation, these appropriations are supplemented by revenues generated by sales of
goods or services. The Air Force recognizes revenue as a result of costs incurred for
goods and services provided to other federal agencies and the public. Full cost pricing is
Air Force’s standard policy for services provided as required by OMB Circular A-25,
User Charges. The Air Force recognizes revenue when earned within the constraints of
its current system capabilities. In some instances, revenue is recognized when bills are
issued.




                                                                                                                           39
General Fund
Notes to the Principal Statements




  The Air Force does not include nonmonetary support provided by U.S. allies for common
  defense and mutual security in amounts reported in the Statement of Net Cost and the
  Note 21, “Reconciliation of Net Cost of Operations to Budget.” The U.S. has cost
  sharing agreements with countries having a mutual or reciprocal defense agreement,
  where U.S. troops are stationed, or where the U.S. Fleet is in a port.
  1.F. Recognition of Expenses

  For financial reporting purposes, DoD policy requires the recognition of operating
  expenses in the period incurred. Current financial and nonfinancial feeder systems were
  not designed to collect and record financial information on the full accrual accounting
  basis. Estimates are made for major items such as payroll expenses, accounts payable,
  environmental liabilities, and unbilled revenue. Some accounts such as civilian pay,
  military pay and accounts payable are presented on the accrual basis of accounting on the
  financial statements, as required by USGAAP.

  In the case of Operating Materiel and Supplies (OM&S), operating expenses are
  generally recognized when the items are purchased. Efforts are underway to transition to
  the consumption method for recognizing OM&S expenses. Under the consumption
  method, OM&S would be reported as expenses when consumed.

  Due to system limitations, in some instances expenditures for capital and other long-term
  assets may be recognized as operating expenses. The Air Force continues to implement
  process and system improvements to address these limitations.
  1.G. Accounting for Intragovernmental Activities

  Accounting standards require that an entity eliminate intraentity activity and balances
  from consolidated financial statements in order to prevent overstatement for business
  with itself. However, the Air Force cannot accurately identify intragovernmental
  transactions by customer because Air Force’s systems do not track buyer and seller data
  at the transaction level. Generally, seller entities within the DoD provide summary
  seller-side balances for revenue, accounts receivable, and unearned revenue to the
  buyer-side internal DoD accounting offices. In most cases, the buyer-side records are
  adjusted to agree with DoD seller-side balances and are then eliminated. The volume of
  intragovernmental transactions is so large that reconciliations cannot be accomplished
  effectively. The DoD is developing long-term system improvements to ensure accurate
  intragovernmental information, including developing sufficient up-front edits and
  controls.

  The U.S. Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide”
  and Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements
  for the Financial Report of the United States Government” provide guidance for reporting
  and reconciling intragovernmental balances. While Air Force is unable to fully reconcile
  intragovernmental transactions with all federal agencies, Air Force is able to reconcile
  balances pertaining to investments in federal securities, Federal Employees’ Compensation




40
                                                                                                                     2009
                                                                                                            General Fund
                                                                                                Notes to the Principal Statements




Act transactions with the Department of Labor, and benefit program transactions with the
Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal
Government is not included. The Federal Government does not apportion debt and its
related costs to federal agencies. The DoD’s financial statements do not report any public
debt, interest, or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through
appropriations. To the extent this financing ultimately may have been obtained through
the issuance of public debt, interest costs have not been capitalized since the
U.S. Treasury does not allocate such costs to DoD.
1.H. Transactions with Foreign Governments and International Organizations

Each year, Air Force sells defense articles and services to foreign governments and
international organizations under the provisions of the Arms Export Control Act of 1976.
Under the provisions of the Act, DoD has authority to sell defense articles and services to
foreign countries and international organizations generally at no profit or loss to the
Federal Government. Payment in U.S. dollars is required in advance.
1.I. Funds with the U.S. Treasury

The Air Force’s monetary resources are maintained in U.S. Treasury accounts. The
disbursing offices of Defense Finance and Accounting Service (DFAS), the Military
Departments, the U.S. Army Corps of Engineers (USACE), and the Department of
State’s financial service centers process the majority of the Air Force’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly
reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency
transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury
by appropriation on interagency transfers, collections received, and disbursements issued.
The U.S. Treasury records these transactions to the applicable Fund Balance with
Treasury (FBWT) account. On a monthly basis, Air Force’s FBWT is adjusted to agree
with the U.S. Treasury accounts.
1.J. Foreign Currency

Cash is the total of cash resources under the control of DoD which includes coin, paper
currency, negotiable instruments, and amounts held for deposit in banks and other
financial institutions. Foreign currency consists of the total U.S. dollar equivalent of both
purchased and nonpurchased foreign currencies held in foreign currency fund accounts.
Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted.
Amounts reported consist primarily of cash and foreign currency held by disbursing




                                                                                                                              41
General Fund
Notes to the Principal Statements




  officers to carry out their paying, collecting, and foreign currency accommodation
  exchange missions.

  The Air Force conducts a significant portion of operations overseas. Congress
  established a special account to handle the gains and losses from foreign currency
  transactions for five general fund appropriations: operations and maintenance, military
  personnel, military construction, family housing operations and maintenance, and family
  housing construction. The gains and losses are calculated as the variance between the
  exchange rate current at the date of payment and a budget rate established at the
  beginning of each fiscal year. Foreign currency fluctuations related to other
  appropriations require adjustments to the original obligation amount at the time of
  payment. The Air Force does not separately identify currency fluctuation transactions.

  1.K. Accounts Receivable

  Accounts receivable from other federal entities or the public include: accounts
  receivable, claims receivable, and refunds receivable. Allowances for uncollectible
  amounts due from the public are computed based on the average annual write off over a
  five year period. The DoD does not recognize an allowance for estimated uncollectible
  amounts from other federal agencies. Claims against other federal agencies are to be
  resolved between the agencies in accordance with dispute resolution procedures defined
  in the Intragovernmental Business Rules published in the Treasury Financial Manual at
  http://www.fms.treas.gov/tfm/vol1/07-03.pdf.
  1.L. Direct Loans and Loan Guarantees

  Not applicable.
  1.M. Inventories and Related Property

  The Air Force manages only military or government specific materiel under normal
  conditions. Materiel is a unique term that relates to military force management, and
  includes items such as self-propelled weapons, aircraft, etc., and related spares, repair
  parts, and support equipment. Items commonly used in and available from the
  commercial sector are not managed in Air Force’s materiel management activities.
  Operational cycles are irregular and the military risks associated with stock-out positions
  have no commercial parallel. The Air Force holds materiel based on military need and
  support for contingencies. The DoD is currently developing a methodology to be used to
  account for “inventory held for sale” and “inventory held in reserve for future sale” with
  a completion date of year-end FY 2010 reporting.

  Related property includes OM&S and stockpile materiel. The majority of OM&S, with
  the exception of munitions not held for sale, are valued using the moving average cost
  method. Munitions not held for sale are valued at standard purchase price. The
  Air Force uses both the consumption method and the purchase method of accounting for
  OM&S. Items that are centrally managed and stored, such as ammunition and engines,
  are generally recorded using the consumption method and are reported on the Balance




42
                                                                                                                   2009
                                                                                                          General Fund
                                                                                              Notes to the Principal Statements




Sheet as OM&S. When current systems cannot fully support the consumption method,
Air Force uses the purchase method. Under this method, materiel and supplies are
expensed when purchased. During FY 2009 and FY 2008, Air Force expensed
significant amounts using the purchase method because the systems could not support the
consumption method or management deemed that the item was in the hands of the end
user. This is a material weakness for the DoD and long-term system corrections are in
process. Once the proper systems are in place, these items will be accounted for under
the consumption method of accounting.

The Air Force determined that the recurring high dollar-value of OM&S in need of repair
is material to the financial statements and requires a separate reporting category. Many
high dollar items, such as aircraft engines, are categorized as OM&S rather than military
equipment.

The Air Force recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.”
The cost of disposal is greater than the potential scrap value; therefore, the net value of
condemned materiel is zero.
1.N. Investments in U.S. Treasury Securities

The Air Force reports investments in U.S. Treasury securities at cost, net of amortized
premiums or discounts. Premiums or discounts are amortized over the term of the
investments using the effective interest rate method or another method obtaining similar
results. The Air Force’s intent is to hold investments to maturity, unless they are needed
to finance claims or otherwise sustain operations. Consequently, a provision is not made
for unrealized gains or losses on these securities.

The Air Force invests in nonmarketable market-based U.S. Treasury securities, which are
issued to federal agencies by the U.S. Treasury’s Bureau of Public Debt. They are not
traded on any securities exchange but mirror the prices of particular U.S. Treasury
securities traded in the government securities market.
1.O. General Property, Plant and Equipment

The Air Force uses the estimated historical cost for valuing military equipment. The
DoD identified the universe of military equipment by accumulating information relating
to program funding and associated military equipment, equipment useful life, program
acquisitions, and disposals to establish a baseline. The military equipment baseline is
updated using expenditure, acquisition, and disposal information.

The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is
$100 thousand except for real property, which is $20 thousand. The Air Force has not
fully implemented the threshold for real property; therefore, Air Force is primarily using
the capitalization threshold of $100 thousand for General PP&E, and most real property.

With the exception of USACE Civil Works and WCF, General PP&E assets are
capitalized at historical acquisition cost when an asset has a useful life of two or more




                                                                                                                            43
General Fund
Notes to the Principal Statements




  years and when the acquisition cost equals or exceeds the DoD’s capitalization threshold.
  The DoD also requires the capitalization of improvements to existing General PP&E
  assets if the improvements equal or exceed the capitalization threshold and extend the
  useful life or increase the size, efficiency, or capacity of the asset. The DoD depreciates
  all General PP&E, other than land, on a straight-line basis.

  When it is in the best interest of the government, the Air Force provides government
  property to contractors to complete contract work. The Air Force either owns or leases
  such property, or it is purchased directly by the contractor for the government based on
  contract terms. When the value of contractor-procured General PP&E meets or exceeds
  the DoD capitalization threshold, federal accounting standards require that it be reported
  on Air Force’s Balance Sheet.

  The DoD developed policy and a reporting process for contractors with government
  furnished equipment that provides appropriate General PP&E information for financial
  statement reporting. The DoD requires Air Force to maintain, in its property systems,
  information on all property furnished to contractors. These actions are structured to
  capture and report the information necessary for compliance with federal accounting
  standards. The Air Force has not fully implemented this policy primarily due to system
  limitations.
  1.P. Advances and Prepayments

  When advances are permitted by law, legislative action, or presidential authorization,
  DoD’s policy is to record advances or prepayments in accordance with USGAAP. As
  such, payments made in advance of the receipt of goods and services should be reported
  as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly
  classify assets when the related goods and services are received. The Air Force has not
  fully implemented this policy primarily due to system limitations.
  1.Q. Leases

  Lease payments for the rental of equipment and operating facilities are classified as either
  capital or operating leases. When a lease is essentially equivalent to an installment
  purchase of property (a capital lease), and the value equals or exceeds the current
  capitalization threshold, Air Force records the applicable asset as though purchased, with
  an offsetting liability, and depreciates it. The Air Force records the asset and the liability
  at the lesser of the present value of the rental and other lease payments during the lease
  term (excluding portions representing executory costs paid to the lessor) or the asset’s
  fair market value. The discount rate for the present value calculation is either the lessor’s
  implicit interest rate or the government’s incremental borrowing rate at the inception of
  the lease. The Air Force, as the lessee, receives the use and possession of leased
  property, for example real estate or equipment, from a lessor in exchange for a payment
  of funds. An operating lease does not substantially transfer all the benefits and risk of
  ownership. Payments for operating leases are expensed over the lease term as they
  become payable.




44
                                                                                                                      2009
                                                                                                             General Fund
                                                                                                 Notes to the Principal Statements




Office space and leases entered into by Air Force are the largest component of operating
leases and are based on costs gathered from existing leases, General Services
Administration (GSA) bills, and interservice support agreements. Future year projections
use the Consumer Price Index.
1.R. Other Assets

Other assets include those assets, such as military and civil service employee pay
advances, travel advances, and certain contract financing payments that are not reported
elsewhere on Air Force’s Balance Sheet.

The Air Force conducts business with commercial contractors under two primary types of
contracts: fixed price and cost reimbursable. To alleviate the potential financial burden
on the contractor that long-term contracts can cause, Air Force may provide financing
payments. Contract financing payments are defined in the Federal Acquisition
Regulations, Part 32, as authorized disbursements to a contractor prior to acceptance of
supplies or services by the Government. Contract financing payments clauses are
incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advances and interim payments, progress
payments based on cost, and interim payments under certain cost-reimbursement
contracts. It is DoD policy to record certain contract financing payments as other assets.
The Air Force has fully implemented this policy.

Contract financing payments do not include invoice payments, payments for partial
deliveries, lease and rental payments, or progress payments based on a percentage or
stage of completion. The Defense Federal Acquisition Regulation Supplement
authorizes progress payments based on a percentage or stage of completion only for
construction of real property, shipbuilding, and ship conversion, alteration, or repair.
Progress payments based on percentage or stages of completion are reported as
Construction in Progress.
1.S. Contingencies and Other Liabilities

The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended
by SFFAS No. 12, “Recognition of Contingent Liabilities Arising from Litigation,”
defines a contingency as an existing condition, situation, or set of circumstances that
involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when
one or more future events occur or fail to occur. The Air Force recognizes contingent
liabilities when past events or exchange transactions occur, a future loss is probable, and
the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability
recognition do not exist but there is at least a reasonable possibility of incurring a loss or
additional losses. The Air Force’s risk of loss and resultant contingent liabilities arise
from pending or threatened litigation or claims and assessments due to events such as
aircraft and vehicle accidents, medical malpractice, property or environmental damages,
and contract disputes.




                                                                                                                               45
General Fund
Notes to the Principal Statements




  Other liabilities arise as a result of anticipated disposal costs for Air Force assets.
  Consistent with SFFAS No. 6, “Accounting for Property, Plant, and Equipment,”
  recognition of an anticipated environmental disposal liability begins when the asset is
  placed into service. Based on DoD’s policy, which is consistent with SFFAS No. 5,
  “Accounting for Liabilities of the Federal Government,” nonenvironmental disposal
  liabilities are recognized when management decides to dispose of an asset. The DoD
  recognizes nonenvironmental disposal liabilities for military equipment nuclear-powered
  assets when placed into service. These amounts are not easily distinguishable and are
  developed in conjunction with environmental disposal costs. The Air Force does not
  recognize contingent liabilities associated with nonenvironmental disposals due to
  immateriality.


  1.T. Accrued Leave

  The Air Force reports liabilities for military leave and accrued compensatory and annual
  leave for civilians. Sick leave for civilians is expensed as taken. The liabilities are based
  on current pay rates.
  1.U. Net Position

  Net Position consists of unexpended appropriations and cumulative results of operations.

  Unexpended Appropriations represent the amounts of budget authority that are
  unobligated and that have not been rescinded or withdrawn. Unexpended appropriations
  also represent amounts obligated for which legal liabilities for payments have not been
  incurred.

  Cumulative Results of Operations represent the net difference between expenses and
  losses and financing sources (including appropriations, revenue, and gains), since
  inception. The cumulative results of operations also include donations and transfers in
  and out of assets that were not reimbursed.
  1.V. Treaties for Use of Foreign Bases

  The DoD has the use of land, buildings, and other overseas facilities that are obtained
  through various international treaties and agreements negotiated by the Department of
  State. The Air Force purchases capital assets overseas with appropriated funds; however,
  the host country retains title to the land and capital improvements. Treaty terms
  generally allow Air Force continued use of these properties until the treaties expire. In
  the event treaties or other agreements are terminated, use of the foreign bases is
  prohibited and losses are recorded for the value of any nonretrievable capital assets. The
  settlement due to the U.S. or host nation is negotiated and takes into account the value of
  capital investments and may be offset by the cost of environmental cleanup.




46
                                                                                                                 2009
                                                                                                        General Fund
                                                                                            Notes to the Principal Statements




1.W. Unexpended Obligations

The Air Force obligates funds to provide goods and services for outstanding orders not
yet delivered. Unless the title has passed, the financial statements do not reflect a
liability for payment for goods and services not yet delivered. Unexpended obligations
includes both obligations for which goods and services have been delivered (title passed)
and a liability recognized, and obligations for which no delivery has occurred and no
liability recognized. The balance of unexpended obligations appears immediately before
net outlays in the Statement of Budgetary Resources, and is referred to as “Total, unpaid
obligated balances, net, end of period.”
1.X. Undistributed Disbursements and Collections

Undistributed disbursements and collections represent the difference between
disbursements and collections matched at the transaction level to specific obligations,
payables, or receivables in the source systems and those reported by the U.S. Treasury.

Supported disbursements and collections are evidenced by corroborating documentation.
Unsupported disbursements and collections do not have supporting documentation for the
transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections
between federal and nonfederal categories based on the percentage of distributed federal
and nonfederal accounts payable and accounts receivable. Supported undistributed
disbursements and collections are then applied to reduce accounts payable and receivable
accordingly. Unsupported undistributed disbursements are recorded as disbursements
intransit and reduce nonfederal accounts payable. Unsupported undistributed collections
are recorded in nonfederal other liabilities.
1.Y. Significant Events

On October 1, 2008, the Air Force began using the Reliability and Maintainability
Information system (REMIS) as the official system of record for financial accountability
for military equipment assets. The conversion from Capital Asset Management
System-Military Equipment, the previous system of record, to REMIS required a prior
period adjustment. See Notes 10, 19, 21, and 25 for additional information.
1.Z. Fiduciary Activities

Fiduciary cash and other assets are not assets of the Air Force and are not recognized on
the balance sheet. Fiduciary activities are reported on the financial statement note
schedules.




                                                                                                                          47
General Fund
Notes to the Principal Statements




     Note 2.       Nonentity Assets


     As of September 30                                           2009                            2008 Restated
     (Amounts in thousands)

     1. Intragovernmental Assets
        A. Fund Balance with Treasury              $                           125,030   $                           101,059
        B. Accounts Receivable                                                       0                                 1,430
        C. Total Intragovernmental Assets          $                           125,030   $                           102,489

     2. Nonfederal Assets
        A. Cash and Other Monetary Assets          $                            98,939   $                           111,976
        B. Accounts Receivable                                                 138,516                               111,649
        C. Other Assets                                                        186,225                               183,444
        D. Total Nonfederal Assets                 $                           423,680   $                           407,069


     3. Total Nonentity Assets                     $                           548,710   $                           509,558

     4. Total Entity Assets                        $                       313,019,908   $                        291,719,903


     5. Total Assets                               $                       313,568,618   $                        292,229,461



       Relevant Information for Comprehension

       Nonentity assets are assets for which the Air Force maintains stewardship accountability and reporting
       responsibility but are not available for the Air Force’s normal operations.

       Intragovernmental Fund Balance with Treasury represents amounts in Air Force’s deposit fund and two
       suspense fund accounts (Uniformed Services Thrift Savings Plan Suspense and Thrift Savings Plan
       Suspense) that are not available for Air Force use.

       Intragovernmental Accounts Receivable and Nonfederal Accounts Receivable include interest receivable
       that upon collection is remitted to the U.S. Treasury as miscellaneous receipts.

       Nonfederal Cash and Other Monetary Assets represent disbursing officers’ cash and undeposited
       collections as reported on the Statement of Accountability (Standard Form 1219). These assets are held
       by the Air Force disbursing officers as agents of the U.S. Treasury. The nonfederal cash and other
       monetary assets represent a fiduciary capacity held by Air Force disbursing officers as agents for
       U.S. Treasury and are not available for use in operations.

       Nonfederal Other Assets consist of advances to contractors as part of the advance payment pool
       agreements with the Massachusetts Institute of Technology and other nonprofit institutions. These
       agreements are used for the financing of cost-type contracts with nonprofit educational research
       institutions for experimental research and development work when several contracts or a series of
       contracts require financing by advance payments. These funds are not available for use in Air Force
       operations.



48
                                                                                                                 2009
                                                                                                        General Fund
                                                                                            Notes to the Principal Statements




Note 3.      Fund Balance with Treasury

As of September 30                                               2009                                 2008
(Amounts in thousands)


1. Fund Balances
   A. Appropriated Funds                          $                      103,175,823    $                       92,800,590
   B. Revolving Funds                                                              0                                     0
   C. Trust Funds                                                              8,137                                 6,773
   D. Special Funds                                                            1,377                                 1,487
   E. Other Fund Types                                                       125,030                               101,059
   F. Total Fund Balances                         $                      103,310,367    $                       92,909,909



2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                   $                      104,651,268    $                       94,578,060
   B. Fund Balance per Air Force                                         103,310,367                            92,909,909

3. Reconciling Amount                             $                         1,340,901   $                        1,668,151



 Fund Balance with Treasury

 Other Fund Types include balances in deposit accounts which consist of taxes, small escrow accounts
 and other federal payroll withholding allotments.

 The Air Force shows a reconciling amount of $1.3 billion primarily due to the withdrawal of
 $1.2 billion in cancelling appropriations at the end of fiscal year 2009. These funds are included in
 Fund Balance with Treasury (FBWT) per Treasury but are not included in FBWT per Air Force.




                                                                                                                          49
General Fund
Notes to the Principal Statements




     Status of Fund Balance with Treasury

     As of September 30                                          2009                                   2008
     (Amounts in thousands)
     1. Unobligated Balance
        A. Available                             $                          26,096,409    $                    24,143,734
        B. Unavailable                                                       3,114,938                          2,533,156

     2. Obligated Balance not yet Disbursed      $                          76,097,415    $                    67,813,258

     3. Nonbudgetary FBWT                        $                             459,967    $                       472,259

     4. NonFBWT Budgetary Accounts               $                          (2,458,362)   $                    (2,052,498)

     5. Total                                    $                         103,310,367    $                    92,909,909



     The Status FBWT reflects the budgetary resources to support the FBWT and is a reconciliation
     between budgetary and proprietary accounts. It primarily consists of unobligated and obligated
     balances. The balances reflect the budgetary authority remaining for disbursement against current or
     future obligations.

     Unobligated Balance is classified as available or unavailable and represents the cumulative amount of
     budgetary authority that has not been set side to cover outstanding obligations. The unavailable
     balance consists primarily of funds invested in U.S. Treasury securities that are temporarily precluded
     from obligation by law. Certain unobligated balances are restricted for future use and are not
     apportioned for current use. Unobligated balances for trust fund accounts are restricted for use by the
     public law that established the funds.

     Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services
     not received, and those received but not paid.

     Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as unavailable
     receipt accounts or clearing accounts. The items reported as Nonbudgetary FBWT comprise the FBWT
     for suspense, deposit and receipt accounts.

     NonFBWT Budgetary Accounts reduces the Status FBWT. The items that comprise the amount
     reported as NonFBWT receipts are from investments and discounts in U.S. Treasury securities, and
     unfilled customer orders without advances.

  Unobligated balances are segregated to show available and unavailable amounts in the note schedule.
  Certain unobligated balances may be restricted to future use and are not apportioned for current use.
  The Unobligated Balance unavailable of $3.1 billion is not available for new obligations since the
  period for new obligations established by law has expired.




50
                                                                                                                                   2009
                                                                                                                          General Fund
                                                                                                          Notes to the Principal Statements




Note 4.          Investments and Related Interest

As of September 30                                                              2009
                                                 Amortization            Amortized                                            Market Value
                                  Cost                                                           Investments, Net
                                                   Method           (Premium) / Discount                                       Disclosure
(Amounts in thousands)
1. Intragovernmental
   Securities
   A. Nonmarketable,
      Market-Based
    1. Military Retirement
    Fund                      $             0                   $                       0    $                        0   $                    0
    2. Medicare Eligible
    Retiree Health Care
    Fund                                    0                                           0                             0                        0
    3. US Army Corps of
    Engineers                                0                                          0                          0                         0
    4. Other Funds                       1,079                                       (10)                      1,069                     1,093
    5. Total Nonmarketable,
    Market-Based                         1,079                                      ( 10)                      1,069                     1,093

  B. Accrued Interest                      10                                                                       10                        10
  C. Total
     Intragovernmental
     Securities               $          1,089                  $                   ( 10)    $                 1,079      $              1,103

2. Other Investments
   A. Total Other
      Investments             $             0                   $                       0    $                       0                       N/A


As of September 30                                                              2008
                                                 Amortization            Amortized                                            Market Value
                                  Cost                                                           Investments, Net
                                                   Method           (Premium) / Discount                                       Disclosure
(Amounts in thousands)
3. Intragovernmental
   Securities
   A. Nonmarketable,
      Market-Based
    1. Military Retirement
    Fund                      $             0                   $                       0    $                        0   $                    0
    2. Medicare Eligible
    Retiree Health Care
    Fund                                    0                                           0                             0                        0
    3. US Army Corps of
    Engineers                               0                                            0                            0                        0
    4. Other Funds                        868                                          (3)                          865                      890
    5. Total Nonmarketable,
    Market-Based                          868                                       ( 3)                            865                      890

  B. Accrued Interest                       9                                                                         9                        9
  C. Total
     Intragovernmental
     Securities               $           877                   $                   ( 3)     $                      874   $                  899

4. Other Investments
   A. Total Other
      Investments             $             0                   $                       0    $                       0                       N/A




                                                                                                                                              51
General Fund
Notes to the Principal Statements




  Relevant Information for Comprehension

  The Federal Government does not set aside assets to pay future benefits or other expenditures associated
  with earmarked funds. The cash generated from earmarked funds is deposited in the U.S. Treasury, which
  uses the cash for general Government purposes. The U.S. Treasury securities are issued to the earmarked
  funds as evidence of its receipts and are an asset to the Air Force and a liability to the U.S. Treasury.
  Since the Air Force and the U.S. Treasury are both part of the Federal Government, these assets and
  liabilities offset each other from the standpoint of the Federal Government as a whole. For this reason,
  they do not represent an asset or a liability in the U.S. Governmentwide financial statements.

  The U.S. Treasury securities provide the Air Force with authority to draw upon the U.S. Treasury to make
  future benefit payments or other expenditures. When the Air Force requires redemption of these securities
  to make expenditures, the Government finances the securities out of accumulated cash balances, by raising
  taxes or other receipts, borrowing from the public or repaying less debt, or curtailing other expenditures.
  The Federal Government used the same method to finance all other expenditures.

  Intragovernmental Securities (Other) primarily represents the Air Force Gift Fund investment in
  U.S. Treasury Securities.


     Note 5.       Accounts Receivable


     As of September 30                                                 2009
                                                                Allowance For Estimated
                                    Gross Amount Due                                           Accounts Receivable, Net
                                                                     Uncollectibles
     (Amounts in
          thousands)
     1. Intragovernmental
        Receivables            $                  298,953                           N/A    $                     298,953
     2. Nonfederal
        Receivables (From
        the Public)            $                  666,917   $                   (83,577)   $                     583,340

     3. Total Accounts
        Receivable             $                  965,870   $                   (83,577)   $                     882,293


     As of September 30                                                 2008
                                                                Allowance For Estimated
                                    Gross Amount Due                                           Accounts Receivable, Net
                                                                     Uncollectibles
     (Amounts in
          thousands)
     1. Intragovernmental
        Receivables            $                  271,020                           N/A    $                     271,020
     2. Nonfederal
        Receivables (From
        the Public)            $                  619,412   $                  (117,230)   $                     502,182

     3. Total Accounts
        Receivable             $                  890,432   $                  (117,230)   $                     773,202

52
                                                                                                               2009
                                                                                                      General Fund
                                                                                          Notes to the Principal Statements




Note 6.       Other Assets


As of September 30                                                    2009                            2008
(Amounts in thousands)

1. Intragovernmental Other Assets
   A. Advances and Prepayments                            $                    212,245    $                      265,591
   B. Other Assets                                                                   0                                 0
   C. Total Intragovernmental Other Assets                $                    212,245    $                      265,591

2. Nonfederal Other Assets
   A. Outstanding Contract Financing Payments             $                  11,446,790   $                   10,775,541
   B. Advances and Prepayments                                                   83,161                           71,542
   C. Other Assets (With the Public)                                            186,225                          183,444
   D. Total Nonfederal Other Assets                       $                  11,716,176   $                   11,030,527


3. Total Other Assets                                     $                  11,928,421   $                   11,296,118

  Relevant Information for Comprehension

  Nonfederal Other Assets (With the Public) is comprised exclusively of Advance Payment Pool Agreements
  with nonprofit educational institutions. These agreements are funded under cost type contract procedures and
  are mainly for experimental research and development requirements.

  Contract terms and conditions for certain types of contract financing payments convey certain rights to the
  Air Force that protect the contract work from state or local taxation, liens or attachment by the contractor's
  creditors, transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued
  to mean that ownership of the contractor’s work has transferred to the Federal Government. The Federal
  Government does not have the right to take the work, except as provided in contract clauses related to
  termination or acceptance, and Air Force is not obligated to make payment to the contractor until delivery and
  acceptance.

  The Outstanding Contract Financing Payments balance of $11.4 billion is comprised of $10.8 billion in contract
  financing payments and an additional $577.0 million in estimated future payments that will be paid to the
  contractor upon future delivery and Government acceptance of satisfactory product. See additional discussion
  in Note 15, Other Liabilities.




                                                                                                                        53
General Fund
Notes to the Principal Statements




     Note 7.       Cash and Other Monetary Assets


     As of September 30                                               2009                               2008
     (Amounts in thousands)

     1. Cash                                           $                           83,306   $                            93,046
     2. Foreign Currency                                                           15,633                                18,930
     3. Other Monetary Assets                                                           0                                     0

     4. Total Cash, Foreign Currency, & Other
        Monetary Assets                                $                           98,939   $                           111,976

       Relevant Information for Comprehension

       The amount reported as cash and foreign currency consists primarily of cash held by Disbursing Officers. The
       foreign currency amount reported is valued at U.S. Treasury’s prevailing exchange rate, which is the most
       favorable rate available to the Government for foreign exchange transactions. Foreign currency is primarily
       used to make vendor disbursements and to exchange U.S. dollars for military personnel.

       Cash and foreign currency are nonentity assets and, as such, considered restricted assets that are held by the
       Air Force but are not available for use in its operations. These assets are held by the Air Force’s Disbursing
       Officers as agents of U.S. Treasury. The total balance of $99.0 million is restricted.

     Note 8. Direct Loan and/or Loan Guarantee Programs
     Not Applicable




54
                                                                                                                  2009
                                                                                                         General Fund
                                                                                             Notes to the Principal Statements




Note 9.       Inventory and Related Property


As of September 30                                              2009                                   2008
(Amounts in thousands)

1. Inventory, Net                               $                                   0   $                                 0
2. Operating Materiel & Supplies, Net                                      47,588,282                            46,906,666
3. Stockpile Materiel, Net                                                          0                                     0

4. Total                                        $                          47,588,282   $                        46,906,666

  General Composition of OM&S

  The Operating Materiel and Supplies (OM&S) include weapon systems spares, ammunition, tactical
  missiles, aerial target drones, uninstalled aircraft and cruise missile engines, and uninstalled intercontinental
  ballistic missile motors.

  In addition to the account balances shown in Note 9, the federal accounting standard requires disclosure of
  the amount of OM&S held for future use. Except for an immaterial amount of munitions, the Air Force is
  not holding any items for future use.

  Restrictions on the Use of OM&S

  The Air Force does not maintain any OM&S restricted assets.

  Decision Criteria for Identifying the Category to Which OM&S Items Are Assigned

  The category Held for Use includes all materiel available for issuance. OM&S classified as such is marked
  within each supply or inventory system.

  The category Held for Repair generally includes all economically reparable materiel as defined by the
  Military Standard Transaction Reporting and Accounting Procedures Manual (DoD 4000.25-2-M).

  The category Held as Excess, Obsolete, and Unserviceable includes all materiel that managers determine to
  be more costly to repair than to replace. Items retained for management purposes which are beyond
  economic repair are coded “condemned.” These items are held until proper disposal can be made. Excess,
  Obsolete, and Unserviceable are valued at zero. This allowance results in a zero value to the Air Force.
  The category Held for Repair represents suspended, unserviceable (but reparable) items recorded at Moving
  Average Cost (MAC) or standard price.

  Changes in the Criteria for Identifying the Category to Which OM&S Items Are Assigned

  Under current DoD policy, no allowance is made for serviceable, ready-to-issue, items (category Held for
  Use). An allowance equal to 100% of MAC or standard price, however, is made for the category Excess,
  Obsolete, and Unserviceable. This allowance results in a net book value of zero to the Air Force. Excess,
  Obsolete, and Unserviceable are valued at zero.



                                                                                                                           55
General Fund
Notes to the Principal Statements




  Operating Materiel and Supplies (OM&S) Value

  The OM&S data reported on the financial statements are derived from logistics systems designed for
  materiel management purposes. Some of these systems do not maintain the historical cost data necessary to
  comply with the valuation requirements of the Statement of Federal Financial Accounting Standards
  (SFFAS) No. 3, “Accounting for Inventory and Related Property.”

  In general, the Air Force uses the consumption method of accounting for OM&S, since OM&S is defined in
  SFFAS No. 3 as materiel that has not yet been issued to the end user. Once issued, the materiel is expensed.
  According to federal accounting standards, the consumption method of accounting should be used to
  account for OM&S unless: (1) the amount of OM&S is not significant, (2) OM&S are in the hands of the
  end user for use in normal operations, or (3) it is cost beneficial to expense OM&S when purchased
  (purchase method).

  Other Air Force Disclosures

  In the past, the Air Force provided only minimal OM&S accounting data that could be used to prepare the
  financial statements but has made considerable strides in improving the systems to provide actual
  transactions for completing the financial statements. However, in some cases, the data provided still
  consists of only beginning and ending balances for each of the asset accounts Held for Use; Excess,
  Obsolete, Unserviceable; and Held for Repair. Without the required additional data (acquisitions, transfers
  in, amounts consumed, transfers out, trading partner data, etc.), DFAS can only report the net change
  between prior period ending balances and the values reported as current period ending balances.

  Inventory, Net
  Not Applicable




56
                                                                                                                            2009
                                                                                                                  General Fund
                                                                                                     Notes to the Principal Statements




 Operating Materiel and Supplies, Net

 As of September 30                                                    2009
                                        OM&S                                                                       Valuation
                                                             Revaluation Allowance            OM&S, Net
                                      Gross Value                                                                   Method
 (Amounts in thousands)

 1. OM&S Categories
   A. Held for Use               $            36,018,675     $                       0    $          36,018,675   SP, LAC, MAC
  B. Held for Repair                          11,569,607                             0               11,569,607   SP, LAC, MAC
  C. Excess, Obsolete, and
     Unserviceable                             1,698,500                    (1,698,500)                      0        NRV


  D. Total                       $            49,286,782     $              (1,698,500)   $          47,588,282


 As of September 30                                                  2008
                                       OM&S                                                                        Valuation
                                                             Revaluation Allowance            OM&S, Net
                                     Gross Value                                                                    Method
 (Amounts in
    thousands)

 1. OM&S Categories
   A. Held for Use         $                  35,828,669     $                       0    $          35,828,669   SP, LAC, MAC
   B. Held for Repair                         11,077,997                             0               11,077,997   SP, LAC, MAC
   C. Excess, Obsolete,
      and Unserviceable                        1,904,436                    (1,904,436)                      0        NRV


  D. Total                 $                  48,811,102     $              (1,904,436)   $          46,906,666

 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                     NRV = Net Realizable Value                   MAC = Moving Average Cost
 SP = Standard Price                               LCM = Lower of Cost or Market
 AC = Actual Cost                                  O = Other


Stockpile Materials, Net
Not Applicable




                                                                                                                                   57
General Fund
Notes to the Principal Statements




     Note 10.           General PP&E, Net

     As of September 30                                                              2009
                                 Depreciation/                                                  (Accumulated
                                                   Service        Acquisition                                              Net Book
                                 Amortization                                                   Depreciation/
                                                    Life            Value                                                   Value
                                   Method                                                       Amortization)
     (Amounts in thousands)

     1. Major Asset Classes
        A. Land                      N/A             N/A      $                  401,899                        N/A    $                401,899
        B. Buildings,
           Structures, and
           Facilities                 S/L         20 Or 40                  54,172,092      $           (29,440,064)                  24,732,028
        C. Leasehold
           Improvements               S/L        lease term                            0                          0                           0
        D. Software                   S/L         2-5 Or 10                      543,013                  (308,150)                     234,863
        E. General
           Equipment                  S/L          5 or 10                  41,527,663                 (32,013,234)                 9,514,429
        F. Military Equipment         S/L          Various                 300,284,138                (189,897,273)               110,386,865
        G. Shipbuilding
           (Construction-in-
           Progress)                 N/A             N/A                               0                          0                           0
        H. Assets Under
           Capital Lease              S/L        lease term                      393,002                  (322,098)                      70,904
        I. Construction-in-
           Progress
           (Excludes Military
           Equipment)                N/A             N/A                        4,418,249                       N/A                    4,418,249
        J. Other                                                                        0                         0                            0
        K. Total General
           PP&E                                               $            401,740,056      $         (251,980,819)    $          149,759,237


     As of September 30                                                         2008 Restated
                                 Depreciation/                                                  (Accumulated
                                                   Service        Acquisition                                              Net Book
                                 Amortization                                                   Depreciation/
                                                    Life            Value                                                   Value
                                   Method                                                       Amortization)
     (Amounts in thousands)

     1. Major Asset Classes
        A. Land                      N/A             N/A      $                 443,879                         N/A    $               443,879
        B. Buildings,
           Structures, and
           Facilities                 S/L         20 Or 40                 49,696,527       $          (28,272,596)               21,423,931
        C. Leasehold
           Improvements               S/L        lease term                           0                           0                          0
        D. Software                   S/L         2-5 Or 10                     517,377                   (163,801)                    353,576
        E. General
           Equipment                  S/L          5 or 10                 36,802,784                 (28,890,932)                 7,911,852
        F. Military Equipment         S/L          Various                296,655,662                (190,735,309)               105,920,353
        G. Shipbuilding
           (Construction-in-
           Progress)                 N/A             N/A                              0                           0                           0
        H. Assets Under
           Capital Lease              S/L        lease term                     393,002                   (303,111)                      89,891
        I. Construction-in-
           Progress (Excludes
           Military Equipment)       N/A             N/A                    4,087,234                           N/A                   4,087,234
        J. Other                                                                    0                             0                           0
        K. Total General
           PP&E                                               $           388,596,465       $        (248,365,749)     $         140,230,716

     1
      Note 15 for additional information on Capital Leases
     Legend for Valuation Methods:
     S/L = Straight Line      N/A = Not Applicable




58
                                                                                                                                        2009
                                                                                                                               General Fund
                                                                                                               Notes to the Principal Statements




                                         Measure    As of September 30,                                                 As of September 30,
Categories                                                                    Additions          Deletions
                                         Quantity         2008                                                                2009
Buildings and Structures                 Each       10,250                    0                  0                      10,250
Archaeological Sites                     Each       1,848                     0                  0                      1,848
Museum Collection Items (Objects, Not               117,134                   5,162              95                     122,201
                                         Each
Including Fine Art)
Museum Collection Items (Objects, Fine              10,599                    154                0                      10,753
                                         Each
Art)

                                                    (Acres in Thousands)
                                                        As of September 30,                                             As of September 30,
Facility Code   Facility Title                                                Additions          Deletions
                                                               2007                                                            2008

9110            Government Owned Land               1,506                     0                  5                       1,501
9111            State Owned Land                    0                         0                  0                         0
9120            Withdrawn Public Land               7,593                     0                  1                       7,592
9130            Licensed and Permitted Land         137                       0                  1                       136
9140            Public Land                         0                         0                  0                         0
9210            Land Easement                       177                       0                  6                       171
9220            In-leased Land                      103                       0                  11                       92
9230            Foreign Land                        309                       0                  18                      291
                                                                                                          Grand Total    9,783

                                                                                              TOTAL - All Other Lands    2,191

                                                                                          TOTAL – Stewardship Lands      7,592




   Relevant Information for Comprehension

   General Property, Plant and Equipment (PP&E)

   There are restrictions on the Air Force’s ability to dispose of real property (land and buildings) located
   outside the continental United States.

   The Air Force estimates historical values for capitalized military equipment using departmental internal
   records. Beginning fiscal year (FY) 2009, the Air Force began using the Reliability and Maintainability
   Information System (REMIS) as the official system of record for financial accountability of military
   equipment assets which include trainer aircraft. The conversion from Capital Assets Management System
   Military Equipment (CAMS-ME) to REMIS resulted in a prior period adjustment of $8.5 billion,
   representing net book value, to the beginning balance of FY 2008.

   Other Air Force Disclosures

   The value of the Air Force’s General PP&E real property in the possession of contractors is included in the
   values reported for the major asset classes of Land and Buildings, Structures, and Facilities. The value of
   General PP&E personal property major asset class of Software and Equipment does not include all of the
   General PP&E above the DoD capitalization threshold in the possession of contractors. The Air Force does
   not report the value of equipment purchased directly by the contractor. The Inspector General, DoD, and
   the Air Force are developing new policies and a contractor reporting process to capture General PP&E
   information for future reporting purposes in compliance with generally accepted accounting principles.




                                                                                                                                              59
General Fund
Notes to the Principal Statements




  Heritage Assets and Stewardship Land

  The overall mission of Air Force is to fly, fight and win in air, space and cyberspace, influence events, and
  advance U.S. interests across the full spectrum of military operations. As this mission has been executed,
  Air Force has become a large-scale owner of historic buildings, structures, archaeological sites and artifacts,
  aircraft, other cultural resources, and stewardship land. The protection of the nation’s heritage assets and
  stewardship land is an important aspect of the Air Force’s mission.

  Heritage Assets are PP&E of historical, natural, cultural, educational or artistic significance (e.g. aesthetic);
  or with significant architectural characteristics. Heritage Assets and Stewardship Land are resources that
  protect, restore, enhance, modernize, preserve and sustain mission capability within the Air Force through
  effective planning and management of natural and cultural resources to guarantee access to air, land, and
  water. These assets are resources that are managed to provide multiple use activities for the public benefit.
  This includes actions to comply with requirements such as federal laws, Executive Orders, policies, final
  governing standards, and other binding agreements. Air Force policy is to promote and preserve indefinitely
  the identifiable human, environmental or civic value of these assets.

  Stewardship Land comprises land and land rights other than that acquired for or in connection with General
  PP&E, land acquired via the public domain, or land acquired at no cost. The Air Force Stewardship Land
  consists mainly of mission essential land acquired by donation or devise. Fiscal Year ended
  September 30, 2009 stewardship land data is not yet available due to limitations of the Air Force financial
  and nonfinancial management processes and systems that feed into financial statements. The Air Force
  reported 7,592,100 acres of mission essential land under their administration at the end of FY 2008.
  Air Force policy is to promote and preserve indefinitely the identifiable human, environmental or civic
  value of such land.

  Heritage Assets within the Air Force consist of buildings and structures, archaeological sites, museum
  collection items (objects, not including fine arts), and museum collection items (fine art).

  Buildings and Structures: Buildings and Structures that are listed on, or eligible for listing on the National
  Register of Historic Places, including multi-use Heritage Assets. These buildings and structures are
  maintained by each base’s civil engineering group as part of their overall responsibility. The Air Force
  reported 10,250 buildings and structures on Air Force bases and sites to be heritage assets at the end of
  FY 2008. The timing of this data call is such that Air Force cannot report reconciled FY 2009 buildings and
  structures at the end of FY 2009.

  Archaeological Sites: Sites that have been identified, evaluated, and determined to be eligible for or are
  listed on the National Historical Places in accordance with Section 110 National Historical Preservation Act.
  The Air Force listed 1,848 archeological sites on or eligible for the National Register at the end of FY 2008.
  The timing of this data call is such that Air Force cannot report reconciled FY 2009 archaeological site data
  at the end of FY 2009.

  Museum Collection Items, Objects Not Including Fine Art: The Air Force reported 122,201 museum
  collection items (not including fine art). During FY 2009, 5,162 objects were added to the collections,
  primarily as a result of private donations, transfers from other federal entities, curatorial administrative
  actions, and the documentation of previously unreported artifacts at Air Force Bases worldwide.

  Museum Collection Items, Fine Art: The Air Force has 10,753 fine art museum collections of, which 154
  paintings were received through donations in FY 2009.
60
                                                                                                2009
                                                                                       General Fund
                                                                           Notes to the Principal Statements




Assets Under Capital Lease

As of September 30                                    2009                            2008
(Amounts in thousands)

1. Entity as Lessee, Assets Under Capital Lease
   A. Land and Buildings                          $            393,002 $                           393,002
   B. Equipment                                                      0                                   0
   C. Accumulated Amortization                               (322,098)                           (303,111)

   D. Total Capital Leases                        $            70,904 $                             89,891




                                                                                                         61
General Fund
Notes to the Principal Statements




     Note 11.        Liabilities Not Covered by Budgetary Resources


     As of September 30                                                     2009                              2008
     (Amounts in thousands)

     1. Intragovernmental Liabilities
        A. Accounts Payable                                   $                              0    $                          0
        B. Debt                                                                              0                               0
        C. Other                                                                       337,063                         823,278
        D. Total Intragovernmental Liabilities                $                        337,063    $                    823,278

     2. Nonfederal Liabilities
        A. Accounts Payable                                   $                        357,871    $                    394,075
        B. Military Retirement and
           Other Federal Employment Benefits                                          1,072,388                       1,158,232
        C. Environmental Liabilities                                                  7,955,740                       7,519,475
        D. Other Liabilities                                                          2,624,364                       3,033,988
        E. Total Nonfederal Liabilities                       $                      12,010,363   $                  12,105,770

     3. Total Liabilities Not Covered by Budgetary
        Resources                                             $                      12,347,426   $                  12,929,048


     4. Total Liabilities Covered by Budgetary Resources      $                      11,628,240   $                  10,646,178

     5. Total Liabilities                                     $                      23,975,666   $                  23,575,226



       Information Related to Liabilities Not Covered by Budgetary Resources

       Liabilities Not Covered by Budgetary Resources are liabilities for which Congressional action is needed
       before budgetary resources can be provided.

       The material amounts and sensitive areas included in Total Liabilities Not Covered by Budgetary Resources
       are categorized as not covered because there is no current or immediate appropriation available for
       liquidation. These liabilities will require resources funded from future year appropriations. The Air Force
       fully expects to receive the necessary resources to cover these liabilities in future years.

       Other Intragovernmental Liabilities are primarily comprised of liabilities representing the amount of
       nonentity assets held in a general receipt account or other U.S. Treasury account symbol for transfers to
       other entities, and the amount of the Federal Employees’ Compensation Act (FECA) liability billed to the
       agency by Department of Labor for FECA payments made on the agency’s behalf.

       Other Nonfederal Liabilities are primarily comprised of the amounts recorded for unpaid leave earned to
       which an employee is entitled upon separation and for contingent liabilities which are probable and
       measurable and will require resources funded from future years’ appropriations.

       Military Retirement and Other Federal Employment Benefits consists of various employee actuarial
       liabilities not due and payable during the current fiscal year. These liabilities primarily consist of the



62
                                                                                                                      2009
                                                                                                             General Fund
                                                                                                 Notes to the Principal Statements




amount recorded by employer agencies for the actuarial present value of future FECA benefits provided to
federal employees or their beneficiaries as a result of work related deaths, disability, or occupational
disease. Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for additional
details and disclosures.


 Note 12.        Accounts Payable


 As of September 30                                                    2009

                                                              Interest, Penalties, and
                                Accounts Payable                                                         Total
                                                                Administrative Fees

 (Amounts in thousands)

 1. Intragovernmental
      Payables             $                  2,583,818   $              N/A                 $                   2,583,818
 2. Nonfederal Payables
      (to the Public)                         3,278,316                                  0                       3,278,316

 3. Total                  $                  5,862,134   $                              0   $                   5,862,134


 As of September 30                                                    2008

                                                              Interest, Penalties, and
                                Accounts Payable                                                         Total
                                                                Administrative Fees

 (Amounts in thousands)

 1. Intragovernmental
      Payables             $                  2,002,120   $              N/A                 $                   2,002,120
 2. Nonfederal Payables
      (to the Public)                         3,810,464                             471                          3,810,935

 3. Total                  $                  5,812,584   $                         471      $                   5,813,055

   Relevant Information for Comprehension

   Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received
   by Air Force. The Air Force’s systems do not track intragovernmental transactions by customer at the
   transaction level. Buyer-side accounts payable are adjusted to agree with internal seller-side accounts
   receivable. Accounts Payable was adjusted by accruing additional accounts payable and expenses.

Note 13. Debt
Not Applicable




                                                                                                                               63
General Fund
Notes to the Principal Statements




     Note 14.                 Environmental Liabilities and Disposal Liabilities

     As of September 30
                                                                 2009                             2008
     (Amounts in thousands)

     1. Environmental Liabilities--Nonfederal
      A. Accrued Environmental Restoration Liabilities
       1. Active Installations—Installation Restoration
          Program (IRP) and Building Demolition and Debris
          Removal (BD/DR)                                    $              3,350,133   $                   3,625,577
       2. Active Installations—Military Munitions Response
          Program (MMRP)                                                    1,674,291                       1,392,442
       3. Formerly Used Defense Sites—IRP and BD/DR                                 0                               0
       4. Formerly Used Defense Sites--MMRP                                         0                               0

     B. Other Accrued Environmental Liabilities—Non-BRAC
      1. Environmental Corrective Action                                      189,250                         179,748
      2. Environmental Closure Requirements                                 1,252,339                       1,129,889
      3. Environmental Response at Operational Ranges                               0                               0
      4. Asbestos                                                             888,960                         428,602
      5. Non-Military Equipment                                                34,175                          28,716
      6. Other                                                                      0                               0

     C. Base Realignment and Closure Installations
      1. Installation Restoration Program                                   1,372,805                       1,402,008
      2. Military Munitions Response Program                                    4,230                           2,398
      3. Environmental Corrective Action / Closure
         Requirements                                                         14,609                          37,920
      4. Asbestos                                                                  0                               0
      5. Non-Military Equipment                                                    0                               0
      6. Other                                                                     0                               0

     D. Environmental Disposal for Military Equipment /
        Weapons Programs
      1. Nuclear Powered Military Equipment / Spent
         Nuclear Fuel                                                              0                               0
      2. Non-Nuclear Powered Military Equipment                               36,402                          39,075
      3. Other National Defense Weapons Systems                                    0                               0
      4. Other                                                                     0                               0

     E. Chemical Weapons Disposal Program
      1. Chemical Demilitarization - Chemical Materials
         Agency (CMA)                                                              0                               0
      2. Chemical Demilitarization - Assembled Chemical
         Weapons Alternatives (ACWA)                                               0                               0
      3. Other                                                                     0                               0

     2. Total Environmental Liabilities                      $              8,817,194   $                   8,266,375



        Other Information Related to Environmental Liabilities

        An environmental liability is a probable and measurable future outflow or expenditure of resources that
        exist as of the financial reporting date for environmental cleanup costs resulting from past transactions or
        events. The Air Force acknowledges that liabilities can change for environmental cleanup costs to include
        (1) costs associated with environmental restoration of sites funded under the Air Force portion of the
        Defense Environmental Restorations Program (DERP), (2) corrective actions funded with other than DERP,
        Base Realignment and Closure (BRAC), and (3) environmental costs associated with future closure or
        disposal of facilities, equipment, asbestos, and weapon systems. These costs include researching and
        determining the existence of hazardous waste, removing, containing, and/or disposing of hazardous waste


64
                                                                                                                    2009
                                                                                                          General Fund
                                                                                              Notes to the Principal Statements




from property, or material and/or property that consist of hazardous waste at the time of shutdown or
disposal of the asset. Cleanup costs may include, but are not limited to, decontamination, decommissioning,
site restoration, site monitoring, closure, and post closure costs related to Air Force operations that result in
hazardous waste.

The unrecognized portion of the estimated total cleanup costs associated with general, property, plant, and
equipment is $373.0 million.

Applicable Laws and Regulations for Cleanup Requirements

The Air Force is required to clean up contamination resulting from past waste disposal practices, leaks,
spills and other past activity, which has created a public human health or environmental risk. Air Force
does this in coordination with regulatory agencies, and if applicable, with other responsible parties. The
Air Force is also required to recognize closure, post closure and disposal costs for its Property, Plant and
Equipment (PP&E) and environmental corrective action costs for current operations. The Air Force is
responsible for tracking and reporting all required environmental information related to environmental
restoration and corrective action, closure and disposal costs of PP&E, and environmental costs related to
BRAC actions that have taken place in prior years. Applicable laws and regulations for cleanup
requirements:

   (a)   Comprehensive Environmental Response, Compensation, and Liability Act
   (b)   Superfund Amendments and Reauthorization Act
   (c)   Clean Water Act
   (d)   Safe Drinking Water Act
   (e)   Clean Air Act
   (f)   Resource Conservation and Recovery Act (RCRA)
   (g)   Toxic Substances Control Act
   (h)   Medical Waste Tracking Act
   (i)   Atomic Energy Act
   (j)   Nuclear Waste Policy Act
   (k)   Low Level Radioactive Waste Policy Amendment Act

Types of Environmental Liabilities Identified

The Air Force has environmental liabilities for cleanup requirements for active installations: Installation
Restoration Program, Building Demolition and Debris Removal, Military Munitions Response Program, and
Environmental Corrective Action. The Air Force also has environmental liabilities for cleanup requirements
at BRAC installations. Finally, the Air Force has identified environmental liabilities for closure and
disposal of PP&E to include facilities, general equipment, asbestos, and weapon systems. All clean-up is
done in coordination with regulatory agencies, other responsible parties, and current property owners.

Methods for Assigning Estimated Total Cleanup Costs to Current Operating Periods

The Air Force uses engineering estimates and independently validated models to estimate environmental
cleanup costs. The models are either developed within the Remedial Action Cost Engineering
Requirements application, or a historic comparable project, a specific bid, or an independent government
cost estimate is referenced for the current project. The Air Force validates the models in accordance with
DoD Instruction 5000.61 and primarily uses the models to estimate environmental cleanup costs based on
data received during a preliminary assessment and initial site investigation. The Air Force primarily uses
                                                                                                                            65
General Fund
Notes to the Principal Statements




  engineering estimates after obtaining data during the remedial investigation/feasibility phase of the
  environmental project.

  Once the environmental cleanup cost estimates are complete, Air Force will comply with accounting
  standards to assign costs to current operating periods. The Air Force Accrued Environmental Restoration
  Liabilities is accounted for as a totally self contained program. All direct and indirect costs of the program
  are captured and reported. The Air Force has already expensed the costs for cleanup associated with
  General PP&E placed into service prior to October 1, 1997, unless the costs are intended to be recovered
  through user charges. If the costs are recovered through user charges, then the Air Force expenses the
  associated environmental cost systematically over the life of the assets.

  The accounting standards also require environmental liabilities recognized for closure and disposal
  requirements. Air Force has closure requirements or disposal liabilities at active installations. Closure and
  disposal liabilities for facilities (including landfills), asbestos, general equipment and weapon systems are
  estimated for the applicable inventory of real property, general equipment and weapon systems. Air Force
  uses a set of historical disposal factors to estimate the environmental disposal liability for each asset and the
  estimated closure and monitoring cost for landfills. The current liability for these classes of assets is
  determined from the related disposal programs including the resources expected to be expended in the next
  year from prior and future budgets.

  For General PP&E placed into service after September 30, 1997, the Air Force expenses the associated
  environmental costs systematically over the life of the asset. The Air Force expenses the full cost to clean
  up contamination for Stewardship PP&E at the time the asset is placed into service.

  The Air Force uses two methods for systematic recognition: physical capacity for operating landfills, and
  life expectancy in years for all other assets.

  Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due to Inflation,
  Deflation, Technology, or Applicable Laws and Regulations

  The Air Force is not aware of any pending changes to reported values of Environmental Liabilities but
  recognizes that changes may occur in the future due to changes in laws, regulations, changes in agreements
  with regulatory agencies, and advances in technology.

  Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported Environmental
  Liabilities

  Environmental liabilities for the Air Force are based on accounting estimates which require certain
  judgments and assumptions to be made by management. The Air Force believes the estimates are
  reasonable based upon the information available at the time of calculation. Actual results may vary
  materially from the accounting estimates if agreements with regulatory agencies require remediation to a
  different degree than anticipated when the estimate was calculated. The liabilities can be further impacted if
  further investigation discovers contamination different from that which was known at the time of the
  estimate. Air Force financial statements would be affected to the extent there are material differences
  between these estimates and actual costs. There are areas in which management judgment in selecting any
  available alternative could produce a materially different result.

66
                                                                                                            2009
                                                                                                   General Fund
                                                                                       Notes to the Principal Statements




In addition to the liabilities reported above, the Air Force has the potential to incur costs for restoration
initiatives in conjunction with returning overseas Defense facilities to host nations. The Air Force is unable
to provide a reasonable estimate at this time because the extent of restoration required is not known.




                                                                                                                     67
General Fund
Notes to the Principal Statements




     Note 15.         Other Liabilities

     As of September 30                                                    2009
                                           Current                     Noncurrent
                                                                                                  Total
                                           Liability                    Liability
     (Amounts in thousands)

     1. Intragovernmental
        A. Advances from Others        $                840,562    $                     0    $            840,562
        B. Deposit Funds and
           Suspense Account
           Liabilities                                  334,937                          0                 334,937
        C. Disbursing Officer Cash                      287,368                          0                 287,368
        D. Judgment Fund Liabilities                          0                          0                       0
        E. FECA Reimbursement to
           the Department of Labor                      130,959                     171,766                302,725
        F. Custodial Liabilities                              0                     140,886                140,886
       G. Employer Contribution and
            Payroll Taxes Payable                        74,790                          0                  74,790
       H. Other Liabilities                              34,810                          0                  34,810

        I. Total Intragovernmental
           Other Liabilities           $               1,703,426   $                312,652   $           2,016,078

     2. Nonfederal
        A. Accrued Funded Payroll
            and Benefits               $               2,326,474   $                     0    $           2,326,474
        B. Advances from Others                           33,655                         0                   33,655
        C. Deferred Credits                                    0                         0                        0
        D. Deposit Funds and
            Suspense Accounts                           125,295                          0                 125,295
        E. Temporary Early
            Retirement Authority                              0                          0                       0
        F. Nonenvironmental
            Disposal Liabilities
             (1) Military Equipment
             (Nonnuclear)                                     0                          0                       0
             (2) Excess/Obsolete
             Structures                                       0                          0                       0
             (3) Conventional
             Munitions Disposal                               0                          0                       0
        G. Accrued Unfunded Annual
            Leave                                      2,459,699                         0                2,459,699
        H. Capital Lease Liability                        7,358                      93,006                100,364
         I. Contract Holdbacks                          111,281                           0                111,281
        J. Employer Contribution and
            Payroll Taxes Payable                       236,706                           0                236,706
        K. Contingent Liabilities                       577,272                     152,889                730,161
        L. Other Liabilities                             78,059                           0                 78,059

        M. Total Nonfederal Other
           Liabilities                 $               5,955,799   $                245,895   $           6,201,694


     3. Total Other Liabilities        $               7,659,225   $                558,547   $           8,217,772




68
                                                                                                                  2009
                                                                                                          General Fund
                                                                                             Notes to the Principal Statements




As of September 30                                                    2008
                                      Current                     Noncurrent
                                                                                                  Total
                                      Liability                    Liability
(Amounts in thousands)

1. Intragovernmental
   A. Advances from Others        $                694,789    $                     0    $                   694,789
   B. Deposit Funds and
      Suspense Account
      Liabilities                                  371,200                          0                        371,200
   C. Disbursing Officer Cash                      297,209                          0                        297,209
   D. Judgment Fund Liabilities                          0                          0                              0
   E. FECA Reimbursement to
      the Department of Labor                      130,059                     171,153                       301,212
   F. Custodial Liabilities                              0                     194,800                       194,800
  G. Employer Contribution and
       Payroll Taxes Payable                        63,176                          0                         63,176
  H. Other Liabilities                              30,399                          0                         30,399

   I. Total Intragovernmental
      Other Liabilities           $               1,586,832   $                365,953   $                 1,952,785

2. Nonfederal
   A. Accrued Funded Payroll
       and Benefits               $               2,032,464   $                     0    $                 2,032,464
   B. Advances from Others                          136,825                         0                        136,825
   C. Deferred Credits                                    0                         0                              0
   D. Deposit Funds and
       Suspense Accounts                           101,064                          0                        101,064
   E. Temporary Early
       Retirement Authority                              0                          0                              0
   F. Nonenvironmental
       Disposal Liabilities
        (1) Military Equipment
        (Nonnuclear)                                     0                          0                              0
        (2) Excess/Obsolete
        Structures                                       0                          0                              0
        (3) Conventional
        Munitions Disposal                               0                          0                              0
   G. Accrued Unfunded Annual
       Leave                                      2,272,149                         0                      2,272,149
   H. Capital Lease Liability                            0                     130,091                       130,091
    I. Contract Holdbacks                          131,506                          0                        131,506
   J. Employer Contribution and
       Payroll Taxes Payable                       297,742                           0                       297,742
   K. Contingent Liabilities                       533,208                     744,245                     1,277,453
   L. Other Liabilities                                303                           0                           303

   M. Total Nonfederal Other
      Liabilities                 $               5,505,261   $                874,336   $                 6,379,597


3. Total Other Liabilities        $               7,092,093   $              1,240,289   $                 8,332,382




                                                                                                                           69
General Fund
Notes to the Principal Statements




      Relevant Information for Comprehension

      Intragovernmental Other Liabilities represent government contributions for employee benefits and
      unemployment compensation.

      Nonfederal Other Liabilities reflects accrued interest liability for Air Force contract payments.

      Contingent Liabilities includes $577.3 million related to contracts authorizing progress payments based on
      cost as defined in the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific
      rights to the contractors’ work vests with the Federal Government when a specific type of contract financing
      payment is made. This action protects taxpayer funds in the event of contract nonperformance. These rights
      should not be misconstrued as rights of ownership. The Air Force is under no obligation to pay contractors
      for amounts greater than the amounts authorized in contracts until delivery and government acceptance. Due
      to the probability the contractors will complete their efforts and deliver satisfactory products, and because the
      amount of potential future payments are estimable, the Air Force has recognized a contingent liability for
      estimated future payments which are conditional pending delivery and government acceptance.

     Total contingent liabilities for progress payments based on cost represent the difference between the
     estimated costs incurred to date by contractors and amounts authorized to be paid under progress payments
     based on cost provisions within the FAR. Estimated contractor-incurred costs are calculated by dividing the
     cumulative unliquidated progress payments based on cost by the contract-authorized progress payment rate.
     The balance of unliquidated progress payments based on cost is deducted from the estimated total
     contractor-incurred costs to determine the contingency amount.

      Estimation Methodology

      The Air Force General Counsel, through legal determination, assesses and categorizes all contingent legal
      liability cases that equal or exceed the materiality threshold set by Department of Defense Inspector General
      (DoDIG). For the remaining cases falling below the dollar materiality threshold set by DoDIG, they are
      considered in aggregate, if the total amount of the cases equal or exceed the established materiality threshold.

      The Air Force General Counsel also solicits case data through quarterly data calls from the Air Force JAC
      (Judge Advocate Civil Lawsuits and Litigation Directorate). Air Force financial management personnel use
      the solicited case data, which includes the current reporting year and each of the prior two years, to estimate
      the amounts of probable and reasonably possible contingent liabilities. See Note 16 for detailed disclosure of
      contingent liabilities.

      Air Force financial management personnel use a three year prior case analysis spreadsheet which was
      developed by the Air Force Audit Agency to calculate and estimate the amount of contingent
      liabilities (probable and reasonably possible) for reporting or disclosing in the quarterly financial
      statements. In cases where Air Force General Counsel discloses that a judgment has been awarded
      against the Air Force, these amounts will be reported on the Balance Sheet and within this note.




70
                                                                                                                   2009
                                                                                                          General Fund
                                                                                              Notes to the Principal Statements




Capital Lease Liability

As of September 30                                                       2009
                                                                     Asset Category
                                Land and
                                                         Equipment                    Other                    Total
                                Buildings
 (Amounts in thousands)
1. Future Payments Due
  A. 2010                                   38,478                       0                        0                     38,478
  B. 2011                                   36,786                       0                        0                     36,786
  C. 2012                                   13,088                       0                        0                     13,088
  D. 2013                                    9,462                       0                        0                      9,462
  E. 2014                                    8,688                       0                        0                      8,688
  F. After 5 Years                           8,688                       0                        0                      8,688

 G. Total Future Lease
    Payments Due          $             115,190      $                   0   $                    0   $                115,190
 H. Less: Imputed
    Interest Executory
    Costs                                   14,825                       0                        0                     14,825

 I. Net Capital Lease
    Liability             $             100,365      $                   0   $                    0   $                100,365

2. Capital Lease Liabilities Covered by Budgetary Resources                                           $                 88,894

3. Capital Lease Liabilities Not Covered by Budgetary Resources                                       $                 11,471


As of September 30                                                       2008
                                                                     Asset Category
                                Land and
                                                         Equipment                    Other                    Total
                                Buildings
 (Amounts in thousands)
1. Future Payments Due
  A. 2009                                   38,478                       0                        0                     38,478
  B. 2010                                   38,478                       0                        0                     38,478
  C. 2011                                   36,786                       0                        0                     36,786
  D. 2012                                   13,088                       0                        0                     13,088
  E. 2013                                    9,462                       0                        0                      9,462
  F. After 5 Years                          17,376                       0                        0                     17,376

 G. Total Future Lease
    Payments Due          $             153,668      $                   0   $                    0   $                153,668
 H. Less: Imputed
    Interest Executory
    Costs                                   23,577                       0                        0                     23,577

 I. Net Capital Lease
    Liability             $             130,091      $                   0   $                    0   $                130,091

2. Capital Lease Liabilities Covered by Budgetary Resources                                           $                112,802

3. Capital Lease Liabilities Not Covered by Budgetary Resources                                       $                 17,289




                                                                                                                            71
General Fund
Notes to the Principal Statements




     Note 16.       Commitments and Contingencies



       The Air Force is a party in various administrative proceedings and legal actions related to claims for
       environmental damage, equal opportunity matters, and contractual bid protests.

       The Air Force has accrued contingent liabilities for legal actions where the Secretary of the Air Force
       General Counsel (SAF/GC) considers an adverse decision probable and the amount of loss measurable. In
       the event of an adverse judgment against the Government, some of the liabilities may be payable from the
       U.S. Treasury Judgment Fund. The Air Force records Judgment Fund liabilities in Note 12, Accounts
       Payable; and Note 15, Other Liabilities.

       Claims and litigation from Civil Law having a reasonably possible liability are estimated at $3.1 billion.
       Neither past payments nor the current contingent liability estimate provides a basis for accurately projecting
       the results of any individual lawsuit or claim. Since monetary judgments paid to civil litigants come from a
       judgment fund administrated by U.S. Treasury, it is uncertain that claims will become a liability to the
       Air Force.

       The amounts disclosed for litigation claims and assessments are fully supportable and must agree with
       Air Force’s legal representation letters and management summary schedule.

       The amount of undelivered orders for open contracts citing cancelled appropriations which remain unfilled
       or unreconciled for which the Air Force may incur a contractual commitment for payment is $525.4 million.

       The Air Force is a party in numerous individual contracts that contain clauses, such as price escalation,
       award fee payments, or dispute resolution, that may or may not result in a future outflow of expenditures.
       Currently, Air Force does not have a systemic process by which it captures or assesses these potential
       contingent liabilities; therefore, the amounts reported may not fairly present the Air Force’s contingent
       liabilities.

       The estimated probable liability amount of $730.2 million was recognized in Note 15 as contingent
       liabilities.

       The recognized contingent liability includes $577.3 million in estimated future contract financing payments
       that will be paid to contractors upon delivery and government acceptance. See Note 15 for additional
       details.

       In addition, Air Force recognized the total estimated probable liability for claims and litigation against the
       Air Force handled by the Civil Law and Litigation Directorate, as of September 30, 2009, valued at
       $152.9 million, and included in Contingent Liabilities nonfederal. As of September 30, 2009, the Air Force
       was party to 11,978 claims and litigation actions. This liability dollar amount recorded in the financial
       statements is an estimate based on the weighted average payout rate for the previous three years. There are
       only two types of cases where U.S. Treasury will seek reimbursements from the affected agency, the
       Contract Dispute Act cases and select Federal Government personnel disciplinary matters.




72
                                                                                                                                              2009
                                                                                                                                  General Fund
                                                                                                                     Notes to the Principal Statements




The SAF/GC developed the estimating methodology for the contingent liabilities recognized in Note 15.

In cases where SAF/GC disclosed that a judgment has been awarded against the Air Force, these amounts
were reported on the Balance Sheet and within Note 15.


Note 17.               Military Retirement and Other Federal Employment Benefits


 As of September 30                                                                   2009
                                                            Assumed
                                                                            (Less: Assets Available to Pay
                                      Liabilities            Interest                                                  Unfunded Liabilities
                                                                                      Benefits)
                                                            Rate (%)
 (Amounts in thousands)

 1. Pension and Health
    Actuarial Benefits
   A. Military Retirement
      Pensions                $                        0                $                                    0   $                             0
   B. Military Retirement
      Health Benefits                                  0                                                     0                                 0
   C. Military Medicare-
      Eligible Retiree
      Benefits                                         0                                                     0                                 0
   D. Total Pension and
      Health Actuarial
      Benefits                $                        0                $                                    0   $                             0

 2. Other Actuarial
    Benefits
   A. FECA                    $                1,072,389                $                                    0   $                      1,072,389
   B. Voluntary Separation
      Incentive Programs                               0                                                     0                                 0
   C. DoD Education
      Benefits Fund                                    0                                                     0                                 0
   D. Total Other Actuarial
      Benefits                $                1,072,389                $                                    0   $                      1,072,389

 3. Other Federal
    Employment Benefits       $                     6,177               $                           (6,177)      $                             0

 4. Total Military
    Retirement and Other
    Federal Employment
    Benefits:                 $                1,078,566                $                           (6,177)      $                      1,072,389

    Actuarial Cost Method Used:
    Assumptions:
    Market Value of Investments in Market-based and Marketable Securities:




                                                                                                                                                    73
General Fund
Notes to the Principal Statements




     As of September 30                                                                   2008
                                                                Assumed
                                                                                (Less: Assets Available to Pay
                                          Liabilities            Interest                                                Unfunded Liabilities
                                                                                          Benefits)
                                                                Rate (%)
     (Amounts in thousands)

     1. Pension and Health
        Actuarial Benefits
       A. Military Retirement
          Pensions                $                        0                $                                    0   $                           0
       B. Military Retirement
          Health Benefits                                  0                                                     0                               0
       C. Military Medicare-
          Eligible Retiree
          Benefits                                         0                                                     0                               0
       D. Total Pension and
          Health Actuarial
          Benefits                $                        0                $                                    0   $                           0

     2. Other Actuarial
        Benefits
       A. FECA                    $                1,158,232                $                                    0   $                    1,158,232
       B. Voluntary Separation
          Incentive Programs                               0                                                     0                               0
       C. DoD Education
          Benefits Fund                                    0                                                     0                               0
       D. Total Other Actuarial
          Benefits                $                1,158,232                $                                    0   $                    1,158,232

     3. Other Federal
        Employment Benefits       $                     5,182               $                           (5,182)      $                           0

     4. Total Military
        Retirement and Other
        Federal Employment
        Benefits:                 $                1,163,414                $                           (5,182)      $                    1,158,232

        Actuarial Cost Method Used:
        Assumptions:
        Market Value of Investments in Market-based and Marketable Securities:



            Relevant Information for Comprehension

            Programs for which actuarial benefits are computed include the Federal Employees’ Compensation Act
            (FECA), the expected liability for death, disability, medical, and miscellaneous costs for approved
            compensation cases, and a component for incurred unreported claims.

            FECA liability is determined using a method that utilizes historical benefit payment patterns to predict
            the ultimate payments. The projected annual benefit payments are then discounted to present value using
            the Office of Management and Budget’s economic assumptions for 10-year U.S. Treasury notes and
            bonds.




74
                                                                                                             2009
                                                                                                    General Fund
                                                                                        Notes to the Principal Statements




Interest rate assumptions utilized for discounting were as follows:

                                          Discount Rates

                                          4.223% in Year 1
                                          4.715% in Year 2
                                          and thereafter

To adjust more specifically for the effects of inflation on the liability for future workers’ compensation
benefits, wage inflation factors (Cost of Living Adjustments (COLAs)) and medical inflation factors
(Consumer Price Index Medical (CPIMs)) were applied to the calculation of projected future benefits.
The actual rates for these factors for the charge back year (CBY) 2009 were also used to adjust the
methodology’s historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                                   CBY                 COLA           CPIM

                                   2009               N/A             N/A
                                   2010               0.47%           3.42%
                                   2011               1.40%           3.29%
                                   2012               1.50%           3.48%
                                   2013               1.80%           3.71%
                                   2014 +             2.00%           3.71%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. Analysis was
based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of
the percentage change in the liability amount by agency to the percentage change in the actual
incremental payments, (3) a comparison of the incremental paid losses per case (a measure of case-
severity) in CBY 2009 to the average pattern observed during the most current three charge back years,
and (4) a comparison of the estimated liability per case in FY 2009 projection to the average pattern for
the projections of the most recent three years.

The Air Force’s actuarial liability for workers’ compensation benefits is developed and provided by
Department of Labor at the end of each fiscal year. There is no change on a quarterly basis.

Other Federal Employment Benefits is comprised of additional post employment benefits due and
payable to military personnel.




                                                                                                                      75
General Fund
Notes to the Principal Statements




     Note 18.             General Disclosures Related to the Statement of Net Cost


     Intragovernmental Costs and Exchange Revenue

     As of September 30                                                2009                          2008 Restated

     (Amounts in thousands)


     1. Intragovernmental Costs                          $                       33,832,898   $                   33,664,673
     2. Public Costs                                                            110,093,815                      114,470,903
     3. Total Costs                                      $                      143,926,713   $                  148,135,576



     4. Intragovernmental Earned Revenue                 $                      (4,138,542)   $                   (4,937,405)
     5. Public Earned Revenue                                                   (2,002,892)                         (938,303)
     6. Total Earned Revenue                             $                      (6,141,434)   $                   (5,875,708)


     7. Net Cost of Operations                           $                      137,785,279   $                  142,259,868


       Relevant Information for Comprehension

       Intragovernmental costs and revenue are related to transactions made between two reporting entities within
       the Federal Government.

       The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal
       Government supported by appropriations or other means. The intent of SNC is to provide gross and net cost
       information related to the amount of output or outcome for a given program or organization administered by
       a responsible reporting entity. The DoD’s current processes and systems do not capture and report
       accumulated costs for major programs based upon the performance measures as required by the Government
       Performance and Results Act. The DoD is in the process of reviewing available data and developing a cost
       reporting methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS)
       No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” as amended by
       SFFAS No. 30, “Inter-entity Cost Implementation.”

       Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal
       entity.

       The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level.
       Buyer-side expenses are adjusted to agree with internal seller-side revenue. Expenses are generally adjusted
       by accruing additional accounts payable and expenses.

       The Air Force does not meet accounting standards because information presented is based on budgetary
       obligations, disbursements, and collection transactions, as well as nonfinancial feeder systems, adjusted to
       record known accruals for major items such as payroll expenses, accounts payable, and environmental
       liabilities.



76
                                                                                                                 2009
                                                                                                       General Fund
                                                                                           Notes to the Principal Statements




The Air Force’s accounting systems generally do not capture information relative to heritage assets
separately and distinctly from normal operations.

Beginning FY 2009, the Air Force began using the Reliability and Maintainability Information System
(REMIS) as the official system of record for financial accountability of military equipment assets. The
conversion from Capital Asset Management System Military Equipment (CAMS-ME) to REMIS resulted in
a prior period adjustment $8.5 billion, of which $45.8 million was for additional depreciation unrecognized
in FY 2008. See Note 26 for additional information.


Note 19.       Disclosures Related to the Statement of Changes in Net Position

Relevant Information for Comprehension

The Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree
with Appropriations Received on the Statement of Budgetary Resources (SBR) in the amount of
$8.2 million. The difference is due to additional resources included in the Appropriations Received on
the SBR. Refer to note 20 for additional details.

The eliminations column on SCNP will reflect zero dollars. In the SCNP, all offsetting balances
(i.e. transfers-in and transfers-out, revenues, and expenses) for intradepartmental activity between earmarked
and other (nonearmarked) funds are reported on the same lines. This results in an eliminations column,
which appears to contain no balances. In reality, the column contains all appropriate elimination entries, but
all net to zero within each respective line, except for intraentity imputed financing costs.

Beginning FY 2009, the Air Force began using the Reliability and Maintainability Information System
(REMIS) as the official system of record for financial accountability of military equipment assets. The
conversion from Capital Asset Management System Military Equipment (CAMS-ME) to REMIS resulted in
a prior period adjustment of $8.5 billion, representing net book value, to the beginning balance of FY 2008
cumulative results of operations. See Note 26 for additional information.




                                                                                                                         77
General Fund
Notes to the Principal Statements




     Note 20.        Disclosures Related to the Statement of Budgetary Resources


     As of September 30                                                     2009                          2008
     (Amounts in thousands)

     1. Net Amount of Budgetary Resources Obligated for
        Undelivered Orders at the End of the Period                $               79,201,453   $                70,594,923

     2. Available Borrowing and Contract Authority at the End of
        the Period                                                                         0                             0

       Apportionment Categories

       Funds are apportioned by three categories: (1) Category A is apportioned quarterly, (2) Category B
       is apportioned by activity or project, and (3) Exempt are funds not subject to apportionment. The
       amounts of direct and reimbursable obligations incurred are stated in the table.

                                    Category A              Category B         Exempt
             Direct                 $89.3 billion           $72.9 billion      $6.7 million
             Reimbursable            $6.1 billion            $4.0 billion      $0.6 million

       Intraentity Transactions

       The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements
       are presented as combined.

       Permanent Indefinite Appropriations

       Permanent indefinite appropriations are as follows (see Note 23 for additional information):

         x    Department of the Air Force General Gift Fund [10 USC 2601(b)]

         x    Wildlife Conservation Fund [16 USC 670(a)]

         x    Air Force Cadet Fund [37 USC 725(s)]

       Legal limitations and time restrictions on the use of unobligated appropriation balances such as
       upward adjustments are provided under Public Law.

       Appropriations Received

       The Appropriations Received line item on the Statement of Changes in Net Position differs from that
       reported on SBR because Appropriations Received on the Statement of Changes in Net Position do
       not include dedicated appropriations and earmarked receipts. Dedicated appropriations and
       earmarked receipts are accounted for as either nonexchange revenue or donations and forfeitures of
       cash and cash equivalents. This resulted in an $8.2 million difference.


78
                                                                                                               2009
                                                                                                      General Fund
                                                                                          Notes to the Principal Statements




Note 21. Reconciliation of Net Cost of Operations to Budget



As of September 30                                               2009                     2008 Restated
(Amounts in thousands)

Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                      $      172,379,940       $              165,397,504
2. Less: Spending authority from offsetting                         (13,949,150)                     (14,551,339)
   collections and recoveries (-)
3. Obligations net of offsetting collections                 $      158,430,790       $              150,846,165
    and recoveries
4. Less: Offsetting receipts (-)                                      (104,099)                        (201,497)
5. Net obligations                                           $      158,326,691       $              150,644,668
Other Resources:
6. Donations and forfeitures of property                                          0                             0
7. Transfers in/out without reimbursement (+/-)                           (124,914)                       322,962
8. Imputed financing from costs absorbed by others                          725,513                       628,882
9. Other (+/-)                                                          (2,841,855)                     1,323,184
10. Net other resources used to finance activities           $          (2,241,256)   $                 2,275,028
11. Total resources used to finance activities               $      156,085,435       $              152,919,696
Resources Used to Finance Items not Part of the Net
     Cost of Operations:
12. Change in budgetary resources obligated for
     goods, services and benefits ordered but not yet
     provided:
     12a. Undelivered Orders (-)                             $          (8,606,530)   $               (6,483,468)
     12b. Unfilled Customer Orders                                          228,532                     (161,014)
13. Resources that fund expenses recognized in prior                      (845,421)                      (86,602)
     Periods (-)
14. Budgetary offsetting collections and receipts that                     104,099                        201,497
      do not affect Net Cost of Operations
15. Resources that finance the acquisition of assets (-)            (29,521,992)                     (18,749,096)
16. Other resources or adjustments to net obligated
     resources that do not affect Net Cost of
     Operations:
      16a. Less: Trust or Special Fund Receipts                                  0                              0
            Related to exchange in the Entity’s Budget (-)
      16b. Other (+/-)                                                 2,966,770                      (1,646,144)
17. Total resources used to finance items not part           $      (35,674,542)      $              (26,924,827)
     of the Net Cost of Operations
18. Total resources used to finance the Net Cost             $      120,410,893       $              125,994,869
     of Operations




                                                                                                                        79
General Fund
Notes to the Principal Statements




             As of September 30                                          2009                    2008 Restated
             (Amounts in thousands)


           Components of the Net Cost of Operations that will
           not Require or Generate Resources in the Current
               Period:

           Components Requiring or Generating Resources in
               Future Period:
           19. Increase in annual leave liability                 $               187,550    $                 75,316
           20. Increase in environmental and disposal liability                   550,819                   1,367,508
           21. Upward/Downward reestimates of credit subsidy                            0                           0
               expense (+/-)
           22. Increase in exchange revenue receivable from                             0                           0
               the public (-)
           23. Other (+/-)                                                        137,812                     533,952
           24. Total components of Net Cost of Operations that    $               876,181    $              1,976,776
               will Require or Generate Resources in future
               periods

           Components not Requiring or Generating Resources:
           25. Depreciation and amortization                      $             18,297,128   $             11,597,672
           26. Revaluation of assets or liabilities (+/-)                        1,265,504                  4,323,066
           27. Other (+/-)
               27a. Trust Fund Exchange Revenue                                         0                            0
               27b. Cost of Goods Sold                                                  0                            0
               27c. Operating Material and Supplies Used                       25,371,357                   22,597,444
               27d. Other                                                    (28,435,783)                 (24,229,959)
           28. Total Components of Net Cost of Operations that    $             16,498,206   $             14,288,223
               will not Require or Generate Resources

           29. Total components of Net Cost of Operations         $             17,374,387   $             16,264,999
               that will not Require or Generate Resources in
               the current period

           30. Net Cost of Operations                             $          137,785,280     $            142,259,868



  Relevant Information for Comprehension

  Due to Air Force financial system limitations, budgetary data is not in agreement with proprietary expenses
  and assets capitalized. The difference between budgetary and proprietary data is a previously identified
  deficiency. The amount of the adjustment to the note schedule to bring it into balance with the Statement of
  Net Cost is $508.1 million, in the Other Components Not Requiring or Generating Resources category.

  The following note schedule lines are presented as combined instead of consolidated due to intraagency
  budgetary transactions not being eliminated:

80
                                                                                                           2009
                                                                                                  General Fund
                                                                                      Notes to the Principal Statements




   x   Obligations Incurred
   x   Less: Spending Authority from Offsetting Collections and Recoveries
   x   Obligations Net of Offsetting Collections and Recoveries
   x   Less: Offsetting Receipts
   x   Net Obligations
   x   Undelivered Orders
   x   Unfilled Customer Orders

Other Resources Used to Finance Activities consists of other losses to adjust intragovernmental transfers in.

Other Resources Used to Finance Items Not Part of the Net Cost of Operations is comprised of losses to
adjust intragovernmental transfers in order to reconcile buyer and seller transfers.

Other Components of the Net Cost of Operations that will not Require or Generate Resources in the Current
Period includes adjustments to the contingent legal liability.

Other Components not Requiring or Generating Resources represents net changes in Operating Materiel and
Supplies during the period.

Beginning FY 2009, the Air Force began using the Reliability and Maintainability Information System
(REMIS) as the official system of record for financial accountability of military equipment assets. The
conversion from Capital Asset Management System Military Equipment (CAMS-ME) to REMIS resulted in
a prior period adjustment $8.5 billion, of which $45.8 million was for additional depreciation unrecognized
in FY 2008. See Note 26 for additional information.


Note 22.        Disclosures Related to Incidental Custodial Collections

   The Air Force collected $65.2 million of incidental custodial revenues generated primarily from collection
   of accounts receivable related to cancelled accounts. These funds are not available for use by Air Force.
   At the end of each fiscal year, the accounts are closed and the balances rendered to the U.S. Treasury.




                                                                                                                    81
General Fund
Notes to the Principal Statements




     Note 23.                Earmarked Funds


                                                                                             2009
     BALANCE SHEET
     As of September 30                                         Medicare Eligible
                                     Military Retirement                                  Other Earmarked
                                                               Retiree Health Care                               Eliminations        Total
     (Amounts in thousands)                  Fund                                              Funds
                                                                      Fund

     ASSETS
     Fund balance with
     Treasury                    $                         0$                        0$               9,515 $                   0$            9,515
     Investments                                           0                         0                1,079                     0             1,079
     Accounts and Interest
     Receivable                                            0                         0                      1                   0                1
     Other Assets                                          0                         0                      5                   0                5
     Total Assets                $                         0$                        0$              10,600 $                   0$           10,600


     LIABILITIES and NET
     POSITION
     Military Retirement
     Benefits and Other Federal
     Employment Benefits        $                          0$                        0$                     0$                  0$               0
     Other Liabilities                                     0                         0                  168                     0              168
     Total Liabilities           $                         0$                        0$                 168 $                   0$             168


     Unexpended
     Appropriations                                        0                         0                      0                   0                0
     Cumulative Results of
     Operations                                            0                         0               10,432                     0            10,432

     Total Liabilities and Net
     Position                    $                         0$                        0$              10,600 $                   0$           10,600

     STATEMENT OF NET
     COST
     For the period ended
     September 30
     Program Costs               $                         0$                        0$               3,721 $                   0$            3,721
     Less Earned Revenue                                   0                         0                (630)                     0            ( 630)
     Net Program Costs           $                         0$                        0$               3,091 $                   0$           3,091
     Less Earned Revenues
     Not Attributable to
     Programs                                              0                         0                      0                   0                0

     Net Cost of Operations      $                         0$                        0$               3,091 $                   0$            3,091




82
                                                                                                                                      2009
                                                                                                                               General Fund
                                                                                                                 Notes to the Principal Statements




                                                                                       2009
STATEMENT OF
CHANGES IN NET                                            Medicare Eligible
POSITION                      Military Retirement                                   Other Earmarked
                                                         Retiree Health Care                               Eliminations           Total
 For the period ended                 Fund                                               Funds
                                                                Fund
 September 30
Net Position Beginning of
the Period                $                         0$                         0$                5,355 $                  0$               5,355

Net Cost of Operations                              0                          0                 3,091                    0                3,091
Budgetary Financing
Sources                                             0                          0                 8,168                    0                8,168

Other Financing Sources                             0                          0                      0                   0                   0

Change in Net Position    $                         0$                         0$                5,077 $                  0$               5,077

Net Position End of
Period                    $                         0$                         0$               10,432 $                  0$              10,432




                                                                                                                                               83
General Fund
Notes to the Principal Statements




                                                                               2008

     BALANCE SHEET                                    Medicare Eligible
     As of September 30                                                     Other Earmarked
                            Military Retirement Fund Retiree Health Care                           Eliminations        Total
                                                                                 Funds
     (Amounts in thousands)                                 Fund

     ASSETS
     Fund balance with
     Treasury                    $                 0$                  0$               8,260 $                   0$             8,260
     Investments                                   0                   0                  874                     0                874
     Accounts and Interest
     Receivable                                    0                   0                      1                   0                  1
     Other Assets                                  0                   0                      4                   0                  4
     Total Assets                $                 0$                  0$               9,139 $                   0$             9,139


     LIABILITIES and NET
     POSITION
     Military Retirement
     Benefits and Other
     Federal Employment
     Benefits                    $                 0$                  0$                     0$                  0$                 0
     Other Liabilities                             0                   0                3,784                     0              3,784
     Total Liabilities           $                 0$                  0$               3,784 $                   0$             3,784


     Unexpended
     Appropriations                                0                   0                      0                   0                  0
     Cumulative Results of
     Operations                                    0                   0                5,355                     0              5,355

     Total Liabilities and Net
     Position                    $                 0$                  0$               9,139 $                   0$             9,139

     STATEMENT OF NET
     COST
     For the period ended
     September 30
     Program Costs               $                 0$                  0$              12,867 $                   0$            12,867
     Less Earned Revenue                           0                   0              (10,044)                    0            (10,044)
     Net Program Costs           $                 0$                  0$                2,823 $                  0$              2,823
     Less Earned Revenues
     Not Attributable to
     Programs                                      0                   0                      0                   0                  0

     Net Cost of Operations      $                 0$                  0$               2,823 $                   0$             2,823




84
                                                                                                                                   2009
                                                                                                                          General Fund
                                                                                                              Notes to the Principal Statements




                                                                                   2008
STATEMENT OF
CHANGES IN NET                                          Medicare Eligible
POSITION                     Military Retirement                              Other Earmarked
                                                       Retiree Health Care                           Eliminations             Total
 For the period ended                Fund                                          Funds
                                                              Fund
 September 30
Net Position Beginning
of the Period            $                         0$                    0$                4,549 $                  0$                  4,549

Net Cost of Operations                             0                     0                 2,823                    0                   2,823
Budgetary Financing
Sources                                            0                     0                 3,629                    0                   3,629
Other Financing
Sources                                            0                     0                      0                   0                      0

Change in Net Position $                           0$                    0$                 806 $                   0$                   806

Net Position End of
Period                   $                         0$                    0$                5,355 $                  0$                  5,355


   Earmarked Funds

   Department of the Air Force General Gift Fund [10 USC 2601 (b)]

   The Department of the Air Force General Gift Fund accepts, holds, and administers any gift, device, or
   bequest of real or personal property, made on the condition that it is used for the benefit (or in connection
   with the establishment, maintenance, or operation) of a school, hospital, library, museum, or cemetery under
   the Air Force’s jurisdiction. The fund is available to such institutions or organizations subject to the terms
   of the gift, device, or bequest.

   Conditional gifts are invested in U.S. Treasury securities, and any interest earned on these securities is
   accumulated in the fund.

   Wildlife Conservation Fund [16 USC 670 (a)]

   The Wildlife Conservation Fund provides for (1) the conservation and rehabilitation of natural resources on
   military installations; (2) the sustainable multipurpose use of the resources which include hunting, fishing,
   trapping, and nonconsumptive uses; and (3) the public access to military installations to facilitate its use,
   subject to safety requirements and military security. The fund is available to carry out these programs and
   other such expenses that may be necessary for the purpose of the cited statute.

   Consisting of both appropriated and nonappropriated funding, this fund gives installation commanders the
   authority to collect fees from the sale of hunting and fishing permits.

   Air Force Cadet Fund [37 USC 725 (s)]

   The Air Force Cadet Fund is maintained for the benefit of Air Force Academy cadets. Disbursements are
   made for the personal services of cadets such as laundry, arts, and athletics while collections are received
   from the same cadets at least equal to any disbursements made.

   The Air Force General Gift Fund and Wildlife Conservation Fund are trust funds. The Air Force Cadet
   Fund is classified as a special fund. All three funds utilize receipt and expenditure accounts in accounting
   for and reporting the funds.
                                                                                                                                            85
General Fund
Notes to the Principal Statements




     Note 24.         Fiduciary Activities


     Schedule of Fiduciary Activity

     For the period ended September 30                                               2009

     (Amounts in thousands)
     1. Fiduciary net assets, beginning of year                  $                                       17,561
         2. Fiduciary revenues                                                                                0
         3. Contributions                                                                                36,902
         4. Investment earnings                                                                           2,124
         5. Gain (Loss) on disposition of investments, net                                                    0
         6. Administrative and other expenses                                                                 0
         7. Distributions to and on behalf of beneficiaries                                            (31,143)
     8. Increase/(Decrease) in fiduciary net assets              $                                       7,883

     9. Fiduciary net assets, end of period                      $                                      25,444




     Schedule of Fiduciary Net Assets

     For the period ended September 30                                               2009

     (Amounts in thousands)
     FIDUCIARY ASSETS
     1. Cash and cash equivalents                                $                                      25,444
     2. Investments                                                                                          0
     3. Other Assets                                                                                         0
                                                                                                             0
     FIDUCIARY LIABILITIES
     4. Less: LIABILITIES                                        $                                        0.00

     5. TOTAL FIDUCIARY NET ASSETS                               $                                      25,444



        Relevant Information for Comprehension

        A fiduciary relationship may exist anytime a Federal Government entity collects or receives, and holds or makes
        disposition of assets in which a non-federal individual or entity has an ownership interest that the Federal
        Government must uphold. The relationship is based on statute or other legal authority and the fiduciary activity
        must be in furtherance of that relationship. The Air Force’s fiduciary activities primarily consist of the
        Savings Deposit Program (SDP). SDP was established to provide members of the uniformed services serving in a
        designated combat zone the opportunity to build their financial savings.




86
                                                                                                                    2009
                                                                                                          General Fund
                                                                                              Notes to the Principal Statements




Note 25.        Other Disclosures


                                                                        2009
As of September 30
                                                                    Asset Category
                             Land and Buildings         Equipment                Other                      Total
(Amounts in thousands)

1. ENTITY AS LESSEE-
    Operating Leases
  Future Payments Due
   Fiscal Year
    2010                                   45,601                      0                 105,563                      151,164
    2011                                   46,969                      0                 109,786                      156,755
    2012                                   48,378                      0                 114,177                      162,555
    2013                                   49,829                      0                 118,744                      168,573
    2014                                   51,324                      0                 123,494                      174,818
    After 5 Years                          52,864                      0                       0                       52,864

   Total Future Lease
    Payments Due         $                294,965   $                  0   $             571,764   $                  866,729




  Relevant Information for Comprehension

  Leases in the land and buildings category include costs for operating leased housing facilities for active duty
  Air Force in the United States and overseas. Section 801 Family Housing Program leases are not included in
  this category.

  Other leases consist of Air Force vehicle leases from the General Services Administration and commercial
  lessors located in Europe, Southwest Asia, and the United States.


Note 26.       Restatements


  Beginning FY 2009, the Air Force began using the Reliability and Maintainability Information System
  (REMIS) as the official system of record for financial accountability of military equipment assets. The
  conversion from Capital Asset Management System-Military Equipment (CAMS-ME) to REMIS
  resulted in a prior period adjustment of $8.5 billion, representing net book value, to the beginning
  balance of FY 2008 Cumulative Results of Operations. Statements affected by the adjustment are the
  Balance Sheet, Statement of Net Cost, and Statement of Changes in Net Position.




                                                                                                                            87
(Defense Dept. photo by TSgt Jerry Morrison)
General Fund
Fiscal Year 2009
Required Supplementary
Stewardship Information




                          89
General Fund
Required Supplementary Stewardship Information




     STEWARDSHIP INVESTMENTS

  Stewardship investments are substantial investments made by DoD for the benefit of the nation,
  but are not physical assets owned by DoD. Stewardship investments include expenses incurred
  for federally financed, but not federally owned physical property (Nonfederal Physical Property)
  and federally financed research and development (Research and Development).

  NONFEDERAL PHYSICAL PROPERTY

  Nonfederal Physical Property investments are expenses included in calculating net cost incurred
  by the reporting entity for the purchase, construction or major renovation of physical property
  owned by state and local governments. The expenses include the costs identified for major
  additions, alterations and replacements, purchases of major equipment, and purchases or
  improvements of other nonfederal assets. In addition, Nonfederal Physical Property Investments
  include federally-owned physical property transferred to state and local governments.


                                NONFEDERAL PHYSICAL PROPERTY
                              Yearly Investment in State and Local Governments
                               For the Current and Four Preceding Fiscal Years
                                                ($ in millions)
   Categories                                    FY 2009   FY 2008      FY 2007     FY 2006 FY 2005
  1. Transferred Assets:
     National Defense Mission Related               0         0            0            0          0

  2. Funded Assets:
     National Defense Mission Related             $13.0     $19.6         $2.8        $8.5        $8.3
    Totals                                        $13.0     $19.6         $2.8        $8.5        $8.3


  The Air National Guard investments in Nonfederal Physical Property are strictly through the
  Military Construction Cooperative Agreements (MCCAs). These agreements involve the
  transfer of money only and allow joint participation with States, Counties, and Airport
  Authorities for construction or repair of airfield pavements and facilities required to support the
  flying mission assigned at these civilian airfields.

  Investment values included in this report are based on Nonfederal Physical Property outlays
  (expenditures). Outlays are used because current DoD systems are unable to capture and
  summarize costs in accordance with the USGAAP requirements.




90
                                                                                                                2009
                                                                                                      General Fund
                                                                            Required Supplementary Stewardship Information




RESEARCH AND DEVELOPMENT

Research and Development investments are incurred in the search for new or refined knowledge
and ideas, for the application or use of such knowledge and ideas for the development of new or
improved products and processes with the expectation of maintaining or increasing national
economic productive capacity or yielding other future benefits.


                           INVESTMENTS IN RESEARCH AND DEVELOPMENT
                              Yearly Investment in Research and Development
                                For the Current and Four Preceding Fiscal Years
                                                    ($ in millions)
Categories                                            FY 2009 FY 2008 FY 2007 FY 2006 FY 2005
1. Basic Research                                          $418       $389      $383   $374 $373
2. Applied Research                                        1,069    $1,051    $1,032 $1,034 $919
3. Development:
 Advanced Technology Development                           635       $611        $937        $970        $924
   Advanced Component Development
      and Prototypes                                     2,022     $2,423      $2,310      $2,185      $1,769
   System Development and Demonstration                  3,542     $3,654      $4,094      $4,572      $4,332
   Research, Development, Test and Evaluation
      Management Support                                 1,296     $1,323      $1,286      $1,381     $1,125
 Operational Systems Development                        14,793    $12,459     $11,481     $11,579    $11,021
4. Totals                                              $23,775    $21,910     $21,523     $22,095    $20,463



Basic Research is the systematic study to gain knowledge or understanding of the fundamental
aspects of phenomena and of observable facts without specific applications, processes, or
products in mind. Basic Research involves the gathering of a fuller knowledge or understanding
of the subject under study. Major outputs are scientific studies and research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for
determining the means by which a recognized and specific need may be met. It is the practical
application of such knowledge or understanding for the purpose of meeting a recognized need.
This research points toward specific military needs with a view toward developing and
evaluating the feasibility and practicality of proposed solutions and determining their parameters.
Major outputs are scientific studies, investigations, research papers, hardware components,
software codes, and limited construction of, or part of, a weapon system, to include nonsystem
specific development efforts.

Development takes what has been discovered or learned from basic and applied research and
uses it to establish technological feasibility, assessment of operability, and production capability.
Development is comprised of the following five stages:

   1. Advanced Technology Development is the systematic use of the knowledge or
understanding gained from research directed towards proof of technological visibility and



                                                                                                                       91
General Fund
Required Supplementary Stewardship Information




  assessment of operational and productivity rather than the development of hardware for service
  use. This employs demonstration activities intended to prove or test a technology or method.

      2. Advanced Component Development and Prototypes evaluates integrated technologies in
  as realistic an operating environment as possible to assess the performance or cost reduction
  potential of advanced technology. Programs in this phase are generally system specific. Major
  outputs of Advanced Component Development and Prototypes are hardware and software
  components, or complete weapon systems, ready for operational and developmental testing and
  field use.

       3. System Development and Demonstration concludes the program or project and prepares
  it for production. It consists primarily of preproduction efforts, such as logistics and repair
  studies. Major outputs are weapon systems finalized for complete operational and
  developmental testing.

      4. Research, Development (R&D), Test and Evaluation Management Support is support for
  installations and operations for general research and development use. This category includes
  costs associated with test ranges, military construction maintenance support for laboratories,
  operations and maintenance of test aircraft and ships, and studies and analyses in support of the
  R&D program.

     5. Operational Systems Development is concerned with development projects in support of
  programs or upgrades still in engineering and manufacturing development, which have received
  approval for production, for which production funds have been budgeted in subsequent fiscal
  years.

  The following are representative program examples for each of the above major categories:

  Basic Research:

  A team of Air Force-supported researchers has developed a novel technique that aligns maps
  with satellite imagery; the new method automatically identifies a set of control points that
  registers a map with an image. This technique automatically extracts the road intersections on a
  map and uses the layout of those intersections to find the corresponding area on the satellite
  imagery currently used by various agencies to create context and situational awareness for better
  and faster decision-making.
  Air Force-funded researchers have produced an anti-reflective nanostructure surface using
  arrayed silicon nanotips. The silicon nanotip surface mimics the naturally formed surfaces found
  on many plants and animals. The color on butterfly wings, camouflage for cicadas, and night
  vision for moths are all made possible by tiny surface structures that absorb certain wavelengths
  of light. Researchers are expanding on the anti-reflective properties of moth eyes to make better
  protective skins for U.S. Air Force unmanned aerial vehicles. The current findings allow
  researchers to add broadband anti-reflection and quasi-omni-directional anti-reflection to the list
  of properties that show promise for Air Force optical defensive applications.



92
                                                                                                             2009
                                                                                                    General Fund
                                                                          Required Supplementary Stewardship Information




Applied Research:

The Air Force has developed and demonstrated the ability to combine two sensors onto a single
chip that provides an infrared focal plane array imager with both spectral tunability and
polarimetric sensing. Combining these two sensors on a single chip cuts the size, weight, and
power requirements by more than half and could significantly reduce production costs to build a
focal plane array camera four times larger than current systems. This added resolution will give
the warfighter a better ability to acquire targets.
The Air Force achieved photonic industry “firsts” with its highly integrated photonic devices for
on-board communications systems. These firsts are: first integrated erbium doped waveguide
amplifier and pump laser; first athermal arrayed waveguide grating; and first 32-channel
pre-amped receiver array. These devices reduce the size, weight, and power consumption and
increase the network capacity of on-board communications systems for avionics and satellite
platforms.

Advanced Technology Development:

The Air Force’s Advanced Composite Cargo Aircraft is a proof-of-concept technology
demonstrator for advanced composite manufacturing processes in a full-scale, certified aircraft.
The demonstrator program, with the aircraft utilizing composite materials as the
predominant/primary structure, achieved a detailed, fabrication-ready design in five months
using advanced analytical modeling tools. The first flight of the demonstrator aircraft occurred
in 25 months. The advances in materials were at an unprecedented scale for the aerospace
industry by successfully curing the largest known aircraft composite structure in the world. The
overall larger, higher performance airframe structure at the same weight indicates ~20% weight
savings are possible for equivalent structures.
An Air Force-led, multi-agency collaboration recently launched a new satellite that can provide
imagery to in-theater combatant commanders within ten minutes of collection to help keep
warfighters a step ahead of their adversaries. Launched aboard an Air Force Minotaur I rocket
on May 19, 2009 from NASA’s Wallops Flight Facility on the coast of Virginia, Tactical
Satellite-3 (TacSat-3) has exceeded expectations with all systems performing well. Its primary
payload, the Advanced Responsive Tactically-effective Military Imaging Spectrometer sensor
has already provided high-resolution imagery to a ground station via a high-bandwidth data link.
TacSat-3 is a collaboration involving the Air Force Research Laboratory, the Army Space and
Missile Defense Command, the Department of Defense's Operationally Responsive Space
Office, the Office of Naval Research, the National Geospatial-Intelligence Agency, and the
Air Force’s Space Development and Test Wing.

As part of efforts to reduce the U.S. military's reliance on foreign energy sources, the Air Force
continued certification of the alternative jet fuel blend of JP-8 with up to 50% synthetic kerosene
produced by the Fischer-Tropsch (FT) process. The FT process can use coal, natural gas,
biomass or a combination of them to produce liquid fuel, and will provide potential sources for
jet fuel in addition to petroleum. The FT certification effort is part of the Pentagon’s Assured
Fuel Initiative, in which the Air Force plans to certify all of its systems which use jet fuel to be


                                                                                                                     93
General Fund
Required Supplementary Stewardship Information




  able to use the FT blend by early 2011. Certified aircraft include the F-15, F-22, B-52, C-17 and
  B-1. In addition, the fuel blend has also been flight tested further on the T-38, C-5 and C-130.
  Field service evaluations to identify longer term effects of the blended fuel were successfully
  completed on a pair of F-15 aircraft and nearing completion on a representative example of
  USAF’s fueling infrastructure with no negative effects found. Based on extensive laboratory
  testing, the Occupational, Environmental Health Working Group has determined the
  Occupational Exposure Limit of the blended fuel will be the same as JP-8. The Air Force
  collaborated with the FAA and Industry in the development and final approval by ASTM
  International of a new commercial specification for aviation fuel allowing up to 50% FT
  synthetic kerosene in commercial Jet A and Jet A-1 fuels (ASTM D-7566, "Aviation Turbine
  Fuel Containing Synthesized Hydrocarbons"- September 1, 2009). Based on the approved
  standard, the Air Force initiated certification of its Commercial Derivative Aircraft. In addition,
  the Air Force began planning and fuel acquisition for a certification program for another near-
  term potential non-petroleum fuel blend; its blend stocks are derived from biological fats and
  oils. This class of fuel blend stocks is termed Hydroprocessed Renewable Jet (HRJ) fuel, which,
  when blended up to 50% with JP-8, will provide the Air Force with sustainable options for
  reducing the use of petroleum fuels.

  The Air Force developed improved turbine engine life-management tools that integrate
  state-of-the-art material analysis, enhanced non-destructive evaluation, and data management as
  a comprehensive life management system. Component cost avoidance is estimated to exceed
  $300 million for the F100/F110 engine series alone.

  The Air Force developed a custom-molded, noise-attenuating earplug that enables seamless
  voice communications to and from radios, while electronically passing all outside environmental
  sounds to the operator at safe levels. The Joint Unmanned Combat Air Systems (J-UCAS)
  program was terminated in December 2005. The Air Force continued to advocate the Air Force
  Research Library (AFRL) Automated Air Refueling (AAR) program, which continues to make
  historic progress. The AAR program consists of a combination of simulation and flight tests in
  order to develop the appropriate requirements and system design for Unmanned Aerial Vehicle
  (UAV) refueling, which may also be applied to manned refueling. Phase I of the AAR
  demonstration program was completed with great success. In September 2007, the AAR
  Positions and Pathways Flight Test successfully demonstrated automated maneuvering with over
  eight hours of hands-off formation flight, including movement from the observation position (off
  the wing of the tanker) to pre-contact position, to the contact position, and then back.
  February 2008 saw a successful four-ship Concept of Operations (CONOPs) simulation
  involving Air Mobility Command operators in the loop. AFRL kicked off AAR Phase II in June
  2008 by issuing solicitations for an overall Phase II integrating contractor and a Precision GPS
  developer; selection of the winning bidders occurred 1st Quarter, FY 2009.




94
                                                                                                            2009
                                                                                                   General Fund
                                                                         Required Supplementary Stewardship Information




Demonstration and Validation (Advanced Component Development and Prototypes):

The Air Force’s Advanced Component Development and Prototypes programs are comprised of
system specific advanced technology integration efforts accomplished in an operational
environment to help expedite transition from the effort. In FY 2004, the Air Force successfully
demonstrated Fighter Aircraft Command and Control Enhancement (FACE). FACE provides an
improved, beyond-line-of-sight (BLOS) command and control link with fighter aircraft by
integrating Iridium telephone communications equipment with existing aircraft communications
equipment. BLOS capability has traditionally been provided by low-density, high-demand
airborne platforms acting as communications relays. FACE provides relief for these overworked
assets, while allowing combatant commanders to maintain positive control of the battle space.
FACE has been approved for deployment to Afghanistan through the Air Force's Rapid
Response Process, and has the potential for extensive use in virtually any area of responsibility,
including Homeland Defense.

In FY 2005, the Air Force restructured and refocused the Space Radar (SR) program (formerly
Space Based Radar) to address congressional concerns with technical risk, affordability, and
DoD-IC integration. In January 2005 the Secretary of Defense and the Director of Central
Intelligence signed a joint memo designating the SR program as the single space radar capability
for the nation. In May 2007, the Deputy Secretary of Defense and the Principal Deputy Director
of National Intelligence signed the Joint Radar Enterprise Memorandum, agreeing to a joint
funding arrangement, acquisition strategy, and management structure. The details of this
arrangement are being captured in the Joint Radar Enterprise Management Plan. The SR Initial
Capabilities Document (ICD) was approved by the IC Mission Requirements Board (MRB) in
December 2005 and the DoD Joint Requirements Oversight Council (JROC) in January 2006.
The Capability Development Document is being prepared in parallel with the SR system concept
of operations (CONOPS); both are on track for MRB and JROC approval in 1st Quarter,
FY 2009. The SR program implemented a demonstration framework approach to system
development. This approach will further technology maturity risk reduction and CONOPS
experimentation through a mix of space, air, and land-based demonstration activities that will
maximize existing assets. The SR program continues to make significant advancement towards
the System Requirements Review milestone. The SR program will provide day/night, all-
weather global surface moving target indications (MTI), Search and Rescue (SAR), and high-
resolution terrain information (HRTI) capabilities from a space-based platform. Initial launch
capability is planned for 4th Quarter, FY 2016.

System Development and Demonstration:

The F-35 Joint Strike Fighter (JSF) program is developing a family of strike fighter aircraft for
the Air Force, Navy, Marine Corps and our allies, with maximum commonality among the
variants to minimize life cycle costs. The Air Force Conventional Takeoff and Landing (CTOL)
variant will be a multi-role, primary air-to-ground aircraft to replace the F-16 and A-10, and
complement the F-22. While the F-22 will establish air dominance, the F-35 with its
combination of stealth, large internal payloads and multi-spectral avionics will provide persistent
stealth and precision engagement to future battle space. The F-35 is in the eighth year of a


                                                                                                                    95
General Fund
Required Supplementary Stewardship Information




  13-year Engineering and Manufacturing Development (EMD) effort. Significant program
  accomplishments in FY 2009 include:

               x 9 flight and ground test aircraft delivered (4 CTOL, 4 Short Takeoff and Vertical

                    Landing (STOVL), 1 Combat Vehicle (CV))

               x 7 flight test aircraft being built (2 STOVL, 3 CTOL, 2 CV)

               x 3 ground test aircraft being built (1 STOVL, 2 CV)

               x Over 100 flights on 3 test aircraft

               x Low Rate Initial Production (LRIP) Lot 3 contracts for 7 AF CTOLs & 7 Navy

                    STOVLs awarded to Lockheed on June 2, 2009 and P&W on July 22, 2009

               x Service Acquisition Executive (SAE) leadership transitioned from Navy to

                    Air Force April 2009

  Predator (MQ-1) UAV Program:

  The MQ-1 Predator UAV program is developing the capability to instantaneously derive and
  disseminate JDAM-quality coordinates from the aimpoint of its electro-optical/infra-red (EO/IR)
  full motion video sensor. Sensor improvements include development of a precise attitude
  reference system coupled with an off-the-shelf two color eye-safe laser rangefinder/designator
  plus development of an accurately timed metadata system. Aircraft will be modified with a new
  guidance system incorporating differential GPS. Fielding is scheduled to begin in FY 2011.
  Follow-on development will provide instantaneous JDAM-quality data for all pixels within the
  EO/IR image.

  Global Hawk (RQ-4) Test Program:

  In FY 2009 the Global Hawk flight test program was restructured to alleviate concurrent test and
  flight acceptance by moving flight acceptance to Beale AFB leaving Edwards AFB to
  concentrate on flight test. The first Block 40 aircraft will be delivered to Edwards AFB in 2009
  to support developmental flight test. RTIP sensor testing continues flights on the Proteus aircraft
  while RTIP core mode (SAR Spot/Swath and GMTI modes) development is complete and
  deferred modes (Concurrent and High Range Resolution) development is still in progress. In
  support of JUON 336, Battle Field Airborne Communications Node (BACN) development and
  flight testing has been accelerated on Block 20 aircraft in order to provide this much needed
  support to the warfighter on a 24/7 basis.




96
                                                                                                            2009
                                                                                                   General Fund
                                                                         Required Supplementary Stewardship Information




The Airborne Warning and Control System (AWACS) aircraft continues to modernize its
mission capabilities to remain an effective airborne battle management and surveillance system
for command and control of combat forces. The Block 40/45 Upgrade improves the quality and
timeliness of sensor data for shooters, improves combat identification, supports a Single
Integrated Air Picture (SIAP) through multi-sensor integration, improves the AWACS
contribution to Time Critical Targeting via Data Link Infrastructure, improves electronic
support, measures processing, and enables more effective, faster upgrades via an open system,
Ethernet-based architecture. Block 40/45 awarded a Low Rate Initial Production contract for
hardware on the first aircraft in July 2009. The Navigation Warfare (NAVWAR) effort satisfies
a Chairman Joint Chiefs of Staff Instruction for Global Positioning Satellite (GPS) users and
incorporates new technology into the navigation sensor. NAVWAR completed a first article
inspection in April 2009, installed Embedded GPS Inertial units in operational aircraft in
May 2009, and awarded a follow-on production contract in June 2009. Production and fielding
will continue through 2009 and 2010. The Next Generation Identification Friend or Foe
(NGIFF) effort provides AWACS with a secure Mode 5 capability. NGIFF completed Risk
Reduction efforts and awarded an EMD contract for the Block 30/35 version of the modification
in February 2009, and anticipates awarding the EMD contract for the Block 40/45 version of the
modification later in 2009.

Research, Development, Test and Evaluation Management Support:

The Air Force’s Research, Development, Test and Evaluation (RDT&E) Management Support
efforts include projects directed toward support of installations and operations required for
general research and development use. The projects include test ranges, maintenance support of
laboratories, operation and maintenance of test aircraft, and studies and analyses in support of the
research and development program. An example of Air Force RDT&E management support is
the Major Test and Evaluation Investment program, which funds the planning, improvements
and modernization for three national asset test centers having over $10 billion of unique test
facilities/capabilities operated and maintained by the Air Force for the DoD test and evaluation
missions, and is available to others having a requirement for their unique capabilities.

Many efforts are contained within the Air Force Test and Evaluation (T&E) RDT&E program.
Three examples include the Digital Integrated Air Defense System (DIADS), Magnetic
Levitation (Maglev), and High Performance Computing (HPC).

DIADS was designed with proprietary hardware and software to simulate a hostile Integrated Air
Defense System (IADS) that was becoming expensive to maintain and update. To overcome this
issue DIADS was converted to a Linux software and personal computer (PC) base that provides
users with an open architecture system and portability. Portability benefited the F-35 when
Lockheed Martin Aeronautics Company mandated use of SUSE Linux software for
Developmental Testing (DT) and Operational Testing (OT). SUSE contains an indemnification
clause that without open architecture, serious cost/schedule implications could have resulted.
With open architecture, DIADS was easily ported from Red Hat Linux to SUSE Linux without
any code changes. This minimized the amount of testing and Validation &Verification (V&V)
work needed. Using open architecture and PCs benefit DIADS by providing long-term


                                                                                                                    97
General Fund
Required Supplementary Stewardship Information




  flexibility and sustainability because DIADS would become unsupportable if the proprietary
  hardware/software company ceased to exist.

  Additionally, DIADS performance increased 20 times from running on proprietary software to
  running on Linux. This increase successfully supported F-22 Follow-on Operational Test &
  Evaluation (OT&E) Increment 3.1 which has a large scenario that is approximately five times
  larger than that used previously in terms of radar, C2, and weapons system players to run in real
  time. The proprietary software also presented a start-up time issue for the F-22 Initial OT&E
  scenario at the Air Combat Simulator that would have impacted test execution by making the test
  infeasible.

  Use of open architecture and PCs has made DIADS a more capable system and less expensive to
  operate and update.

  A Maglev system has been developed to provide increased acceleration and maximum speed
  while overcoming the harsh vibration environment encountered by a sled sliding on the current
  steel track at Holloman AFB, NM. This harsh vibration precludes testing sensitive missile
  hardware. The concept of magnetic levitation has been successfully demonstrated in three tests,
  one of which set a world land speed record of 423 miles per hour on a quarter mile track. The
  sled was mounted on a single slot guideway beam with two magnets. Shaped like a “T” the
  payload rides on top of the sled and the keel fits between the walls on each side. The
  superconducting magnets, mounted on each side of the keel, levitate the sled by interacting with
  copper rails embedded in a concrete guideway. Levitation eliminates friction, and when the sled
  is propelled down the guideway/track, the harsh vibration experienced on the steel track is
  eliminated. The Maglev goal is to reach a speed of Mach 9.

  The ability to predict performance has greatly advanced over the past few years as was
  demonstrated in the most recent test, when the sled came to stop within 15 feet of the predicted
  stop point. This is a very significant accomplishment, since accurate prediction models for
  magnetic forces were non-existent a few years ago. Some anomalies were observed with the
  design, but the tests proved the reliability of the magnet design, the procedures and software for
  cooling/charging the magnets. System design is being refined to improve roll stability with the
  use of a second guideway. Predictions are that roll stability will improve 50 times with a dual
  guideway. A 6 Degree-of-Freedom model for the new 4 magnet sled is being developed to more
  accurately predict forces the sled will experience. Additionally, an aero analysis is being
  accomplished to predict forces the magnets will exert on the guideway beam. Understanding
  these forces will ensure the best possible guideway and sled are designed.

  The Arnold Engineering and Development Center (AEDC) has begun operating a Silicon
  Graphics International HPC System that will be shared with the Air Force Seek Eagle program
  office (AFSEO) at Eglin AFB, FL. The computer’s capabilities are powerful computational and
  modeling tools that will help both organizations solve complex physics problems typically
  encountered in weapons stores separation test environments. AEDC is chiefly responsible for
  modeling, simulation and wind-tunnel testing of systems while AFSEO conducts flight testing,
  integrates systems and reports results to warfighters. Additionally, the computer will resolve


98
                                                                                                          2009
                                                                                                 General Fund
                                                                       Required Supplementary Stewardship Information




complicated geometries of internal weapons bays, weapon launches and inlet and engine
combinations that can generate irregular airflow as well as severe acoustic and complex aero-
thermodynamic conditions. The computer will also be used to support computational fluid
dynamics work for the F-35, Small-Diameter Bomb and Joint Direct Attack Munition.

Operational Systems Development:

The Air Force’s operational system efforts include projects in support of development
acquisition programs or upgrades in SDD. The F-22 Raptor program continued full rate
production, and will maintain its role as the key enabler of joint air dominance through an
incremental modernization program funded through Operational Systems Development
activities. Through FY 2009 145 aircraft have been delivered. The modernization program will
enhance the air vehicle, engine, and training systems to improve F-22A weapons,
communications, and Intelligence Surveillance Reconnaissance (ISR) capabilities to further
enhance Global Strike capabilities. Increment 2 is now resident in delivered aircraft and
represents the first upgrade over initial operational capability. FY 2009 activities included
development of the Increment 3 suite. A Capability Requirements Review (CRR) for Increment
3.2 focused on dramatically improving the F-22A Raptor’s Air-to-Air and Air-to-Ground attack
capabilities with AIM-9X, AIM-120D, full, Small Diameter Bomb capability, electronic
protection updates, and an F-22/F-35/B-2 interoperable tactical datalink.

The Advanced Medium Range Air-to-Air Missile (AMRAAM) Phase 3 (AIM-120C-7) was
approved for fielding in December 2007. Production for this variant began in 4th Quarter,
FY 2004, and was completed in 3rd Quarter, FY 2009. The AIM-120C-7 provides a major
upgrade over the AIM-120C-6 guidance section, particularly in the use of circular processor
cards over previously used rectangular cards. These cards provide significant space savings
within the missile for added capability, in addition to providing greater processing power.

AMRAAM Phase 4 (AIM-120D) builds on the AIM-120C-7 capability and is progressing. This
new AIM-120D missile will add a GPS/INU and a 2-way Data Link to enhance accuracy and
control, and thus, increase weapon effectiveness. In addition, the AIM-120D will have increased
range and third party targeting which expands the High Off-boresight launch envelope. The
SDD contract was awarded in December 2003. Captive flight testing has been initiated on the
F/A-18C/D and F-15C/D. EMD is scheduled to complete in September 2009 with the
completion of the Functional Configuration Audit (FCA). Proof-of-design units and proof-of-
manufacturing units are being used to support simulation/integration labs, production test
equipment development, and ground and flight tests. Production for AIM-120D started in
2nd Quarter, FY 2009 and will continue through FY 2024.

The Small Diameter Bomb II (SDB II) program is a joint Air Force/Navy interest program that
will use a tri-mode seeker and weapon data link to fill a critical capability gap by providing a
stand-off, target classification and in-weather capability against moving targets. The SDB II A
weapon program will retain the SDB I legacy capability against fixed surface target, improved
GPS anti-jam capability and denied sanctuary of weather for adversary moving targets. The
42-month Risk Reduction competition between two contractors that commenced in May 2006 to


                                                                                                                  99
General Fund
Required Supplementary Stewardship Information




  mature critical technologies for an all-up-round design will end in October 2009. Following the
  Risk Reduction Phase, a single contractor will be selected in 2nd Quarter, FY 2010 to complete
  an approximate 80 month EMD contract with production options. Milestone B is scheduled for
  3rd Quarter, FY 2010. Production for SDB II is scheduled to start 1st Quarter, FY 2013 and
  continue through FY 2023. Required Assets Available on the F-15E is planned for FY 2014.

  The SDB I Focused Lethality Munition (FLM), a variant of SDB I, is a Joint Capabilities
  Technology Development (JCTD) program that effectively demonstrates the military utility for
  prosecuting high-value targets by generating near-field blast effects in a high collateral risk
  environment. The SDB I FLM has a composite-cased warhead with a Multi-phase Blast
  Explosive to reduce fragmentation effects while increasing blast effects. This low colletaral
  damage warhead was integrated into the SDB I weapon. The Military Utility Assessment was
  successfully completed in June 2008 with positive feedback in all areas. The assessment
  supports SDB I FLM’s potential to fill a capability gap of engaging targets within 60 feet of
  collateral concerns. The FLM capability will increase combatant commanders’ strike options,
  particularly in an urban environment, while decreasing collateral damage risk. This JCTD fully
  leverages the SDB I program to facilitate rapid acquisition, with delivery of 50 residual assets in
  February 2008. An additional 100 residual assets will be delivered to the warfighter during
  3rd Quarter, FY 2010.




100
                                     2009



General Fund
Fiscal Year 2009
Required Supplementary Information




                                       101
General Fund
Required Supplementary Information




Statement of Disaggregated Budgetary Resources
As of September 30, 2009 and 2008 ($ in thousands)
                                                                                                 Research,
                                                                                                Development,        Operation and
                                                                             Other
                                                                                                   Test &           Maintenance
                                                                                                 Evaluation

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES:
Unobligated balance, brought forward, October 1                          $       5,131      $      5,342,251    $       1,547,718
Recoveries of prior year unpaid obligations                                         99               541,330            2,336,509
Budget authority
 Appropriation                                                                504,443             27,391,855           56,611,107
  Spending authority from offsetting collections
     Earned
       Collected                                                                     634           3,302,232            4,973,027
       Change in receivables from Federal sources                                      0              43,307              277,958
     Change in unfilled customer orders
       Advance received                                                               0              140,669                52,016
       Without advance from Federal sources                                           0               22,405                80,681
  Subtotal                                                               $     505,077      $     30,900,468    $      61,994,789
Nonexpenditure transfers, net, anticipated and actual                        (495,477)             (267,912)               701,086
Permanently not available                                                       (1,018)            (905,666)           (2,086,305)
Total Budgetary Resources                                                $      13 812      $     35 610 471    $      64 493 797

STATUS OF BUDGETARY RESOURCES:
Obligations incurred:
  Direct                                                                 $       7,647      $     28,358,597    $      56,801,984
  Reimbursable                                                                     630             3,539,707            5,698,906
  Subtotal                                                               $       8,277      $     31,898,304    $      62,500,890
Unobligated balance:
  Apportioned                                                                    1,055             3,374,053              380,396
  Exempt from apportionment                                                      4,480                     0                    0
  Subtotal                                                               $       5,535      $      3,374,053    $         380,396
Unobligated balance not available                                                    0               338,114            1,612,511
Total status of budgetary resources                                      $      13,812      $     35,610,471    $      64,493,797

CHANGE IN OBLIGATED BALANCE:
Obligated balance, net
    Unpaid obligations, brought forward, October 1                       $       4,206      $      9,337,076    $      23,104,777
    Less: Uncollected customer payments from Federal sources, brought
      forward, October 1                                                             0              (688,140)          (1,340,582)
   Total unpaid obligated balance                                        $       4,206      $       8,648,936   $       21,764,195
Obligations incurred net (+/-)                                           $       8,278      $      31,898,304   $       62,500,890
Less: Gross outlays                                                            (7,341)           (29,548,229)         (56,765,245)
Obligated balance transferred, net payments from Federal sources (+/-)
Less: Recoveries of prior year unpaid oblligations, actual               $           (99)   $      (541,330)    $      (2,336,509)
Change in uncollected customer payments from Federal sources (+/-)                      0           (65,712)             (358,639)
Obligated balance, net, end of period
    Unpaid obligations                                                           5,043            11,145,820           26,503,914
    Less: Uncollected customer payments (+/-) from Federal sources (-)               0             (753,852)           (1,699,222)
   Total, unpaid obligated balance, net, end of period                           5,043            10,391,968           24,804,692

NET OUTLAYS
Net Outlays:
   Gross outlays                                                         $       7,341      $     29,548,229    $      56,765,245
   Less: Offsetting collections                                                  (634)            (3,442,900)          (5,025,043)
   Less: Distributed Offsetting receipts                                     (104,099)                      0                    0
   Net Outlays                                                           $    (97,392)      $     26,105,329    $      51,740,202




102
                                                                                                      2009
                                                                                                General Fund
                                                                               Required Supplementary Information




                            Military               Military                2009                     2008
    Procurement                                  Construction /
                           Personnel            Family Housing           Combined                 Combined




$        17,030,767    $         161,904    $           2,589,119    $       26,676,890     $          21,175,345
            835,023              323,009                   57,336             4,093,396                 4,602,017

         43,772,117           33,282,504                2,413,227           163,975,253               156,791,805


            601,854              418,800                    5,931              9,302,479               10,464,416
              6,254               (2,624)                   (150)                324,746                (354,080)

            (48,808)                   0                     3,739               147,616                 (199,948)
            (25,862)               3,690                         0                80,913                    38,934
$        44,305,555    $      33,702,370    $           2,422,747    $      173,831,007     $         166,741,127
            655,225              247,586                  (16,700)               823,808                 2,750,362
          (695,274)            (122,921)                  (22,629)           (3,833,813)               (3,194,456)
$        62,131,296    $      34,312,038    $           5,029,873    $      201,591,288     $         192,074,395



$        40,845,578    $      33,551,159    $           2,754,854    $      162,319,819     $         155,042,972
            406,153              407,018                    7,707            10,060,121                10,354,532
$        41,251,731    $      33,958,177    $           2,762,561    $      172,379,940     $         165,397,504

         20,102,099                8,997                2,225,329            26,091,928                24,139,914
                  0                    0                        0                 4,480                     3,820
$        20,102,099    $           8.997    $           2,225,329    $       26,096,408     $          24,143,734
            777,465              344,865                   41,984             3,114,940                 2,533,157
$        62 131 295    $      34 312 039    $           5 029 874    $      201 591 288     $         192 074 395



$        30,197,966    $       2,405,765    $           2,763,468    $       67,813,258     $          60,933,360
           (110,393)               87,626                    (150)            (2,051,639)              (2,366,785)
$         30,087,573   $        2,493,391   $            2,763,318   $        65,761,619    $          58,566,575
$         41,251,731   $       33,958,177   $            2,762,561   $       172,379,940    $         165,397,504
        (38,118,396)         (33,533,767)              (2,029,409)         (160,002,387)            (153,915,590)

$         (835,023)    $        (323,099)   $            (57,336)    $       (4,093,396)    $         (4,602,017)
             19,608               (1,067)                     150              (405,660)                  315,146

         32,496,279            2,507,076                3,439,283            76,097,415               67,813,257
            (90,785)              86,560                        0            (2,457,299)              (2,051,639)
         32,405,494            2,593,636                3,439,283            73,640,116               65,761,618



$        38,118,396    $      33,533,767    $           2,029,409    $      160,002,387     $        153,915,590
          (553,046)            (418,800)                   (9,670)           (9,450,094)             (10,264,468)
                  0                    0                         0             (104,099)                (201,497)
$        37,565,350    $      33,114,967    $           2,019,739    $      150,448,194     $        143,449,625




                                                                                                             103
General Fund
Required Supplementary Information




      DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES

      The Air Force has performance measures based on missions and outputs. The Air Force is
      unable to accumulate costs for major programs based on those performance measures because
      its financial processes and systems were not designed to collect and report this type of cost
      information. Until the processes and systems are upgraded, the Air Force will break out
      programs by major appropriation groupings.

      HERITAGE ASSETS AND STEWARDSHIP LAND
      The Air Force now reports Heritage Assets and Stewardship Land in Note 10 of its financial statements.

      REAL PROPERTY DEFERRED MAINTENANCE

                                       Real Property Deferred Maintenance
                                     For Fiscal Year Ended September 30, 2009
                                               (In Millions of Dollars)
   Property Type                                            Current Fiscal Year (CFY)
                                     1. Plant Replacement     2. Required Work          3. Percentage
                                             Value          (Deferred Maintenance)
   1. Category 1: Buildings,
   Structures, and Utilities
   (Enduring Facilities)                         $234,191                  $17,678            8%
   2. Category 2: Buildings,
   Structures, and Utilities
   (Excess Facilities or
   Planned for Replacement)
                                                  $17,028                       $18          <1%
   3. Category 3: Buildings,
   Structures, and Utilities
   (Heritage Assets)                               $9,790                       $927          9%

      Use of Q-Rating versus Facilities Sustainment Model (FSM) to reflect Deferred
      Sustainment

      The use of Q-Rating as a basis for calculated deferred maintenance is not prudent. The
      Service’s Q-Rating database has not sufficiently matured compared with the FSM dataset.

      At this stage of Q-Rating planning and development, facility Q-Ratings cannot be readily tied to
      actual obligations nor do they provide a consistent service-wide metric based on commercial
      standards.

      Based on previous submissions, the use of FSM to benchmark facility requirements has proven
      itself in the Air Force Corporate Structure (AFCS) process by yielding data constancy and high
      fidelity. FSM can be linked to actual obligations, is consistent across the services, and uses
      commercial standards in its development, which provides the stability and credibility needed to
      defend program funding requirements in AFCS.

104
                                                                                                           2009
                                                                                                 General Fund
                                                                                  Required Supplementary Information




   The inclusion of the “A” factor to represent “acceptable operating condition” is not currently
   valid. At this time, there is no dataset which can be used to underpin target Q-Rating
   percentages or to identify acceptable operating conditions for specific Air Force facilities.

   At A=100%, the FY 2009 accumulated deferred sustainment based on Q-Ratings is
   $17.7 billion as noted above. Although a backlog of $17.7 billion obviously appears
   significant, this considerably large requirement adds little value to AFCS decision-making
   process. From our experience, AFCS will immediately question such a large backlog if used to
   defend our budget shortfalls. Variable "A" factors would need to be developed to make the
   proposed deferred maintenance concept feasible.

   Strategically, the use of annual deferred sustainment maintenance based on FSM has already
   proven to be successful in defending our budgets through AFCS. In FY 2008, the annual
   deferred sustainment maintenance based on FSM was at a reasonable level of $385.0 million.


                                  Military Equipment Deferred
                                          Maintenance
                                     For Fiscal Year Ended
                                       September 30, 2009
                                     (In Millions of Dollars)
Major                                                                OP30
Categories                                                           Amounts  Adjustments Total
1. Aircraft                                                              $638         $0   $638
2 Automotive
Equipment                                                                    $0             $0        $0
3. Combat
Vehicles                                                                     $0             $0        $0
4. Construction
Equipment                                                                   $0              $0        $0
5. Electronic and Communications Systems                                  $142              $0      $142
6. Missiles                                                                 $1              $0        $1
7.Ships                                                                     $0              $0        $0
8. Ordnance Weapons and
Munitions                                                                   $0             $0     $0
9. General Purpose Equipment                                                $0             $0     $0
10. All Other Items Not Identified to Above Categories                    $311         $1,299 $1,610
Total                                                                   $1,092         $1,299 $2,391

   The figures presented are projected deferred maintenance amounts for FY 2009 as reported in
   the FY 2011 Program Budget Review OP-30 budget exhibits. FY 2009 Overseas Contingency
   Operations supplemental actual is not available. Adjustment totals includes Deferred Funding
   for Contract Logistics Support which may include more than just maintenance. These totals
   presently cannot be broken out by major categories.

                                                                                                               105
(U.S. Air Force Photo by SrA Brian Kimball)
                   2009



General Fund
Fiscal Year 2009
Audit Opinion




                     107
General Fund
Audit Opinion




108
     2009
General Fund
   Audit Opinion




           109
General Fund
Audit Opinion




110
     2009
General Fund
   Audit Opinion




            111
General Fund
Audit Opinion




112
     2009
General Fund
   Audit Opinion




            113
General Fund
Audit Opinion




114
     2009
General Fund
   Audit Opinion




            115
General Fund
Audit Opinion




116
                                                                                             2009



Working Capital Fund
Principal Statements
Fiscal Year 2009
The FY 2009 Department of the Air Force Working Capital Fund Principal Statements
and related notes are presented in the format prescribed by the Department of Defense
Financial Management Regulation 7000.14-R, Volume 6B. The statements and related notes
summarize financial information for individual activity groups and activities within the
Working Capital Fund for the fiscal year ending September 30, 2009, and are presented on
a comparative basis with information previously reported for the fiscal year ending
September 30, 2008.

The following statements comprise the Department of the Air Force Working Capital Fund
Principal Statements:

Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2009 and 2008 those
resources owned or managed by the Air Force which are available to provide future
economic benefits (assets); amounts owed by the Air Force that will require payments
from those resources or future resources (liabilities); and residual amounts retained by
the Air Force, comprising the difference (net position).

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations
for the years ended September 30, 2009 and 2008. The Air Force’s net cost of operations
includes the gross costs incurred by the Air Force less any exchange revenue earned from
Air Force activities.

Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the
Air Force’s net position resulting from the net cost of Air Force’s operations, budgetary
financing sources other than exchange revenues, and other financing sources for the years
ended September 30, 2009 and 2008.

Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources
available to the Air Force during FY 2009 and 2008, the status of these resources at
September 30, 2009 and 2008, and the outlay of budgetary resources for the years ended
September 30, 2009 and 2008.

The Principal Statements and related notes have been prepared to report financial position
pursuant to the requirements of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, and the Office of Management and Budget’s Circular
A-136, “Financial Reporting Requirements.”
                                                                                               117
                                                                                               11
Working Capital Fund
Principal Statements




  CONSOLIDATED BALANCE SHEET
  As of September 30, 2009 and 2008
     ($ in Thousands)
                                                                                                                        Restated
                                                                                   2009 Consolidated                2008 Consolidated

    ASSETS (Note 2)
         Intragovernmental:
           Fund Balance with Treasury (Note 3)                                $                     697,367     $                959,598
           Accounts Receivable (Note 5)                                                             718,662                      786,751
           Other Assets (Note 6)                                                                        420                         618
           Total Intragovernmental Assets                                     $                   1,416,449     $              1,746,967


         Accounts Receivable,Net (Note 5)                                                           152,109                      117,894
         Inventory and Related Property,Net (Note 9)                                            30,059,338                    30,256,598
         General Property, Plant and Equipment,Net (Note 10)                                      1,293,737                    1,164,386
         Other Assets (Note 6)                                                                      402,703                      388,677
    TOTAL ASSETS                                                              $                 33,324,336      $             33,674,522
   STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)


    LIABILITIES (Note 11)
         Intragovernmental:
           Accounts Payable (Note 12)                                         $                     153,539     $                 94,776
           Other Liabilities (Note 15 & 16)                                                          13,531                       86,302
           Total Intragovernmental Liabilities                                $                     167,070     $                181,078


         Accounts Payable (Note 12)                                           $                     796,397     $                817,558
         Military Retirement and Other Federal                                                      193,710                      217,337
         Employment Benefits (Note 17)
         Other Liabilities (Note 15 and Note 16)                                                    496,773                      624,331
    TOTAL LIABILITIES                                                         $                   1,653,950     $              1,840,304


   COMMITMENTS AND CONTINGENCIES (NOTE 16)
    NET POSITION
        Unexpended Appropriations - Other Funds                                                       1,016                        1,248
        Cumulative Results of Operations - Other Funds                                          31,669,370                    31,832,970
    TOTAL NET POSITION                                                        $                 31,670,386      $             31,834,218


    TOTAL LIABILITIES AND NET POSITION                                        $                 33,324,336      $             33,674,522




118                                The accompanying notes are an integral part of these financial statements.
                                                                                                                          2009
                                                                                                       Working Capital Fund
                                                                                                                  Principal Statements




CONSOLIDATED STATEMENT OF NET COST
For the periods ended September 30, 2009 and 2008
    ($ in Thousands)
                                                                                                                    Restated
                                                                          2009 Consolidated                     2008 Consolidated

 Program Costs
      Gross Costs                                                    $                 10,534,391           $             10,727,152
      (Less: Earned Revenue)                                                          (10,380,069)                       (10,784,910)
      Net Program Costs                                              $                    154,322           $                (57,758)
 Net Cost of Operations                                              $                    154,322           $                (57,758)




                               The accompanying notes are an integral part of these financial statements.                        119
Working Capital Fund
Principal Statements




Air Force Working Capital Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2009 and 2008
    ($ in Thousands)


                                                         2009 Earmarked Funds           2009 All Other Funds              2009 Eliminations

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                   $                            0 $                  35,253,245 $                           0
Prior Period Adjustments:
   Corrections of errors (+/-)                                                    0                    (3,420,275)                            0
Beginning balances, as adjusted                      $                            0 $                  31,832,970 $                           0
Budgetary Financing Sources:
   Appropriations used                               $                            0 $                      61,697 $                           0
   Transfers-in/out without reimbursement                                         0                      (251,274)                            0
Other Financing Sources:
   Transfers-in/out without reimbursement (+/-)                                   0                       (64,772)                            0
   Imputed financing from costs absorbed by others                                0                       151,466                             0
   Other (+/-)                                                                    0                        93,605                             0
Total Financing Sources                              $                            0 $                      (9,278) $                          0
Net Cost of Operations (+/-)                                                      0                       154,322                             0
Net Change                                           $                            0 $                    (163,600) $                          0
Cumulative Results of Operations                     $                            0 $                  31,669,370 $                           0
UNEXPENDED APPROPRIATIONS
Beginning Balances                                   $                            0 $                           1,248 $                       0
Beginning balances, as adjusted                      $                            0 $                           1,248 $                       0
Budgetary Financing Sources:
   Appropriations received                                                        0                        61,465                             0
   Other adjustments (rescissions, etc)                                           0                                0                          0
   Appropriations used                                                            0                       (61,697)                            0
Total Budgetary Financing Sources                                                 0                             (232)                         0
Unexpended Appropriations                                                         0                             1,016                         0
Net Position                                         $                            0 $                  31,670,386 $                           0




120                                The accompanying notes are an integral part of these financial statements.
                                                                                                                                   2009
                                                                                                               Working Capital Fund
                                                                                                                           Principal Statements




                                                                Restated                                                      Restated
    2009 Consolidated         2008 Earmarked Funds         2008 All Other Funds              2008 Eliminations            2008 Consolidated



$             35,253,245 $                           0 $                  35,516,871 $                              0 $              35,516,871


              (3,420,275)                            0                   (3,187,305)                                0               (3,187,305)
$             31,832,970 $                           0 $                  32,329,566 $                              0 $              32,329,566


$                 61,697 $                           0 $                      69,073 $                              0 $                  69,073
                (251,274)                            0                       (88,000)                               0                  (88,000)


                 (64,772)                            0                       (47,477)                               0                  (47,477)
                 151,466                             0                       144,150                                0                  144,150
                  93,605                             0                     (632,100)                                0                 (632,100)
$                 (9,278) $                          0 $                   (554,354) $                              0 $               (554,354)
                 154,322                             0                       (57,758)                               0                  (57,758)
$               (163,600) $                          0 $                   (496,596) $                              0 $               (496,596)
$             31,669,370 $                           0 $                  31,832,970 $                              0 $              31,832,970


$                  1,248 $                           0 $                        4,558 $                             0 $                   4,558
$                  1,248 $                           0 $                        4,558 $                             0 $                   4,558


                  61,465                             0                        66,458                                0                    66,458
                        0                            0                          (695)                               0                     (695)
                 (61,697)                            0                       (69,073)                               0                  (69,073)
                    (232)                            0                        (3,310)                               0                   (3,310)
                   1,016                             0                          1,248                               0                     1,248
$             31,670,386 $                           0 $                  31,834,218 $                              0 $              31,834,218




                                       The accompanying notes are an integral part of these financial statements.                         121
Working Capital Fund
Principal Statements



  COMBINED STATEMENT OF BUDGETARY RESOURCES
  For the periods ended September 30, 2009 and 2008
      ($ in Thousands)

                                                                                                        2009 Combined                2008 Combined

  BUDGETARY FINANCING ACCOUNTS
  BUDGETARY RESOURCES
  Unobligated balance, brought forward, October 1                                                 $                 343,595      $            1,073,782
  Recoveries of prior year unpaid obligations                                                                           89,013                        0
  Budget authority
      Appropriation                                                                                                     61,465                  66,458
      Contract authority                                                                                          7,255,839                   6,633,730
      Spending authority from offsetting collections
          Earned
             Collected                                                                                           11,599,508                  11,677,265
             Change in receivables from Federal sources                                                              (62,179)                  407,049
          Change in unfilled customer orders
             Advance received                                                                                        (98,643)                   (77,781)
             Without advance from Federal sources                                                                  (247,280)                   (241,364)
      Subtotal                                                                                                   18,508,710                  18,465,357
  Nonexpenditure transfers, net, anticipated and actual                                                            (251,274)                    (88,000)
  Permanently not available                                                                                       (7,078,077)                (8,139,473)
  Total Budgetary Resources                                                                       $              11,611,967      $           11,311,666

  Status of Budgetary Resources:
  Obligations incurred:
      Reimbursable                                                                                               11,238,329                  10,968,071
      Subtotal                                                                                                   11,238,329                  10,968,071
  Unobligated balance:
      Apportioned                                                                                                           0                  343,595
      Exempt from apportionment                                                                                     373,638                           0
      Subtotal                                                                                                      373,638                    343,595
  Total status of budgetary resources                                                             $              11,611,967      $           11,311,666
  Change in Obligated Balance:
  Obligated balance, net
      Unpaid obligations, brought forward, October 1                                              $               7,946,887      $            8,883,865
      Less: Uncollected customer payments                                                                         (4,010,572)                (3,844,887)
      from Federal sources, brought forward, October 1
      Total unpaid obligated balance                                                                              3,936,315                   5,038,978
  Obligations incurred net (+/-)                                                                                 11,238,329                  10,968,071
  Less: Gross outlays                                                                                            (11,573,286)               (11,905,048)
  Less: Recoveries of prior year unpaid obligations, actual                                                          (89,013)                         0
  Change in uncollected customer                                                                                    309,459                    (165,685)
       payments from Federal sources (+/-)
  Obligated balance, net, end of period
      Unpaid obligations                                                                                           7,522,917                  7,946,888
      Less: Uncollected customer payments                                                                         (3,701,113)                (4,010,572)
              from Federal sources (-)
      Total, unpaid obligated balance, net, end of period                                                          3,821,804                  3,936,316
  Net Outlays
  Net Outlays:
      Gross outlays                                                                                              11,573,286                  11,905,048
      Less: Offsetting collections                                                                               (11,500,865)               (11,599,484)
      Net Outlays                                                                                 $                     72,421   $             305,564

122                                        The accompanying notes are an integral part of these financial statements.
                                                                                             2009



Working Capital Fund
Fiscal Year 2009
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair presentation
of the financial statements that is not displayed on the face of the financial statements.




                                                                                               123
Working Capital Fund
Notes to the Principal Statements




   Note 1.         Significant Accounting Policies

                  1.A. Basis of Presentation
                   These financial statements have been prepared to report the financial position and results
                  of operations of the Air Force Working Capital Fund (AFWCF), as required by the Chief
                  Financial Officers Act of 1990, expanded by the Government Management Reform Act
                  of 1994, and other appropriate legislation. The financial statements have been prepared
                  from the books and records of the AFWCF in accordance with, and to the extent possible,
                  U.S. generally accepted accounting principles (USGAAP) promulgated by the Federal
                  Accounting Standards Advisory Board (FASAB); the Office of Management and Budget
                  (OMB) Circular A-136, Financial Reporting Requirements; and the Department of
                  Defense (DoD), Financial Management Regulation (FMR). The accompanying financial
                  statements account for all resources for which the AFWCF is responsible unless
                  otherwise noted.

                  The AFWCF is unable to fully implement all elements of USGAAP and the OMB
                  Circular A-136, due to limitations of financial and nonfinancial management processes
                  and systems that support the financial statements. The AFWCF derives reported values
                  and information for major asset and liability categories largely from nonfinancial
                  systems, such as inventory and logistic systems. These systems were designed to support
                  reporting requirements for maintaining accountability over assets and reporting the status
                  of federal appropriations rather than preparing financial statements in accordance with
                  USGAAP. The AFWCF continues to implement process and system improvements
                  addressing these limitations.

                  The AFWCF currently has eight auditor identified financial statement material
                  weaknesses: (1) financial and nonfinancial feeder systems do not contain an adequate
                  audit trail for the proprietary and budgetary accounts, (2) AFWCF may have material
                  amounts of account adjustments that are not adequately supported, (3) AFWCF cannot
                  accurately identify all intragovernmental transactions by customer, which is required for
                  eliminations when preparing consolidated financial statements, (4) the value of the
                  AFWCF government furnished and contractor acquired materiel and equipment may not
                  be accurately reported, (5) AFWCF General Property, Plant, and Equipment (PP&E) may
                  not be accurately valued, (6) operating materiels and supplies (OM&S) are not reflected
                  at historical cost, (7) cost of goods sold and work in progress are not recorded in
                  accordance with the Statement of Federal Financial Accounting Standards (SFFAS)
                  No. 3, Accounting for Inventory and Related Property, and (8) supply management
                  systems do not provide sufficient audit trails to confirm and value the in transit inventory
                  reported as part of inventory held for sale on the Consolidated Balance Sheet.
                  1.B. Mission of the Reporting Entity
                  The United States Air Force was created on September 18, 1947, by the National Security
                  Act of 1947. The National Security Act Amendments of 1949 established the DoD and
                  made the Air Force a department within DoD. The overall mission of the United States
                  Air Force is to fly, fight and win...in air, space and cyberspace. Our priorities are:
                  (1) reinvigorate the Air Force nuclear enterprise, (2) partner with the Joint and Coalition
                  team to win today’s fight, (3) develop and care for Airmen and their families,


124
                                                                                                2009
                                                                           Working Capital Fund
                                                                           Notes to the Principal Statements




(4) modernize our air and space inventories, organizations, and training, and
(5) recapture acquisition excellence.

The stock and industrial revolving fund accounts were created by the National Security
Act of 1947, as amended in 1949 and codified in United States Code 10 Section 2208.
The revolving funds were established as a means to more effectively control the cost of
work performed by DoD. The DoD began operating under the revolving fund concept on
July 1, 1951.

Effective FY 2009, AFWCF operations consist of two major activity groups:
Consolidated Sustainment Activity Group (CSAG) and the Supply Management Activity
Group - Retail (SMAG-R). All AFWCF CSAG and SMAG-R activities establish rates
based on full cost recovery. If an operating loss or gain is incurred, the activity will make
the appropriate adjustment in following years’ prices to recoup the loss or return the gain
to their customers.

The mission of the CSAG is supply management of reparable and consumable items, and
maintenance activities. CSAG combines the activities of the previous Material Support
Division (MSD) of the Supply Management Activity Group and the Depot Maintenance
Activity Group (DMAG). Under CSAG, business operations formerly known as DMAG
are now related to the Maintenance Division. Likewise, business operations formerly
known as MSD are now referred to as the Supply Division.

Supply Division activities of CSAG are authorized to procure and manage reparable and
consumable items for which the Air Force is the Inventory Control Point. The Supply
Division manages more than 106 thousand items that are generally related to weapon
systems and ground support, and include both depot level reparables and non-depot level
reparables.

Maintenance Division activities of CSAG are authorized to perform: (a) overhaul,
conversion, reclamation, progressive maintenance, modernization, software development,
storage, modification, and repair of aircraft, missiles, engines, accessories, components,
and equipment; (b) the manufacture of parts and assemblies required to support the
foregoing; and (c) the furnishing of other authorized services or products for the
Air Force and other agencies of the DoD. As directed by the Air Force Materiel
Command or higher authority, the Maintenance Division may furnish the above
mentioned products or services to agencies of other departments or instrumentalities of
the U.S. Government, and to private parties and other agencies, as authorized by law.

The SMAG-R consists of three business divisions: General Support Division (GSD),
Medical-Dental Division, and Air Force Academy Division. GSD procures and manages
over 1.5 million consumable supply items related to maintenance, flying hour program,
and installation functions. The majority are used in support of field and depot
maintenance of aircraft, ground and airborne communication systems, and other support
systems and equipment. The Medical-Dental Division procures and manages over 7,000
medical supply items and equipment necessary to maintain an effective Air Force Health




                                                                                                       125
Working Capital Fund
Notes to the Principal Statements




                    Care system for the active military, retirees and their dependents. The Air Force
                    Academy Division procures and manages a retail inventory of uniforms, academic
                    supplies and other recurring issue requirements for the Cadet Wing of the United States
                    Air Force Academy. Inventory procurement is only for mandatory items as determined
                    by the Cadet Uniform Board.
                    1.C. Appropriations and Funds
                    The AFWCF receives appropriations and funds as general and working capital
                    (revolving) funds. The AFWCF uses these appropriations and funds to execute its
                    missions and subsequently report on resource usage.

                    Working Capital Funds (WCF) received funding to establish an initial corpus through an
                    appropriation or a transfer of resources from existing appropriations or funds. The corpus
                    finances operations and transactions that flow through the fund. The WCF resources the
                    goods and services sold to customers on a reimbursable basis and maintains the corpus.
                    Reimbursable receipts fund future operations and generally are available in their entirety
                    for use without further congressional action. At various times, Congress provides
                    additional appropriations to supplement WCF as an infusion of cash when revenues are
                    inadequate to cover costs within the corpus.
                    1.D. Basis of Accounting
                    The AFWCF financial management systems are unable to meet all full accrual
                    accounting requirements. Many of the AFWCF financial and nonfinancial feeder
                    systems and processes were designed and implemented prior to the issuance of
                    USGAAP. These systems were not designed to collect and record financial information
                    on the full accrual accounting basis as required by USGAAP. Most of AFWCF’s
                    financial and nonfinancial legacy systems were designed to record information on a
                    budgetary basis.

                    The financial statements and supporting trial balances are compiled from the underlying
                    financial data and trial balances of the sub-entities. The underlying data is largely
                    derived from budgetary transactions (obligations, disbursements, and collections), from
                    nonfinancial feeder systems, and accruals made for major items such as payroll expenses,
                    accounts payable, and environmental liabilities. Some of the sub-entity level trial
                    balances may reflect known abnormal balances resulting largely from business and
                    system processes. At the consolidated level these abnormal balances may not be evident.
                    Disclosures of abnormal balances are made in the applicable footnotes, but only to the
                    extent that the abnormal balances are evident at the consolidated level.

                    The DoD is determining the actions required to bring its financial and nonfinancial
                    feeder systems and processes into compliance with USGAAP. One such action is the
                    current revision of accounting systems to record transactions based on the
                    U.S. Standard General Ledger (USSGL). Until all AFWCF’s financial and nonfinancial
                    feeder systems and processes are updated to collect and report financial information as
                    required by USGAAP, AFWCF’s financial data will be derived from budgetary
                    transactions data from nonfinancial feeder systems, and accruals.




126
                                                                                               2009
                                                                          Working Capital Fund
                                                                          Notes to the Principal Statements



1.E. Revenues and Other Financing Sources
The CSAG Maintenance Division recognizes revenue according to the percentage of
completion method. The CSAG Supply Division and SMAG-R recognize revenue based
on flying hours executed and the sale of inventory items.
1.F. Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating
expenses in the period incurred. Current financial and nonfinancial feeder systems were
not designed to collect and record financial information on the full accrual accounting
basis. Estimates are made for major items such as payroll expenses, accounts payable,
and unbilled revenue. In the case of Operating Materiel and Supplies (OM&S), the
consumption method is used. Under the consumption method, OM&S is reported as
expenses when consumed. Due to system limitations, in some instances expenditures for
capital and other long-term assets may be recognized as operating expenses. The
AFWCF continues to implement process and system improvements to address these
limitations.
1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances
from consolidated financial statements in order to prevent overstatement for business
with itself. However, the AFWCF cannot accurately identify intragovernmental
transactions by customer because AFWCF’s systems do not track buyer and seller data
at the transaction level. Generally, seller entities within the DoD provide summary
seller-side balances for revenue, accounts receivable, and unearned revenue to the
buyer-side internal DoD accounting offices. In most cases, the buyer-side records are
adjusted to agree with DoD seller-side balances and are then eliminated. The volume of
intragovernmental transactions is so large that reconciliations cannot be accomplished
effectively. The DoD is developing long-term system improvements to ensure accurate
intragovernmental information, including developing sufficient up-front edits and
controls, eliminating the need for reconciliations.

The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide
and Treasury Financial Manual Part 2 – Chapter 4700, Agency Reporting Requirements
for the Financial Report of the United States Government, provide guidance for
reporting and reconciling intragovernmental balances. While AFWCF is unable to fully
reconcile intragovernmental transactions with all federal agencies, AFWCF is able to
reconcile balances pertaining to Federal Employees’ Compensation Act transactions
with the Department of Labor, and benefit program transactions with the Office of
Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal
Government is not included. The Federal Government does not apportion debt and its
related costs to federal agencies. The DoD’s financial statements do not report any
public debt, interest or source of public financing, whether from issuance of debt or tax
revenues.




                                                                                                      127
Working Capital Fund
Notes to the Principal Statements




                    Generally, financing for the construction of DoD facilities is obtained through
                    appropriations. To the extent this financing ultimately may have been obtained through
                    the issuance of public debt, interest costs have not been capitalized since the
                    U.S. Treasury does not allocate such costs to DoD.

                    1.H. Transactions with Foreign Governments and International Organizations
                    Each year, AFWCF sells defense articles and services to foreign governments and
                    international organizations under the provisions of the Arms Export Control Act of 1976.
                    Under the provisions of the Act, DoD has authority to sell defense articles and services to
                    foreign countries and international organizations generally at no profit or loss to the
                    Federal Government. Payment in U.S. dollars is required in advance.
                    1.I. Funds with the U.S. Treasury
                    The AFWCF’s monetary resources are maintained in U.S. Treasury accounts. The
                    disbursing offices of Defense Finance and Accounting Service (DFAS), the Military
                    Departments, the U.S. Army Corps of Engineers (USACE), and the Department of
                    State’s financial service centers process the majority of the AFWCF’s cash collections,
                    disbursements, and adjustments worldwide. Each disbursing station prepares monthly
                    reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency
                    transfers, and deposits.

                    In addition, DFAS sites and USACE Finance Center submit reports to the
                    U.S. Treasury by appropriation on interagency transfers, collections received, and
                    disbursements issued. The U.S. Treasury records these transactions to the applicable
                    Fund Balance with Treasury (FBWT) account. On a monthly basis, AFWCF’s FBWT
                    is adjusted to agree with the U.S. Treasury accounts.
                    1.J. Foreign Currency
                    Not applicable.
                    1.K. Accounts Receivable
                    Accounts receivable from other federal entities or the public include: accounts
                    receivable, claims receivable, and refunds receivable. Based upon analysis of past
                    collection experience, AFWCF does not recognize allowances for uncollectible accounts
                    due from the public. AFWCF policy is that all Nonfederal Receivables (From the Public)
                    are collected. The DoD does not recognize an allowance for estimated uncollectible
                    amounts from other federal agencies. Claims against other federal agencies are to be
                    resolved between the agencies in accordance with dispute resolution procedures defined
                    in the Intragovernmental Business Rules published in the Treasury Financial Manual at
                    http://www.fms.treas.gov/tfm/vol1/07-03.pdf.
                    1.L. Direct Loans and Loan Guarantees
                    Not applicable.




128
                                                                                                2009
                                                                           Working Capital Fund
                                                                           Notes to the Principal Statements



1.M. Inventories and Related Property
The AFWCF values approximately 99% of its resale inventory using the moving
average cost method and reports the remaining 1% of resale inventories at an
approximation of historical cost using latest acquisition cost adjusted for holding gains
and losses. The latest acquisition cost method is used because legacy inventory systems
were designed for materiel management rather than accounting. Although these
systems provide visibility and accountability over inventory items, they do not maintain
historical cost data necessary to comply with SFFAS No. 3, Accounting for Inventory
and Related Property. Additionally, these systems cannot produce financial
transactions using the USSGL, as required by the Federal Financial Management
Improvement Act of 1996 (PL 104-208). The AFWCF is continuing to transition the
balance of the inventories to the moving average cost method through the use of new
inventory systems. Most transitioned balances, however, were not baselined to
auditable historical cost and remain noncompliant with SFFAS No. 3.

The AFWCF manages only military or government-specific materiel under normal
conditions. Materiel is a unique term that relates to military force management, and
includes items such as ships, tanks, self-propelled weapons, aircraft, etc., and related
spares, repair parts, and support equipment. Items commonly used in and available from
the commercial sector are not managed in AFWCF’s materiel management activities.
Operational cycles are irregular and the military risks associated with stock-out positions
have no commercial parallel. The AFWCF holds materiel based on military need and
support for contingencies. The DoD is currently developing a methodology to be used to
account for “inventory held for sale” and “inventory held in reserve for future sale” with
a completion date of year-end FY 2010 reporting.

Related property includes OM&S which is valued at purchase price. The AFWCF uses
the consumption method of accounting for OM&S.

The AFWCF recognizes condemned materiel as "Excess, Obsolete, and Unserviceable."
The cost of disposal is greater than the potential scrap value; therefore, the net value of
condemned materiel is zero.

Inventory available and purchased for resale includes consumable spare and repair parts
and repairable items owned and managed by AFWCF. This inventory is retained to
support military or national contingencies. Inventory held for repair is damaged
inventory that requires repair to make suitable for sale. Often, it is more economical to
repair these items rather than to procure them. The AFWCF often relies on weapon
systems and machinery no longer in production. As a result, AFWCF supports a process
that encourages the repair and rebuilding of certain items. This repair cycle is essential to
maintaining a ready, mobile, and armed military force. Work in process balances include
(1) costs related to the production or servicing of items, including direct material, direct
labor, and applied overhead; (2) the value of finished products or completed services that
are yet to be placed in service; and (3) munitions in production and depot maintenance
work with its associated costs incurred in the delivery of maintenance services.




                                                                                                       129
Working Capital Fund
Notes to the Principal Statements



                    1.N. Investments in U.S. Treasury Securities
                    Not applicable.
                    1.O. General Property, Plant and Equipment
                    The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is
                    $100 thousand except for real property, which is $20 thousand. The AFWCF has not
                    fully implemented the threshold for real property; and therefore is primarily using the
                    capitalization threshold of $100 thousand for General PP&E, and most real property.

                    With the exception of USACE Civil Works and WCF, General PP&E assets are
                    capitalized at historical acquisition cost when an asset has a useful life of two or more
                    years and when the acquisition cost equals or exceeds DoD’s capitalization threshold.
                    The DoD also requires the capitalization of improvements to existing General PP&E
                    assets if the improvements equal or exceed the capitalization threshold and extend the
                    useful life or increase the size, efficiency, or capacity of the asset. The DoD depreciates
                    all General PP&E, other than land, on a straight-line basis.

                    The WCF capitalizes all General PP&E used in the performance of their mission. These
                    capitalized assets are categorized as General PP&E, whether or not it meets the definition
                    of any other General PP&E categories.

                    When it is in the best interest of the government, the AFWCF provides government
                    property to contractors to complete contract work. The AFWCF either owns or leases
                    such property, or it is purchased directly by the contractor for the government based on
                    contract terms. When the value of contractor-procured General PP&E meets or exceeds
                    the DoD capitalization threshold, federal accounting standards require that it be reported
                    on AFWCF’s Balance Sheet.

                    The DoD developed policy and a reporting process for contractors with government
                    furnished equipment that provides appropriate General PP&E information for financial
                    statement reporting. The DoD requires AFWCF to maintain, in their property systems,
                    information on all property furnished to contractors. These actions are structured to
                    capture and report the information necessary for compliance with federal accounting
                    standards. The AFWCF has not fully implemented this policy primarily due to system
                    limitations.
                    1.P. Advances and Prepayments
                    When advances are permitted by law, legislative action, or presidential authorization,
                    DoD’s policy is to record advances or prepayments in accordance with USGAAP. As
                    such, payments made in advance of the receipt of goods and services should be reported
                    as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly
                    classify assets when the related goods and services are received. The AFWCF has
                    implemented this policy.
                    1.Q. Leases
                    Not applicable.




130
                                                                                                  2009
                                                                             Working Capital Fund
                                                                             Notes to the Principal Statements



1.R. Other Assets
Other assets includes those assets, such as military and civil service employee pay
advances, travel advances, and certain contract financing payments that are not reported
elsewhere on AFWCF’s Balance Sheet.

The AFWCF conducts business with commercial contractors under two primary types of
contracts: fixed price and cost reimbursable. To alleviate the potential financial burden
on the contractor that long-term contracts can cause, AFWCF may provide financing
payments. Contract financing payments are defined in the Federal Acquisition
Regulations, Part 32, as authorized disbursements to a contractor prior to acceptance of
supplies or services by the Government. Contract financing payments clauses are
incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advances and interim payments, progress
payments based on cost, and interim payments under certain cost-reimbursement
contracts. It is DoD policy to record certain contract financing payments as other assets.
The AFWCF has not fully implemented this policy primarily due to system limitations.

Contract financing payments do not include invoice payments, payments for partial
deliveries, lease and rental payments, or progress payments based on a percentage or
stage of completion. The Defense Federal Acquisition Regulation Supplement authorizes
progress payments based on a percentage or stage of completion only for construction of
real property, shipbuilding, and ship conversion, alteration, or repair. Progress payments
based on percentage or stage of completion are reported as Construction in Progress.
1.S. Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by
SFFAS No. 12, Recognition of Contingent Liabilities Arising from Litigation, defines a
contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or
more future events occur or fail to occur. The AFWCF recognizes contingent liabilities
when past events or exchange transactions occur, a future loss is probable, and the loss
amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability
recognition do not exist but there is at least a reasonable possibility of incurring a loss or
additional losses. The AFWCF’s risk of loss and resultant contingent liabilities arise
from pending or threatened litigation or claims and assessments due to events such as
aircraft, ship and vehicle accidents; medical malpractice; property or environmental
damages; and contract disputes.
1.T. Accrued Leave
The AFWCF reports liabilities for military leave and accrued compensatory and annual
leave for civilians. Sick leave for civilians is expensed as taken. The liabilities are based
on current pay rates.
1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.




                                                                                                         131
Working Capital Fund
Notes to the Principal Statements




                    Unexpended Appropriations represent the amounts of budget authority that are
                    unobligated and have not been rescinded or withdrawn. Unexpended appropriations also
                    represent amounts obligated for which legal liabilities for payments have not been
                    incurred.

                    Cumulative Results of Operations represent the net difference between expenses and
                    losses, and financing sources (including appropriations, revenue, and gains), since
                    inception. The cumulative results of operations also include donations and transfers in
                    and out of assets that were not reimbursed.
                    1.V. Treaties for Use of Foreign Bases
                    Not applicable.
                    1.W. Unexpended Obligations
                    The AFWCF obligates funds to provide goods and services for outstanding orders not yet
                    delivered. Unless the title has passed, the financial statements do not reflect liability for
                    payment for goods and services not yet delivered. Unexpended obligations includes both
                    obligations for which goods and services have been delivered (title passed) and a liability
                    recognized, and obligations for which no delivery has occurred and no liability
                    recognized. The balance of unexpended obligations appears immediately before net
                    outlays in the Statement of Budgetary Resources, and is referred to as “Total, unpaid
                    obligated balances, net, end of period.”
                    1.X. Undistributed Disbursements and Collections
                    Undistributed disbursements and collections represent the difference between
                    disbursements and collections matched at the transaction level to specific obligations,
                    payables, or receivables in the source systems and those reported by the U.S. Treasury.

                    Supported disbursements and collections are evidenced by corroborating documentation.
                    Unsupported disbursements and collections do not have supporting documentation for the
                    transaction and most likely would not meet audit scrutiny.

                    The DoD policy is to allocate supported undistributed disbursements and collections
                    between federal and nonfederal categories based on the percentage of distributed federal
                    and nonfederal accounts payable and accounts receivable. Supported undistributed
                    disbursements and collections are then applied to reduce accounts payable and receivable
                    accordingly. Unsupported undistributed disbursements are recorded as disbursements
                    intransit and reduce nonfederal accounts payable. Unsupported undistributed collections
                    are recorded in nonfederal other liabilities.
                    1.Y. Significant Events
                    The AFWCF processed two prior period adjustments (PPA) totaling $3.4 billion for
                    material errors associated with inventory.

                    The first PPA in the amount of $1.7 billion was processed due to a material error
                    occurring when components of kits in the Standard Base Supply System (SBSS) were
                    transferred from Readiness Spares Packages (RSP) and War Readiness Material (WRM)




132
                                                                                               2009
                                                                           Working Capital Fund
                                                                          Notes to the Principal Statements




to Peace Time Operating (POS) stock. The resulting financial transactions were coded
incorrectly causing the subject inventory to be treated financially as a lateral shipment of
inventory instead of an inventory reclassification within the Consolidated Sustainment
Activity Group-Supply Division (CSAG-Supply) Inventory. Therefore, AF inventory
was inadvertently double counted and an inappropriate gain was recorded in the Standard
Material Accounting System (SMAS). We have documented 76,120 erroneous
transactions totaling $1.7 billion for FY 2004 – 2007 that were treated in this manner.

The second PPA in the amount of $1.7 billion was processed due to a material error
where receipts from repair contractors were coded incorrectly for CSAG-Supply Working
Capital Inventory. AFMC Inventory was double counted and a gain was recorded when
the receipt was not coded to relieve the In-Transit Inventory account at the time Air Force
inventory was received back from the repair contractor. We have documented 23,367
erroneous transactions totaling $1.7 billion for FY 2001 – 2008 that were treated in this
manner.
1.Z. Fiduciary Activities
Not Applicable




                                                                                                      133
Working Capital Fund
Notes to the Principal Statements




   Note 2.        Nonentity Assets


   As of September 30                                              2009                                  2008
   (Amounts in thousands)

   1. Intragovernmental Assets
      A. Fund Balance with Treasury                $                                  0    $                            0
      B. Accounts Receivable                                                          0                                 0
      C. Total Intragovernmental Assets            $                                  0    $                            0

   2. Nonfederal Assets
      A. Cash and Other Monetary Assets            $                                  0    $                            0
      B. Accounts Receivable                                                        425                                 0
      C. Other Assets                                                                 0                                 0
      D. Total Nonfederal Assets                   $                                425    $                            0


   3. Total Nonentity Assets                       $                                425    $                            0

   4. Total Entity Assets                          $                          33,323,911   $                    33,674,522


   5. Total Assets                                 $                          33,324,336   $                    33,674,522

       Asset accounts are categorized as either entity or nonentity. Entity accounts consist of resources
       that are available for use in the operations of the entity. The AFWCF is authorized to decide how to
       use resources in entity accounts. The AFWCF may be legally obligated to use these resources to
       meet entity obligations.

       Nonentity assets are assets for which the AFWCF maintains stewardship accountability and
       reporting responsibility, but are not available for the AFWCF’s normal operations.

       These nonentity assets are interest/penalties/administrative fees that will be forwarded to the
       General Fund of the Treasury upon collection.




134
                                                                                                             2009
                                                                                        Working Capital Fund
                                                                                        Notes to the Principal Statements




Note 3.      Fund Balance with Treasury

As of September 30                                            2009                                 2008
(Amounts in thousands)


1. Fund Balances
   A. Appropriated Funds                         $                              0   $                                 0
   B. Revolving Funds                                                     697,367                               959,598
   C. Trust Funds                                                               0                                     0
   D. Special Funds                                                             0                                     0
   E. Other Fund Types                                                          0                                     0
   F. Total Fund Balances                        $                        697,367   $                           959,598



2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                  $                      1,409,119   $                         1,384,148
   B. Fund Balance per AFWCF                                              697,367                               959,598

3. Reconciling Amount                            $                        711,752   $                           424,550




The reconciling amount represents $711.8 million for the United States Transportation Command
(USTC), which is reported by the U.S. Treasury as part of the AFWCF. However, for the purposes of
Audited Financial Statements (AFS), USTC is included with the Other Defense Organizations reporting
which is separate from the AFWCF. Therefore, USTC funds are not included in the AFWCF AFS.




                                                                                                                    135
Working Capital Fund
Notes to the Principal Statements




   Status of Fund Balance with Treasury

   As of September 30                                          2009                                  2008
   (Amounts in thousands)
   1. Unobligated Balance
      A. Available                             $                             373,638    $                      343,595
      B. Unavailable                                                               0                                 0

   2. Obligated Balance not yet Disbursed      $                           7,522,917    $                    7,946,888

   3. Nonbudgetary FBWT                        $                                   0    $                            0

   4. NonFBWT Budgetary Accounts               $                          (7,199,188)   $                   (7,330,885)

   5. Total                                    $                             697,367    $                      959,598



       The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support the
       FBWT and is a reconciliation between budgetary and proprietary accounts. It primarily consists of
       unobligated and obligated balances. The balances reflect the budgetary authority remaining for
       disbursement against current or future obligations.

       Unobligated Balance is classified as available or unavailable and represents the cumulative amount
       of budgetary authority that has not been set aside to cover outstanding obligations. Certain
       unobligated balances are restricted for future use and are not apportioned for current use.

       Obligated balance not yet disbursed represents funds that have been obligated for goods and
       services not received, and those received but not paid.

       Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as unavailable
       receipt accounts or clearing accounts. AFWCF has no Nonbudgetary FBWT.

       NonFBWT Budgetary Accounts reduces the Status of FBWT such as contract authority, accounts
       receivable, as well as the unfilled orders without advance from customers.

       Unobligated balances are segregated to show available and unavailable amounts in the note
       schedule. Certain unobligated balances may be restricted to future use and are not apportioned for
       current use. There are no restrictions on the Unobligated Balance.

   Note 4. Investment and Related Interest

   The AFWCF has no Investment and Related Interest.




136
                                                                                                            2009
                                                                                       Working Capital Fund
                                                                                       Notes to the Principal Statements




Note 5.     Accounts Receivable


As of September 30                                             2009
                                                       Allowance For Estimated
                           Gross Amount Due                                          Accounts Receivable, Net
                                                            Uncollectibles
(Amounts in
     thousands)
1. Intragovernmental
   Receivables         $                 718,662                           N/A   $                       718,662
2. Nonfederal
   Receivables (From
   the Public)         $                 152,109   $                         0   $                       152,109

3. Total Accounts
   Receivable          $                 870,771   $                         0   $                       870,771


As of September 30                                             2008
                                                       Allowance For Estimated
                           Gross Amount Due                                          Accounts Receivable, Net
                                                            Uncollectibles
(Amounts in
     thousands)
1. Intragovernmental
   Receivables         $                 786,751                           N/A   $                       786,751
2. Nonfederal
   Receivables (From
   the Public)         $                 117,894   $                         0   $                       117,894

3. Total Accounts
   Receivable          $                 904,645   $                         0   $                       904,645




                                                                                                                   137
Working Capital Fund
Notes to the Principal Statements




   Note 6.        Other Assets


   As of September 30                                                       2009                           2008
   (Amounts in thousands)

   1. Intragovernmental Other Assets
      A. Advances and Prepayments                               $                        420   $                     618
      B. Other Assets                                                                      0                           0
      C. Total Intragovernmental Other Assets                   $                        420   $                     618

   2. Nonfederal Other Assets
      A. Outstanding Contract Financing Payments                $                    179,766   $                  148,718
      B. Advances and Prepayments                                                     78,619                       57,987
      C. Other Assets (With the Public)                                              144,318                      181,972
      D. Total Nonfederal Other Assets                          $                    402,703   $                  388,677


   3. Total Other Assets                                        $                    403,123   $                  389,295

      Contract terms and conditions for certain types of contract financing payments convey certain rights
      to the AFWCF that protect the contract work from state or local taxation, liens or attachment by the
      contractor's creditors, transfer of property, or disposition in bankruptcy; however, these rights should
      not be misconstrued to mean that ownership of the contractor’s work has transferred to the Federal
      Government. The Federal Government does not have the right to take the work, except as provided
      in contract clauses related to termination or acceptance, and AFWCF is not obligated to make
      payment to the contractor until delivery and acceptance.

      The Contract Financing Payments balance of $179.8 million is comprised of $155.6 million in
      contract financing payments and an additional $24.2 million in estimated future payments that will
      be paid to the contractor upon future delivery and Government acceptance of a satisfactory product.
      (See additional discussion in Note 15, Other Liabilities).

      The Nonfederal Other Assets – Other Assets (With the Public) balance of $144.3 million is
      comprised primarily of $143.9 million for Supply Management Activity Group’s assets returned to
      vendors for which credit is pending. There will be no dollar payments received for this credit but
      vendor billings will be offset.

   Note 7. Cash and Other Monetary Assets

   The AFWCF has no Cash and Other Monetary Assets.

   Note 8. Direct Loan and Loan Guarantees
   The AFWCF has no Direct Loan and/or Loan Guarantee Programs.




138
                                                                                                             2009
                                                                                        Working Capital Fund
                                                                                        Notes to the Principal Statements




Note 9.       Inventory and Related Property


As of September 30                                           2009                                 2008 Restated
(Amounts in thousands)

1. Inventory, Net                            $                         29,915,921   $                        30,063,021
2. Operating Materiel & Supplies, Net                                     143,417                               193,577
3. Stockpile Materiel, Net                                                      0                                     0

4. Total                                     $                         30,059,338   $                        30,256,598

   The AFWCF processed two prior period adjustments (PPA) totaling $3.4 billion for correction of
   material errors associated with inventory.

   The first PPA in the amount of $1.7 billion was processed due to a material error occurring when
   components of kits in the Standard Base Supply System (SBSS) were transferred from Readiness Spares
   Packages (RSP) and War Readiness Material (WRM) to Peace Time Operating (POS) stock. The resulting
   financial transactions were coded incorrectly causing the subject inventory to be treated financially as a
   lateral shipment of inventory instead of an inventory reclassification within the Consolidated Sustainment
   Activity Group-Supply Division (CSAG-Supply) Inventory. Therefore, AF inventory was inadvertently
   double counted and an inappropriate gain was recorded in the Standard Material Accounting System
   (SMAS). We have documented 76,120 erroneous transactions totaling $1.7 billion for FY 2004 – 2007 that
   were treated in this manner.

   The second PPA in the amount of $1.7 billion was processed due to a material error where receipts from
   repair contractors were coded incorrectly for CSAG-Supply Working Capital Inventory. AFMC Inventory
   was double counted and a gain was recorded when the receipt was not coded to relieve the In-Transit
   Inventory account at the time Air Force inventory was received back from the repair contractor. We have
   documented 23,367 erroneous transactions totaling $1.7 billion for FY 2001 – 2008 that were treated in this
   manner.

   The effects of these PPAs on the financial statements are reflected in Note 26, Restatements.




                                                                                                                    139
Working Capital Fund
Notes to the Principal Statements




   Inventory, Net

   As of September 30                                                    2009
                                        Inventory,                                                                   Valuation
                                                                   Revaluation Allowance       Inventory, Net
                                       Gross Value                                                                    Method
   (Amounts in thousands)

   1. Inventory Categories
      A. Available and
         Purchased for
         Resale                    $            19,339,696     $                    (1,462)             19,338,234    LAC,MAC
      B. Held for Repair                        14,885,175                      (4,348,938)             10,536,237    LAC,MAC
      C. Excess, Obsolete,
         and Unserviceable                           186,549                     (186,549)                      0      NRV
      D. Raw Materiel                                      0                             0                      0    MAC,SP,LAC
      E. Work in Process                              41,450                               0                41,450          AC


      F. Total                     $            34,452,870     $                (4,536,949)             29,915,921


   As of September 30                                                    2008 Restated
                                        Inventory,                                                                   Valuation
                                                                   Revaluation Allowance       Inventory, Net
                                       Gross Value                                                                    Method
   (Amounts in thousands)

   1. Inventory Categories
      A. Available and
         Purchased for
         Resale                    $            19,646,199     $                   (10,479)             19,635,720    LAC,MAC
      B. Held for Repair                        14,439,808                      (4,145,848)             10,293,960    LAC,MAC
      C. Excess, Obsolete,
         and Unserviceable                           472,249                     (472,249)                      0      NRV
      D. Raw Materiel                                      0                             0                      0    MAC,SP,LAC
      E. Work in Process                             133,341                               0               133,341          AC


      F. Total                     $            34,691,597     $                (4,628,576)             30,063,021

   Legend for Valuation Methods:
   LAC = Latest Acquisition Cost                NRV = Net Realizable Value                      MAC = Moving Average Cost
   SP = Standard Price                          LCM = Lower of Cost or Market
   AC = Actual Cost                             O = Other


       Restrictions

       There are no restrictions on the use, sale, or disposition of inventory except for War Reserve
       Materiel and nuclear related spare parts.

       General Composition of Inventory

       Inventory includes weapon system consumable and reparable parts, base supply items, and medical-
       dental supplies. Inventory is tangible personal property that is held for sale or held for repair for




140
                                                                                                            2009
                                                                                        Working Capital Fund
                                                                                       Notes to the Principal Statements




eventual sale, in the process of production for sale, or to be consumed in the production of goods
for sale or in the provision of services for a fee.

Definitions

Inventory Available and Purchased for Resale includes consumable and reparable parts owned and
managed by AFWCF.

Inventory Held for Repair is damaged inventory that requires repair to make it suitable for sale.
Many of the inventory items are more economical to repair than to procure. In addition, because
AFWCF often relies on weapon systems and machinery no longer in production, AFWCF supports
a process that encourages the repair and rebuilding of certain items. This repair cycle is essential to
maintaining a ready, mobile, and armed military force.

Excess, Obsolete, and Unserviceable inventory consists of obsolete, excess to requirements, or
items that cannot be economically repaired and are awaiting disposal.

Work in Process balances include costs related to the production or servicing of items, including
direct material, direct labor, applied overhead, and other direct costs. Work in Process also includes
the value of finished products or completed services pending the submission of bills to the
customer.




                                                                                                                   141
Working Capital Fund
Notes to the Principal Statements




   Operating Materiel and Supplies, Net

   As of September 30                                                    2009
                                          OM&S                                                                    Valuation
                                                               Revaluation Allowance         OM&S, Net
                                        Gross Value                                                                Method
   (Amounts in thousands)

   1. OM&S Categories
     A. Held for Use               $                 143,417   $                     0   $            143,417    SP, LAC, MAC
     B. Held for Repair                                    0                         0                      0    SP, LAC, MAC
     C. Excess, Obsolete, and
        Unserviceable                                      0                         0                      0        NRV


     D. Total                      $                 143,417   $                     0   $            143,417


   As of September 30                                                  2008
                                         OM&S                                                                     Valuation
                                                               Revaluation Allowance         OM&S, Net
                                       Gross Value                                                                 Method
   (Amounts in
      thousands)

   1. OM&S Categories
     A. Held for Use         $                       193,577   $                     0   $            193,577    SP, LAC, MAC
     B. Held for Repair                                    0                         0                      0    SP, LAC, MAC
     C. Excess, Obsolete,
        and Unserviceable                                  0                         0                      0        NRV


     D. Total                $                       193,577   $                     0   $            193,577

   Legend for Valuation Methods:
   LAC = Latest Acquisition Cost                     NRV = Net Realizable Value                MAC = Moving Average Cost
   SP = Standard Price                               LCM = Lower of Cost or Market
   AC = Actual Cost                                  O = Other


       General Composition of Operating Materiel and Supplies

       Operating Materiel and Supplies (OM&S) includes consumable parts and supplies used to
       remanufacture spare parts and repair weapons systems.

       Restrictions

       There are no restrictions on the use, sale, or disposition of OM&S.

       Definition

       Held for Use includes consumable parts and supplies.


   Stockpile Materials, Net
  Not Applicable
142
                                                                                                                                           2009
                                                                                                                   Working Capital Fund
                                                                                                                   Notes to the Principal Statements




Note 10.            General PP&E, Net

 As of September 30                                                              2009
                             Depreciation/                                                  (Accumulated
                                               Service        Acquisition                                                  Net Book
                             Amortization                                                   Depreciation/
                                                Life            Value                                                       Value
                               Method                                                       Amortization)
 (Amounts in thousands)

 1. Major Asset Classes
    A. Land                      N/A            N/A       $                        0                        N/A    $                          0
    B. Buildings,
       Structures, and
       Facilities                 S/L         20 Or 40                       974,901    $              (671,482)                        303,419
    C. Leasehold
       Improvements               S/L        lease term                             0                          0                              0
    D. Software                   S/L         2-5 Or 10                     1,137,415                  (909,880)                        227,535
    E. General
       Equipment                  S/L          5 or 10                      2,351,361                (1,645,858)                        705,503
    F. Military Equipment         S/L          Various                              0                          0                              0
    G. Shipbuilding
       (Construction-in-
       Progress)                 N/A            N/A                                0                          0                               0
    H. Assets Under
       Capital Lease              S/L        lease term                            0                          0                               0
    I. Construction-in-
       Progress
       (Excludes Military
       Equipment)                N/A            N/A                           57,280                        N/A                          57,280
    J. Other                                                                       0                          0                               0
    K. Total General
       PP&E                                               $                 4,520,957   $            (3,227,220)   $                  1,293,737


 As of September 30                                                              2008
                             Depreciation/                                                  (Accumulated
                                               Service        Acquisition                                                  Net Book
                             Amortization                                                   Depreciation/
                                                Life            Value                                                       Value
                               Method                                                       Amortization)
 (Amounts in thousands)

 1. Major Asset Classes
    A. Land                      N/A             N/A      $                       0                         N/A    $                         0
    B. Buildings,
       Structures, and
       Facilities                 S/L         20 Or 40                      932,320     $             (673,436)                        258,884
    C. Leasehold
       Improvements               S/L        lease term                         0                             0                              0
    D. Software                   S/L         2-5 Or 10                 1,097,939                     (831,623)                        266,316
    E. General
       Equipment                  S/L          5 or 10                  2,157,924                   (1,573,174)                        584,750
    F. Military Equipment         S/L          Various                          0                             0                              0
    G. Shipbuilding
       (Construction-in-
       Progress)                 N/A             N/A                              0                           0                              0
    H. Assets Under
       Capital Lease              S/L        lease term                           0                          0                               0
    I. Construction-in-
       Progress (Excludes
       Military Equipment)       N/A             N/A                         54,436                         N/A                         54,436
    J. Other                                                                      0                           0                              0
    K. Total General
       PP&E                                               $             4,242,619       $           (3,078,233)    $                  1,164,386

 1
  Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line      N/A = Not Applicable

AFWCF does not have any restrictions on the use or convertibility of General PP&E.

                                                                                                                                                  143
Working Capital Fund
Notes to the Principal Statements



      Assets Under Capital Lease
      The AFWCF has no Assets Under Capital Lease.


   Note 11.         Liabilities Not Covered by Budgetary Resources


   As of September 30                                                    2009                             2008
   (Amounts in thousands)

   1. Intragovernmental Liabilities
      A. Accounts Payable                                   $                             0    $                        0
      B. Debt                                                                             0                             0
      C. Other                                                                            0                             0
      D. Total Intragovernmental Liabilities                $                             0    $                        0

   2. Nonfederal Liabilities
      A. Accounts Payable                                   $                             0    $                        0
      B. Military Retirement and
         Other Federal Employment Benefits                                          193,709                       217,337
      C. Environmental Liabilities                                                        0                             0
      D. Other Liabilities                                                                0                        28,376
      E. Total Nonfederal Liabilities                       $                       193,709    $                  245,713

   3. Total Liabilities Not Covered by Budgetary
      Resources                                             $                       193,709    $                  245,713


   4. Total Liabilities Covered by Budgetary Resources      $                      1,460,241   $                 1,594,591

   5. Total Liabilities                                     $                      1,653,950   $                 1,840,304


       Liabilities not covered by budgetary resources are liabilities for which congressional action is
       needed before budgetary resources can be provided.

       Military Retirement and Other Federal Employment Benefits consists of various employee actuarial
       liabilities not due and payable during the current fiscal year. These liabilities primarily consist of
       $193.7 million for Federal Employee’s Compensation Act. Refer to Note 17, Military Retirement
       and Other Federal Employment Benefits, for additional details and disclosures.




144
                                                                                                                 2009
                                                                                            Working Capital Fund
                                                                                            Notes to the Principal Statements




Note 12.       Accounts Payable

As of September 30                                               2009

                                                         Interest, Penalties, and
                             Accounts Payable                                                        Total
                                                           Administrative Fees

(Amounts in thousands)

1. Intragovernmental
     Payables            $                 153,539   $              N/A                 $                     153,539
2. Nonfederal Payables
     (to the Public)                       796,397                                  0                         796,397

3. Total                 $                 949,936   $                              0   $                     949,936


As of September 30                                               2008

                                                         Interest, Penalties, and
                             Accounts Payable                                                        Total
                                                           Administrative Fees

(Amounts in thousands)

1. Intragovernmental
     Payables            $                  94,776   $              N/A                 $                       94,776
2. Nonfederal Payables
     (to the Public)                       817,558                                  0                         817,558

3. Total                 $                 912,334   $                              0   $                     912,334

   Accounts Payable include amounts owed to federal and nonfederal entities for goods and services
   received by AFWCF. The AFWCF’s systems do not track intragovernmental transactions by
   customer at the transaction level. Buyer-side accounts payable are adjusted to agree with internal
   seller-side accounts receivable. Accounts payable were adjusted by reclassifying amounts between
   federal and nonfederal accounts payable.


Note 13. Debt
The AFWCF has no Debt.

Note 14. Environmental Liabilities and Disposal Liabilities
The AFWCF has no Environmental Liabilities and Disposal Liabilities.




                                                                                                                         145
Working Capital Fund
Notes to the Principal Statements




   Note 15.          Other Liabilities

   As of September 30                                                  2009
                                         Current                   Noncurrent
                                                                                             Total
                                         Liability                  Liability
   (Amounts in thousands)

   1. Intragovernmental
      A. Advances from Others        $               (1,004)   $                    0    $           (1,004)
      B. Deposit Funds and
         Suspense Account
         Liabilities                                      0                         0                     0
      C. Disbursing Officer Cash                          0                         0                     0
      D. Judgment Fund Liabilities                        0                         0                     0
      E. FECA Reimbursement to
         the Department of Labor                          0                         0                     0
      F. Custodial Liabilities                          425                         0                   425
     G. Employer Contribution and
         Payroll Taxes Payable                        14,110                        0                 14,110
     H. Other Liabilities                                  0                        0                      0

      I. Total Intragovernmental
         Other Liabilities           $                13,531   $                    0    $            13,531

   2. Nonfederal
      A. Accrued Funded Payroll
          and Benefits               $               169,070   $                    0    $           169,070
      B. Advances from Others                         26,297                        0                 26,297
      C. Deferred Credits                                  0                        0                      0
      D. Deposit Funds and
          Suspense Accounts                               0                         0                     0
      E. Temporary Early
          Retirement Authority                            0                         0                     0
      F. Nonenvironmental
          Disposal Liabilities
           (1) Military Equipment
           (Nonnuclear)                                   0                         0                     0
           (2) Excess/Obsolete
           Structures                                     0                         0                     0
           (3) Conventional
           Munitions Disposal                             0                         0                     0
      G. Accrued Unfunded Annual
          Leave                                           0                         0                     0
      H. Capital Lease Liability                           0                        0                      0
       I. Contract Holdbacks                           3,352                        0                  3,352
      J. Employer Contribution and
          Payroll Taxes Payable                            0                         0                     0
      K. Contingent Liabilities                            0                    24,176                24,176
      L. Other Liabilities                           273,878                         0               273,878

      M. Total Nonfederal Other
         Liabilities                 $               472,597   $                24,176   $           496,773


   3. Total Other Liabilities        $               486,128   $                24,176   $           510,304



146
                                                                                                           2009
                                                                                      Working Capital Fund
                                                                                      Notes to the Principal Statements




As of September 30                                                  2008
                                      Current                   Noncurrent
                                                                                                  Total
                                      Liability                  Liability
(Amounts in thousands)

1. Intragovernmental
   A. Advances from Others        $                74,062   $                    0    $                       74,062
   B. Deposit Funds and
      Suspense Account
      Liabilities                                      0                         0                                0
   C. Disbursing Officer Cash                          0                         0                                0
   D. Judgment Fund Liabilities                        0                         0                                0
   E. FECA Reimbursement to
      the Department of Labor                          0                         0                                0
   F. Custodial Liabilities                            0                         0                                0
  G. Employer Contribution and
      Payroll Taxes Payable                        12,240                        0                            12,240
  H. Other Liabilities                                  0                        0                                 0

   I. Total Intragovernmental
      Other Liabilities           $                86,302   $                    0    $                       86,302

2. Nonfederal
   A. Accrued Funded Payroll
       and Benefits               $               151,662   $                    0    $                      151,662
   B. Advances from Others                         24,926                        0                            24,926
   C. Deferred Credits                                  0                        0                                 0
   D. Deposit Funds and
       Suspense Accounts                               0                         0                                0
   E. Temporary Early
       Retirement Authority                            0                         0                                0
   F. Nonenvironmental
       Disposal Liabilities
        (1) Military Equipment
        (Nonnuclear)                                   0                         0                                0
        (2) Excess/Obsolete
        Structures                                     0                         0                                0
        (3) Conventional
        Munitions Disposal                             0                         0                                0
   G. Accrued Unfunded Annual
       Leave                                           0                         0                                0
   H. Capital Lease Liability                          0                         0                                0
    I. Contract Holdbacks                           1,990                        0                             1,990
   J. Employer Contribution and
       Payroll Taxes Payable                            0                         0                                0
   K. Contingent Liabilities                            0                    21,955                           21,955
   L. Other Liabilities                           423,798                         0                          423,798

   M. Total Nonfederal Other
      Liabilities                 $               602,376   $                21,955   $                      624,331


3. Total Other Liabilities        $               688,678   $                21,955   $                      710,633




                                                                                                                  147
Working Capital Fund
Notes to the Principal Statements




  AFWCF has an abnormal balance on line 1.A. Intragovernmental Advances from Others in the
  amount of $1.0 million that occurred in the 4th Quarter, FY 2009. The abnormal balance was
  caused by an overliquidation of a previous progress billing. Research has been initiated to
  determine the root cause and anticipate the analysis to be completed and balance corrected during
  1st Quarter, FY 2010.

  The majority of the Nonfederal Other Liabilities balance is comprised of $225.9 million for
  Contract Depot Maintenance Activity Group’s accrued material and labor liabilities.

  Contingent liabilities include $24.2 million related to contracts authorizing progress payments
  based on cost as defined in the Federal Acquisition Regulation (FAR). In accordance with contract
  terms, specific rights to the contractors’ work vests with the Federal Government when a specific
  type of contract financing payment is made. This action protects taxpayer funds in the event of
  contract nonperformance. These rights should not be misconstrued as the rights of ownership.
  The AFWCF is under no obligation to pay the contractor for amounts greater than the amounts
  authorized in the contract until delivery and Government acceptance. Due to the probability the
  contractors will complete their efforts and deliver satisfactory products, and because the amount of
  potential future payments are estimable, the AFWCF has recognized a contingent liability for
  estimated future payments which are conditional pending delivery and Government acceptance.

  Total contingent liabilities for progress payments based on cost represent the difference between
  the estimated costs incurred to date by contractors and amounts authorized to be paid under
  progress payments based on cost provisions within the FAR. Estimated contractor-incurred costs
  are calculated by dividing the cumulative unliquidated progress payments based on cost by the
  contract-authorized progress payment rate. The balance of unliquidated progress payments based
  on cost is deducted from the estimated total contractor-incurred costs to determine the contingency
  amount.

   Capital Lease Liability
   The AFWCF has no Capital Lease Liability.




148
                                                                                                                                                2009
                                                                                                                      Working Capital Fund
                                                                                                                      Notes to the Principal Statements




Note 16.          Commitments and Contingencies


       The AFWCF is a party in various administrative proceedings and legal actions, related to claims
       for environmental damage, equal opportunity matters, and contractual bid protests.
       The AFWCF’s Office of the General Counsel considers the possibility of the AFWCF sustaining
       any losses on these legal actions to be remote.

       The AFWCF is a party in numerous individual contracts that contain clauses, such as price
       escalation, award fee payments, or dispute resolution, that may result in a future outflow of
       expenditures. Currently, AFWCF has limited automated system processes by which it captures
       or assesses these potential contingent liabilities; therefore no associated liabilities are recognized
       or disclosed.

Note 17.              Military Retirement and Other Federal Employment Benefits


As of September 30                                                                    2009
                                                             Assumed
                                                                             (Less: Assets Available to Pay
                                     Liabilities              Interest                                                   Unfunded Liabilities
                                                                                       Benefits)
                                                             Rate (%)
(Amounts in thousands)

1. Pension and Health
   Actuarial Benefits
  A. Military Retirement
     Pensions                $                          0                $                                    0   $                              0
  B. Military Retirement
     Health Benefits                                    0                                                     0                                  0
  C. Military Medicare-
     Eligible Retiree
     Benefits                                           0                                                     0                                  0
  D. Total Pension and
     Health Actuarial
     Benefits                $                          0                $                                    0   $                              0

2. Other Actuarial
   Benefits
  A. FECA                    $                     193,710               $                                    0   $                         193,710
  B. Voluntary Separation
     Incentive Programs                                 0                                                     0                                  0
  C. DoD Education
     Benefits Fund                                      0                                                     0                                  0
  D. Total Other Actuarial
     Benefits                $                     193,710               $                                    0   $                         193,710

3. Other Federal
   Employment Benefits       $                          0                $                                    0   $                              0

4. Total Military
   Retirement and Other
   Federal Employment
   Benefits:                 $                     193,710               $                                    0   $                         193,710

   Actuarial Cost Method Used:
   Assumptions:
   Market Value of Investments in Market-based and Marketable Securities:


                                                                                                                                                      149
Working Capital Fund
Notes to the Principal Statements




   As of September 30                                                                    2008
                                                                Assumed
                                                                                (Less: Assets Available to Pay
                                        Liabilities              Interest                                                Unfunded Liabilities
                                                                                          Benefits)
                                                                Rate (%)
   (Amounts in thousands)

   1. Pension and Health
      Actuarial Benefits
     A. Military Retirement
        Pensions                $                          0                $                                    0   $                           0
     B. Military Retirement
        Health Benefits                                    0                                                     0                               0
     C. Military Medicare-
        Elig ble Retiree
        Benefits                                           0                                                     0                               0
     D. Total Pension and
        Health Actuarial
        Benefits                $                          0                $                                    0   $                           0

   2. Other Actuarial
      Benefits
     A. FECA                    $                     217,337               $                                    0   $                      217,337
     B. Voluntary Separation
        Incentive Programs                                 0                                                     0                               0
     C. DoD Education
        Benefits Fund                                      0                                                     0                               0
     D. Total Other Actuarial
        Benefits                $                     217,337               $                                    0   $                      217,337

   3. Other Federal
      Employment Benefits       $                          0                $                                    0   $                           0

   4. Total Military
      Retirement and Other
      Federal Employment
      Benefits:                 $                     217,337               $                                    0   $                      217,337

      Actuarial Cost Method Used:
      Assumptions:
      Market Value of Investments in Market-based and Marketable Securities:


       Federal Employees Compensation Act (FECA)

       The AFWCF actuarial liability for workers’ compensation benefits is developed by the Department
       of Labor and is updated at the end of each fiscal year. The liability includes the estimated liability
       for death, disability, medical, and miscellaneous costs for approved compensation cases, plus a
       component for incurred but not reported claims. The liability is determined using a method that
       utilizes historical benefit payment patterns related to a specific incurred period to predict the
       ultimate payments. The projected annual benefit payments are discounted to present value using
       the Office of Management and Budget’s (OMB’s) economic assumptions for 10-year Treasury
       notes and bonds. Cost of living adjustments (COLAs) and consumer price index medical (CPIM)
       factors are applied to the calculation of projected future benefits.

       Air Force Working Capital Fund

       The liability for future workers’ compensation (FWC) benefits includes the expected liability for
       death, disability, medical, and miscellaneous costs for approved compensation cases, plus a
       component for incurred but not reported claims. The liability is determined using a method that
       utilizes historical benefit payment patterns related to a specific incurred period to predict the


150
                                                                                                              2009
                                                                                         Working Capital Fund
                                                                                         Notes to the Principal Statements




ultimate payments related to that period. Consistent with past practice, these projected annual
benefits payments have been discounted to present value using the OMB’s economic assumptions
for 10-year Treasury notes and bonds. Interest rate assumptions utilized for discounting were as
follows:

            2009
            4.223% in Year 1
            4.715% in Year 2
            and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’
compensation benefits, wage inflation factors (COLAs) and medical inflation factors (CPIMs) were
applied to the calculation of projected future benefits. The actual rates for these factors for the
charge back year (CBY) 2009 were also used to adjust the methodology’s historical payments to
current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBY were as follows:

            CBY                                                    COLA         CPIM
            2009                                                   N/A          N/A
            2010                                                   0.47%        3.42%
            2011                                                   1.40%        3.29%
            2012                                                   1.50%        3.48%
            2013                                                   1.80%        3.71%
            2014+                                                  2.00%        3.71%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The
analysis was based on four tests: (1) a sensitivity analysis of the model to economic assumptions,
(2) a comparison of the percentage change in the liability amount by agency to the percentage
change in the actual incremental payments, (3) a comparison of the incremental paid losses per case
(a measure of case-severity) in CBY 2009 to the average pattern observed during the most current
three charge back years, and (4) a comparison of the estimated liability per case in the 2009
projection to the average pattern for the projections of the most recent three years.




                                                                                                                     151
Working Capital Fund
Notes to the Principal Statements




   Note 18.              General Disclosures Related to the Statement of Net Cost


   Intragovernmental Costs and Exchange Revenue

   As of September 30                                                 2009                              2008 Restated

   (Amounts in thousands)


   1. Intragovernmental Costs                           $                        2,293,064   $                   4,292,130
   2. Public Costs                                                               8,241,327                       6,435,022
   3. Total Costs                                       $                      10,534,391    $                  10,727,152



   4. Intragovernmental Earned Revenue                  $                     (10,030,681)   $                 (10,176,218)
   5. Public Earned Revenue                                                      (349,388)                       (608,692)
   6. Total Earned Revenue                              $                     (10,380,069)   $                 (10,784,910)


   7. Net Cost of Operations                            $                         154,322    $                     (57,758)

       Intragovernmental costs and revenue are related to transactions made between two reporting entities
       within the Federal Government.

       Public costs and revenues are exchange transactions made between the reporting entity and a
       nonfederal entity.

       The AFWCF’s systems do not track intragovernmental transactions by customer at the transaction
       level. Buyer-side expenses are adjusted to agree with internal seller-side revenues. Expenses are
       generally adjusted by reclassifying amounts between federal and nonfederal expenses.

       The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the
       Federal Government supported by appropriations or other means. The intent of SNC is to provide
       gross and net cost information related to the amount of output or outcome for a given program or
       organization administered by a responsible reporting entity. The DoD’s current processes and
       systems generally do not capture and report accumulated costs for major programs based upon the
       performance measures as required by the Government Performance and Results Act. The DoD is in
       the process of reviewing available data and developing a cost reporting methodology as required by
       the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial Cost
       Accounting Concepts and Standards for Federal Government,” as amended by SFFAS No. 30,
       “Inter-entity Cost Implementation.”

       The AFWCF records transactions on an accrual basis. The AFWCF may not have all the actual
       costs and revenues input into the system in time for reporting. Accrual estimates based upon
       budget information, historical data, and current data not yet input are made as required by generally
       accepted accounting principles. These estimates reverse as actual costs or revenues are recorded.




152
                                                                                                                2009
                                                                                            Working Capital Fund
                                                                                           Notes to the Principal Statements




The AFWCF processed two prior period adjustments (PPA) totaling $3.4 billion for material errors
associated with inventory.

The first PPA in the amount of $1.7 billion was processed due to a material error occurring when
components of kits in the Standard Base Supply System (SBSS) were transferred from Readiness
Spares Packages (RSP) and War Readiness Material (WRM) to Peace Time Operating (POS) stock.
The resulting financial transactions were coded incorrectly causing the subject inventory to be
treated financially as a lateral shipment of inventory instead of an inventory reclassification within
the Consolidated Sustainment Activity Group-Supply Division (CSAG-Supply) Inventory.
Therefore, AF inventory was inadvertently double counted and an inappropriate gain was recorded
in the Standard Material Accounting System (SMAS). We have documented 76,120 erroneous
transactions totaling $1.7 billion for FY 2004 – 2007 that were treated in this manner.

The second PPA in the amount of $1.7 billion was processed due to a material error where receipts
from repair contractors were coded incorrectly for CSAG-Supply Working Capital Inventory.
AFMC Inventory was double counted and a gain was recorded when the receipt was not coded to
relieve the In-Transit Inventory account at the time Air Force inventory was received back from the
repair contractor. We have documented 23,367 erroneous transactions totaling $1.7 billion for
FY 2001 – 2008 that were treated in this manner.

The processing of these PPAs resulted in a prior period adjustment of $3.4 billion, of which
$233.0 million affected the FY 2008 Gross Costs ending balance. The effects of these PPAs on the
financial statements are reflected in Note 26, Restatements.




                                                                                                                       153
Working Capital Fund
Notes to the Principal Statements




   Note 19. Disclosures Related to the Statement of Changes in Net Position

   Other Financing Sources, Other is comprised of:

         1. A $62.5 million adjusting entry that increased Real Property balance and nonexchange gain
         presented as Other Financing Sources on the Statement of Changes in Net Position due to a one
         time adjustment processed in the 1st Quarter, FY 2009 to adjust the balance on the AFWCF
         financial statements to match that of the Automated Civil Engineer System - Real Property
         (ACES-RP).

         2. A $54.9 million adjusting entry that increased Equipment balance and nonexchange gain
         presented as Other Financing Sources on the Statement of Changes in Net Position due to an
         adjustment processed in the 4th Quarter, FY 2009 to adjust the balances on the AFWCF financial
         statements to agree with the Defense Industrial Financial Management System (DIFMS) and the
         Air Force Equipment Management System (AFEMS).

         3. A ($23.9) million reclassification from an exchange loss presented on the Statement of Net
         Cost of Operations to a nonexchange loss presented as Other Financing Sources on the Statement
         of Changes in Net Position due to property transfers for which a trading partner could not be
         identified.


      The AFWCF processed two prior period adjustments (PPA) totaling $3.4 billion for material errors
      associated with inventory.

         1. The first PPA in the amount of $1.7 billion was processed due to a material error occurring
         when components of kits in the Standard Base Supply System (SBSS) were transferred from
         Readiness Spares Packages (RSP) and War Readiness Material (WRM) to Peace Time Operating
         (POS) stock. The resulting financial transactions were coded incorrectly causing the subject
         inventory to be treated financially as a lateral shipment of inventory instead of an inventory
         reclassification within the Consolidated Sustainment Activity Group-Supply Division
         (CSAG-Supply) Inventory. Therefore, AF inventory was inadvertently double counted and an
         inappropriate gain was recorded in the Standard Material Accounting System (SMAS). We have
         documented 76,120 erroneous transactions totaling $1.7 billion for FY 2004 – 2007 that were
         treated in this manner.

         2. The second PPA in the amount of $1.7 billion was processed due to a material error where
         receipts from repair contractors were coded incorrectly for CSAG-Supply Working Capital
         Inventory. AFMC Inventory was double counted and a gain was recorded when the receipt was
         not coded to relieve the In-Transit Inventory account at the time Air Force inventory was received
         back from the repair contractor. We have documented 23,367 erroneous transactions totaling
         $1.7 billion for FY 2001 – 2008 that were treated in this manner.

         3. The processing of these PPAs resulted in a prior period adjustment of $3.4 billion. The effects
         of these PPAs on the financial statements are reflected in Note 26, Restatements.



154
                                                                                                             2009
                                                                                        Working Capital Fund
                                                                                        Notes to the Principal Statements




Note 20.        Disclosures Related to the Statement of Budgetary Resources


As of September 30                                                 2009                              2008
(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for
   Undelivered Orders at the End of the Period                $             6,276,148    $                    6,596,132

2. Available Borrowing and Contract Authority at the End of
   the Period                                                                      0                                  0

   All of AFWCF obligations are reimbursable obligations in apportionment category B.

   The Statement of Budgetary Resources (SBR) includes intraentity transactions because the
   statements are presented as combined.




                                                                                                                    155
Working Capital Fund
Notes to the Principal Statements




   Note 21. Reconciliation of Net Cost of Operations to Budget



   As of September 30                                              2009                     2008 Restated
   (Amounts in thousands)

  Resources Used to Finance Activities:
  Budgetary Resources Obligated:
  1. Obligations incurred                                      $        11,238,329      $          10,968,071
  2. Less: Spending authority from offsetting                         (11,280,419)               (11,765,169)
     collections and recoveries (-)
  3. Obligations net of offsetting collections                 $            (42,090)    $          (797,098)
      and recoveries
  4. Less: Offsetting receipts (-)                                                 0                        0
  5. Net obligations                                           $            (42,090)    $          (797,098)
  Other Resources:
  6. Donations and forfeitures of property                                         0                       0
  7. Transfers in/out without reimbursement (+/-)                           (64,772)                (47,477)
  8. Imputed financing from costs absorbed by others                        151,466                  144,150
  9. Other (+/-)                                                              93,605               (632,100)
  10. Net other resources used to finance activities           $             180,299    $          (535,427)
  11. Total resources used to finance activities               $             138,209    $         (1,332,525)
  Resources Used to Finance Items not Part of the Net
       Cost of Operations:
  12. Change in budgetary resources obligated for
      goods, services and benefits ordered but not yet
      provided:
      12a. Undelivered Orders (-)                              $             319,984    $            600,220
      12b. Unfilled Customer Orders                                        (345,924)               (319,145)
  13. Resources that fund expenses recognized in prior                      (52,004)                (11,609)
       Periods (-)
  14. Budgetary offsetting collections and receipts that                           0                        0
       do not affect Net Cost of Operations
  15. Resources that finance the acquisition of assets (-)                (5,012,188)             (4,945,969)
  16. Other resources or adjustments to net obligated
       resources that do not affect Net Cost of
       Operations:
       16a. Less: Trust or Special Fund Receipts                                   0                        0
              Related to exchange in the Entity’s Budget (-)
       16b. Other (+/-)                                                     (28,833)                 679,577
  17. Total resources used to finance items not part           $          (5,118,965)   $         (3,996,926)
       of the Net Cost of Operations
  18. Total resources used to finance the Net Cost             $          (4,980,756)   $         (5,329,451)
       of Operations




156
                                                                                                              2009
                                                                                         Working Capital Fund
                                                                                         Notes to the Principal Statements




    As of September 30                                              2009                           2008 Restated
    (Amounts in thousands)


   Components of the Net Cost of Operations that will
   not Require or Generate Resources in the Current
       Period:

   Components Requiring or Generating Resources in
       Future Period:
   19. Increase in annual leave liability                  $                        0    $                          0
   20. Increase in environmental and disposal liability                             0                               0
   21. Upward/Downward reestimates of credit subsidy                                0                               0
       expense (+/-)
   22. Increase in exchange revenue receivable from                                 0                               0
       the public (-)
   23. Other (+/-)                                                                  0                              46
   24. Total components of Net Cost of Operations that     $                        0    $                         46
       will Require or Generate Resources in future
       periods

   Components not Requiring or Generating Resources:
   25. Depreciation and amortization                       $                  161,990    $                    132,208
   26. Revaluation of assets or liabilities (+/-)                             917,325                       1,077,513
   27. Other (+/-)
       27a. Trust Fund Exchange Revenue                                              0                               0
       27b. Cost of Goods Sold                                               7,846,612                       5,888,617
       27c. Operating Material and Supplies Used                                78,280                               0
       27d. Other                                                          (3,869,129)                     (1,826,691)
   28. Total Components of Net Cost of Operations that     $                5,135,078    $                  5,271,647
       will not Require or Generate Resources

   29. Total components of Net Cost of Operations          $                5,135,078    $                  5,271,693
       that will not Require or Generate Resources in
       the current period

   30. Net Cost of Operations                              $                  154,322    $                    (57,758)



Due to the AFWCF’s financial system limitations, budgetary data is not in agreement with
proprietary expenses and assets capitalized. The difference between budgetary and proprietary
data is a previously identified deficiency.

Resources That Finance the Acquisition of Assets is adjusted in order to align the note schedule
with the amount reported on the Statement of Net Cost. This adjustment of $72.0 million
(absolute value) was made in Finance the Acquisition of Assets category.



                                                                                                                     157
Working Capital Fund
Notes to the Principal Statements




  The following schedule lines are presented as combined instead of consolidated due to
  intraagency budgetary transactions not being eliminated:

      x   Obligations Incurred
      x   Less: Spending Authority from Offsetting Collections and Recoveries
      x   Obligations Net of Offsetting Collections and Recoveries
      x   Less: Offsetting Receipts
      x   Net Obligations
      x   Undelivered Orders
      x   Unfilled Customer Orders

  The majority of Resources Used to Finance Activities, Other line is comprised of:

          1. A $62.5 million adjusting entry that increased Real Property balance and nonexchange
          gain presented as Other Financing Sources on the Statement of Changes in Net Position
          due to a one time adjustment processed in the 1st Quarter, FY 2009 to adjust the balance
          on the AFWCF financial statements to match that of the Automated Civil Engineer
          System - Real Property (ACES-RP).

          2. A $54.9 million adjusting entry that increased Equipment balance and nonexchange
          gain presented as Other Financing Sources on the Statement of Changes in Net Position
          due to an adjustment processed in the 3rd Quarter, FY 2009 to adjust the balances on the
          AFWCF financial statements to agree with the Defense Industrial Financial Management
          System (DIFMS) and the Air Force Equipment Management System (AFEMS).

          3. A ($23.9) million reclassification from an exchange loss presented on the Statement of
          Net Cost of Operations to a nonexchange loss presented as Other Financing Sources on
          the Statement of Changes in Net Position due to property transfers for which a trading
          partner could not be identified.

  The majority of Other resources or adjustments to net obligated resources that do not affect Net
  Cost of Operations is comprised of:

          1. A $62.5 million adjusting entry that increased Real Property balance and nonexchange
          gain presented as Other Financing Sources on the Statement of Changes in Net Position
          due to a one time adjustment processed in the 1st Quarter, FY 2009 to adjust the balance
          on the AFWCF financial statements to match that of the Automated Civil Engineer
          System - Real Property (ACES-RP)

          2. A $54.9 million adjusting entry that increased Equipment balance and nonexchange
          gain presented as Other Financing Sources on the Statement of Changes in Net Position
          due to an adjustment processed in the 3rd Quarter, FY 2009 to adjust the balances on the
          AFWCF financial statements to agree with the Defense Industrial Financial Management
          System (DIFMS) and the Air Force Equipment Management System (AFEMS).

          3. A ($23.9) million reclassification from an exchange loss presented on the Statement of
          Net Cost of Operations to a nonexchange loss presented as Other Financing Sources on
          the Statement of Changes in Net Position due to property transfers for which a trading
          partner could not be identified.
158
                                                                                                               2009
                                                                                          Working Capital Fund
                                                                                          Notes to the Principal Statements




       4. ($64.8) million represents property transfers to other DoD agencies.

The majority of Other Components not Requiring or Generating Resources is comprised of
$3.9 billion for Depot Maintenance Activity Group work-in-process offsets.

Note 22.       Disclosures Related to Incidental Custodial Collections

    The AFWCF collects incidental custodial revenues generated primarily from these nonentity
    interest/penalties/administrative fees and distributes them to the General Fund of the Treasury.

Note 23. Earmarked Funds
The AFWCF has no Earmarked Funds.

Note 24. Fiduciary Activities
AFWCF has no Fiduciary Activities.

Note 25. Other Disclosures
The AFWCF has no Other Disclosures.




                                                                                                                      159
Working Capital Fund
Notes to the Principal Statements




       Note 26.        Restatements

           The AFWCF processed two prior period adjustments (PPA) totaling $3.4 billion for material errors
           associated with inventory.

               The first PPA in the amount of $1.7 billion was processed due to a material error occurring
               when components of kits in the Standard Base Supply System (SBSS) were transferred from
               Readiness Spares Packages (RSP) and War Readiness Material (WRM) to Peace Time
               Operating (POS) stock. The resulting financial transactions were coded incorrectly causing the
               subject inventory to be treated financially as a lateral shipment of inventory instead of an
               inventory reclassification within the Consolidated Sustainment Activity Group-Supply Division
               (CSAG-Supply) Inventory. Therefore, AF inventory was inadvertently double counted and an
               inappropriate gain was recorded in the Standard Material Accounting System (SMAS). We have
               documented 76,120 erroneous transactions totaling $1.7 billion for FY 2004 – 2007 that were
               treated in this manner.

               The second PPA in the amount of $1.7 billion was processed due to a material error where
               receipts from repair contractors were coded incorrectly for CSAG-Supply Working Capital
               Inventory. AFMC Inventory was double counted and a gain was recorded when the receipt was
               not coded to relieve the In-Transit Inventory account at the time Air Force inventory was
               received back from the repair contractor. We have documented 23,367 erroneous transactions
               totaling $1.7 billion for FY 2001 – 2008 that were treated in this manner.

           Correction of these errors resulted in the following line items in the 2008 financial statements:

                   a. CONSOLIDATED BALANCE SHEET
                          i. Inventory and Related Property, Net: $3.4 billion
                         ii. Total Assets: $3.4 billion
                        iii. Cumulative Results of Operations - Other Funds: $3.4 billion
                        iv. Total Net Position: $3.4 billion
                         v. Total Liabilities and Net Position: $3.4 billion

                   b. CONSOLIDATED STATEMENT OF NET COST
                          i. Gross Costs: ($233.0) million
                         ii. Net Program Costs: ($233.0) million
                        iii. Net Cost of Operations: ($233.0) million

                   c. CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                          i. Corrections of errors (+/-): $3.2 billion
                         ii. Net Cost of Operations (+/-): ($233.0) million
                        iii. Net Position: $3.4 billion




160
                                     2009



Working Capital Fund
Fiscal Year 2009
Required Supplementary Information




                                       161
Working Capital Fund
Required Supplementary Information




Statement of Disaggregated Budgetary Resources
As of September 30, 2009 and 2008 ($ in thousands)
                                                                               Working              2009                2008
                                                                             Capital Fund         Combined            Combined

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                          $         343,595    $        343,595    $      1,073,782
Recoveries of prior year unpaid obligations                                         89,013              89,013                   0
Budget authority
   Appropriation                                                                    61,465              61,465              66,458
   Contract authority                                                            7,255,839           7,255,839           6,633,730
   Spending authority from offsetting collections
      Earned
        Collected                                                               11,599,508          11,599,508          11,677,265
        Change in receivables from Federal sources                                 (62,179)            (62,179)            407,049
      Change in unfilled customer orders
        Advance received                                                           (98,643)            (98,643)            (77,781)
        Without advance from Federal sources                                      (247,280)           (247,280)           (241,364)
   Subtotal                                                              $      18,508,710    $     18,508,710    $     18,465,357
Nonexpenditure transfers, net, anticipated and actual                             (251,274)           (251,274)            (88,000)
Permanently not available                                                       (7,078,077)         (7,078,077)         (8,139,473)
Total Budgetary Resources                                                $      11,611,967    $     11,611,967    $     11,311,666
STATUS OF BUDGETARY RESOURCES:
Obligations incurred:
   Reimbursable                                                                 11,238,329          11,238,329          10,968,071
   Subtotal                                                                     11,238,329          11,238,329          10,968,071
Unobligated balance:
   Apportioned                                                                           0                   0             343,595
   Exempt from apportionment                                                       373,638             373,638                   0
   Subtotal                                                                        373,638             373,638             343,595
Total status of budgetary resources                                      $      11,611,967    $     11,611,967    $     11,311,666
CHANGE IN OBLIGATED BALANCE:
Obligated balance, net
    Unpaid obligations, brought forward, October 1                       $        7,946,887   $       7,946,887   $       8,883,865
    Less: Uncollected customer payments from Federal sources,                   (4,010,572)         (4,010,572)         (3,844,887)
    brought forward, October 1
   Total unpaid obligated balance                                                 3,936,315           3,936,315           5,038,978
Obligations incurred net (+/-)                                                   11,238,329          11,238,329   $      10,968,071
Less: Gross outlays                                                            (11,573,286)        (11,905,048)        (11,905,048)
Obligated balance transferred, net payments from Federal sources (+/-)
Less: Recoveries of prior year unpaid oblligations, actual               $         (89,013)   $        (89,013)   $               0
Change in uncollected customer payments from Federal sources (+/-)                 309,459             309,459            (165,685)
Obligated balance, net, end of period
    Unpaid obligations                                                            7,522,917           7,522,917           7,946,888
    Less: Uncollected customer payments (+/-) from Federal sources (-)          (3,701,113)         (3,701,113)         (4,010,572)
    Total, unpaid obligated balance, net, end of period                           3,821,804           3,821,804           3,936,316
NET OUTLAYS
Net Outlays:
   Gross outlays                                                                 11,573,286          11,573,286          11,905,048
   Less: Offsetting collections                                                (11,500,865)        (11,500,865)        (11,599,484)
   Net Outlays                                                           $           72,421   $          72,421   $         305,564




162
Working Capital Fund
Fiscal Year 2009
Audit Opinion




                       163
Working Capital Fund
Audit Opinion




164
             2009
Working Capital Fund
           Audit Opinion




                    165
Working Capital Fund
Audit Opinion




166
             2009
Working Capital Fund
           Audit Opinion




                    167
Working Capital Fund
Audit Opinion




168
             2009
Working Capital Fund
           Audit Opinion




                    169
Working Capital Fund
Audit Opinion




170
             2009
Working Capital Fund
           Audit Opinion




                    171
Working Capital Fund
Audit Opinion




                       ( U.S. Air Force Photo by SrA Matthew Smith)


172
